<html>
<title> - MILITARY EXPOSURES: THE CONTINUING CHALLENGES OF CARE AND COMPENSATION</title>
<body><pre>[Senate Hearing 107-792]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-792
 
 MILITARY EXPOSURES: THE CONTINUING CHALLENGES OF CARE AND COMPENSATION
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION




                               __________

                             JULY 10, 2002

                               __________

      Printed for the use of the Committee on Veterans' Affairs 








                           U.S. GOVERNMENT PRINTING OFFICE
83-281                          WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON VETERANS' AFFAIRS

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman

BOB GRAHAM, Florida                  ARLEN SPECTER, Pennsylvania
JAMES M. JEFFORDS (I), Vermont       STROM THURMOND, South Carolina
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
PAUL WELLSTONE, Minnesota            BEN NIGHTHORSE CAMPBELL, Colorado
PATTY MURRAY, Washington             LARRY E. CRAIG, Idaho
ZELL MILLER, Georgia                 TIM HUTCHINSON, Arkansas
E. BENJAMIN NELSON, Nebraska         KAY BAILEY HUTCHISON, Texas

  Mary J. Schoelen, Deputy Staff Director, Benefits Programs/General 
                                Counsel

      William F. Tuerk, Minority Chief Counsel and Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              

                             July 10, 2002

                                SENATORS

                                                                   Page
Nelson, Hon. Bill, U.S. Senator from Florida, prepared statement.     4
Rockefeller Hon. John D., IV, U.S. Senator from West Virginia, 
  prepared statement.............................................     8
Specter, Hon. Arlen, U.S. Senator from Pennsylvania, prepared 
  statement......................................................     1

                               WITNESSES

Cole, Leonard A., Ph.D., Adjunct Professor, Department of 
  Political Science, Rutgers University, Newark, NJ..............    55
    Prepared statement...........................................    57
Cooper, Hon. Daniel L., Under Secretary for Benefits, Department 
  of Veterans Affairs; accompanied by Robert Epley, Associate 
  Deputy Under Secretary for Policy and Program Management, 
  Veterans Benefits Administration, and Susan Mather, M.D., Chief 
  Officer, Public Health and Environmental Hazards...............     9
    Prepared statement...........................................    11
Schwartz, Linda Spoonster, Chair, VVA Healthcare Committee, 
  Vietnam Veterans of America, joint prepared statement..........    42
Smithson, Steven R., Assistant Director, National Veterans 
  Affairs and Rehabilitation Commission, The American Legion.....    50
    Prepared statement...........................................    52
Weidman, Richard F., Director of Government Relations, Vietnam 
  Veterans of America; accompanied by Linda Spoonster Schwartz, 
  Ph.D., Chair, Vietnam Veterans of America Healthcare Committee.    39
    Joint prepared statement.....................................    42
Winkenwerder, William, M.D., Assistant Secretary for Health 
  Affairs, U.S. Department of Defense; accompanied by Ellen 
  Embrey, Deputy Assistant Secretary for Defense for Force Health 
  Protection and Readiness, and Michael E. Kilpatrick, M.D., 
  Director, Deployment Support, Force Health Protection and 
  Readiness......................................................    14
    Prepared statement...........................................    16

                                APPENDIX

Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
  prepared statement.............................................    61
Hayden, Paul A., Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States, prepared 
  statement......................................................    70
Ilem, Joy J., Assistant National Legislative Director, Disabled 
  American Veterans, prepared statement..........................    61
Love, Kirt P., President, Desert Storm Battle Registry, joint 
  prepared statement.............................................    64
Lyons, Paul, President, Desert Storm Justice Foundation, joint 
  prepared statement.............................................    64
National Gulf War Resource Center, prepared statement............    66
Wolf, Dannie, President, American Veteran Justice Foundation, 
  joint prepared statement.......................................    64

                                 (iii)


 MILITARY EXPOSURES: THE CONTINUING CHALLENGES OF CARE AND COMPENSATION

                              ----------                              


                        WEDNESDAY, JULY 10, 2002

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:42 a.m., in 
room SR-418, Russell Senate Office Building, Hon. Arlen 
Specter, presiding.
    Present: Senators Rockefeller, Wellstone, Nelson, and 
Specter.
    Also present: Senator Nelson of Florida.
    Senator Specter [presiding]. Good morning, ladies and 
gentlemen. Senator Rockefeller, who is en route, has asked that 
I begin these proceedings.
    This morning the Committee on Veterans' Affairs will hold a 
hearing on so-called Project SHAD, an acronym for Shipboard 
Hazard and Defense, a U.S. Navy project in the 1960's. This 
program was designed to test effectiveness of both delivery and 
protective systems relating to chemical weapons, and it was 
comprised of many tests, more than a hundred.
    A number of issues have arisen as to the propriety of 
subjecting U.S. naval personnel to these tests: whether there 
were deadly biological agents to which they were exposed; 
whether such exposures were intended, or merely incidental to 
collecting data on animal subjects; whether VX and sarin--very 
lethal agents--were used; and whether the U.S. personnel were 
really, in effect, guinea pigs, which the Department of Defense 
has denied.
    There is a problem in the present of identifying the people 
who were subjected to these exposures, and this committee has 
decided to convene this hearing to try to make a determination 
as to what the facts are, whether the action taken by the 
Department of Defense was proper, what exposures there were, 
and what were the circumstances of those exposures. There has 
been an assertion that consent was given, but no formal written 
consent forms have been located.
    [The prepared statement of Senator Specter follows:]

      Prepared Statement of Hon. Arlen Specter, U.S. Senator From 
                              Pennsylvania

    Thank you, Mr. Chairman, for convening this important 
hearing. You have done so, at least in part, at my request. I 
appreciate that consideration.
    With this hearing, the Chairman and I hope to shed some 
light on an episode in the history of the Cold War--so-called 
``Project SHAD''--that has, at minimum, some unfortunate 
features. Project SHAD--an acronym referring to ``Shipboard 
Hazard and Defense''--was part of a larger Department of 
Defense effort--labeled Project 112--designed to identify and 
test defenses against potential chemical and biological 
weapons.
    Of course, the identification and testing of potential 
defenses against potential chemical and biological weapons was 
a salutary goal--one that has relevance to this day. 
Unfortunately, the way DOD went about Project SHAD testing 
appears to have been, at minimum, less than salutary. Based on 
material we have seen--and I hasten to add we have seen 
information related to only 12 of 103 tests, and that 
information has been ``scrubbed'' by the Pentagon to include 
only information that DOD deems to be ``medically relevant''--
we are not looking at a ``horror story'' here; it does not 
appear that, as a general proposition, DOD used Naval crews as 
``guinea pigs'' to test the efficacy of highly dangerous 
weapons or of protective devices.
    It is clear, however, that Naval crews were exposed--
likely, needlessly exposed--to the deadly chemical warfare 
agents sarin and VX. It is clear, further, that Naval personnel 
were directly and intentionally exposed to biological agents--
ones less deadly, it appears, than sarin or VX, but agents that 
are hardly harmless. Finally, Naval crews were exposed to 
supposedly harmless ``simulants''--agents designed to mimic the 
properties of sarin and VX.
    These exposures raise significant questions relating to 
informed consent. Was consent actually sought and gained? Was 
it truly ``informed'' and freely given? Was consent properly 
documented? And perhaps most importantly, was it proper to 
conduct these experiments at all--even with consent? These are 
questions I look forward to exploring with our DOD, and other, 
witnesses.
    I am pleased, also, to see that VA is present today. For 
whatever judgments might be made on the propriety of DOD 
actions in the 1960s, the Federal Government surely must 
rectify the situation now. And just as it was the case after 
Vietnam and after the Gulf War, VA is--once again--the agency 
left to pick up the pieces. I am interested to learn of VA's 
assessment of the health status of Project SHAD veterans. I am 
also interested in learning of VA's experience in notifying 
them, treating them, and in processing their claims for 
compensation.
    It is imperative that the Pentagon do better in getting 
information to VA relating to Project SHAD, and other, 
exposures to dangerous chemical or biological agents by service 
members. VA must have this information so that it might provide 
Project SHAD veterans with medical treatment and, if 
appropriate, compensation. In this regard, I note that of the 
approximately 2800 service members who were exposed in 12 of 34 
Project SHAD tests--only the tip of the Project 112 iceberg--
just 622 have been notified. For DOD to state that it cannot 
usefully identify more than 622 veterans by Social Security 
number is wholly inadequate. If DOD has no way of cross-
referencing Service Numbers to Social Security Numbers, it must 
find a way--and it must do so now.
    Mr. Chairman, I look forward to hearing this testimony and 
questioning the witnesses. So let us proceed.

    Senator Specter. And now I yield to the distinguished 
chairman of this committee, who has arrived.
    Chairman Rockefeller. No. You go ahead.
    Senator Specter. Now I do not yield to the distinguished 
chairman. [Laughter.]
    I call on Senator Nelson for an opening statement.
    Senator Nelson of Nebraska. Thank you very much, Mr. 
Chairman, and I certainly want to thank you, the chairman, 
Senator Rockefeller, for holding this hearing today and the 
witnesses for appearing to help us understand the hazards which 
our men and women have been exposed to during these past 
several decades.
    As you know, the United States is not only a great country 
but a compassionate country, so the men and women who serve in 
the military do understand that there are certain risks that 
are assumed. But sometimes there are risks that are assumed 
unknowingly. And in spite of the risks that are there, the men 
and women of the military serve our Nation with distinction and 
with great sacrifices. And that is why it is so disheartening 
when we hear from veterans today who feel that the country 
isn't honoring the commitment that has been made to them when 
they pledged to give their lives and their commitment to our 
country.
    So it is difficult to understand why some veterans aren't 
being told what they have been exposed to in order to ensure 
that they can get proper treatment. If they don't know, they 
can't followup on it.
    Additionally, it is important that health care providers 
know what these hazards are that their patients have been 
exposed to so that they can build a knowledge base on how to 
treat their current patients and similar patients in the 
future. It is apparent that the veterans service organizations, 
the Department of Defense, as well as the Department of 
Veterans Affairs need to communicate better and more openly on 
this issue of military exposure.
    I truly believe that the improved communications will 
benefit the veterans who are suffering by allowing them to get 
the care that they need and that they deserve. And so I want to 
again thank the chairman and ranking member for this hearing 
today and look forward to as much of the testimony as I might 
hear today, and we will follow the written testimony as well. 
So thank you very much, and thank you, Mr. Chairman.
    Senator Specter. Senator Wellstone, would you care to make 
an opening statement?
    Senator Wellstone. Thank you, Mr. Chairman. You know what I 
think I will do is I will include my opening statement in the 
record and make about 2 minutes of remarks. And I have talked 
to Senator Nelson about this, and as I look at this experience 
with Project SHAD----
    Senator Specter. Which Senator Nelson?
    Senator Wellstone. You are right. Both. How about both? 
Both of them, both Nelsons, Senator Nelson from Florida, but I 
also was listening to the comments of my colleague from 
Nebraska, and I agree.
    The only thing I want to say besides the statement that is 
in the record--and Jay and I have, I think, talked about this 
as well--this is--we have this kind of awful record. I mean, I 
remember the work with Atomic veterans, and this just reminds 
me of Atomic veterans, Gulf veterans, Agent Orange, and it is 
this awful record of excessive secrecy and sort of people, you 
know, veterans and their families feeling like the Government 
is not being honest with them, they are put in harm's way, and, 
you know, they keep asking for some recognition of what has 
happened. They keep asking for some compensation. They keep 
asking for treatment, and over and over again they come up 
against this wall of--I don't know whether it is the secrecy or 
whether it is just sometimes incompetence. But I really hate to 
see this again, and I really believe that this is an extremely 
important hearing. Finally, because of Secretary Gober and 
Secretary Principi, we are able to get the compensation for the 
Atomic veterans.
    The other point is it is just an awful thing when veterans 
feel like, you know, they haven't been dealt with honestly by 
their Government and they were put in harm's way and now no one 
is really listening to them.
    My other point is, assuming that the scientific evidence, 
Mr. Chairman, both chairman and ranking minority member, 
remains ambiguous, that you don't know for sure, then it seems 
to me the policy question is which side do you err on. And it 
seems to me that we have got enough experience here to know 
that we ought to err on the side of these veterans and their 
families. And that is my second point and last point. It is a 
very important hearing, and I thank my colleagues and the Chair 
for this.
    Senator Specter. Senator Nelson of Florida has introduced 
legislation on this subject, and while he is not a member of 
this committee, we welcome him here and invite him to make any 
comments at this time as he may choose to make.

 STATEMENT OF HON. BILL NELSON, U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Nelson of Florida. Mr. Chairman, the Nelson boys 
are here, and I might say, just prior to my remarks, that this 
Nelson is a very honorable Nelson because we both had a stake 
in the national championship in the Rose Bowl. [Laughter.]
    And we had a little friendly bet: a crate of Florida 
oranges versus a box of Omaha steaks. And I am certainly 
enjoying those steaks.
    Senator Specter. Thank you very much for those relevant 
comments. [Laughter.]
    Senator Nelson of Florida. I thought you would enjoy that.
    Senator Specter. Do you have anything to say on the subject 
at hand?
    Senator Nelson of Florida. Mr. Chairman, I have quite a bit 
to say about this issue. In the 1960's and 1970's, sailors were 
gassed on ships in the Pacific. It is unclear as to whether or 
not they were told. It is unclear as to whether or not they 
were given the protective gear. Thirty and forty years later, 
those sailors are now receiving letters saying, ``You may have 
some ill health effects, and we want you to go into a veterans' 
medical facility.''
    As a matter of fact, there were 113 of these tests that 
were conducted in those two decades, and only 6 of those 113 
tests have been declassified. And of those 6 tests, there is an 
approximate population of 4,300 veterans that are to be 
notified, but of which only 622 have been notified by mail by 
the Veterans Administration. Fifty-one of those 622 happen to 
be in the State of Florida, and I would say to each of the 
Senators here there is a list of how many veterans have been 
notified in your State. I know that in Senator Wellstone's, of 
those 622 there are some 14 or 18, and, of course, those 
numbers will just increase as the various tests are 
declassified and as the notification process continues.
    So the question is: What happened? In fact, if the issue 
needs to be kept classified, then it can certainly be handled 
within the bosom of the appropriate committees. In the DoD 
authorization bill that we just passed before the break, Mr. 
Chairman, we added an amendment that would require the DoD to 
come forth and explain what happened in these tests, not only 
in SHAD but in a host of other tests.
    For example, in the 1950's, in Boca Raton, FL, there were 
tests being conducted on developing a toxin that would destroy 
the Soviet wheat crop. And when I inquired as to this, because 
there is an 85-acre parcel at the old Boca Raton military air 
field, which, by the way, is now the site of Florida Atlantic 
University, one of our State universities, and the very busy 
Boca Raton Airport, the general aviation airport. But that 85-
acre site is still untouched.
    And so when I wrote after having heard a number of the 
comments come out of that area, the Department of Defense says 
it is classified. So we just added an amendment to the DoD 
authorization bill that said if you have to come forth, you are 
going to come forth, Mr. DoD, and report to us, and if it has 
to be classified, so be it. But we need to know what happened. 
We need to know were people exposed, both civilian and 
military. And if so, as these first 622 letters have been sent 
out by the Veterans Administration on the declassified SHAD 
experiments, then what is the medical problem that would now 
two and three decades later having the Government suggest that 
these veterans come in.
    So I just wanted to come, and I thank you for the 
opportunity of holding this hearing. It is extremely important 
to how we honor the people who wore the uniform of this country 
and have protected this country when it was in harm's way, and 
we need now, if they are in harm's way, to respond 
appropriately.
    Thank you, Mr. Chairman.
    Senator Specter. Well, thank you, Senator Nelson. I think 
it is worth noting that it was not until May of this year that 
the Defense Department acknowledged that these tests used real 
nerve and biological agents, and I think it is not just a 
matter of coincidence--Senator Rockefeller and I were 
exchanging notes on this--that yesterday afternoon at 5 o'clock 
the Department of Defense announced an expanded investigation 
on this issue. That is an anticipatory advantage or an 
anticipatory benefit of congressional oversight. Or perhaps it 
is just a coincidence.
    Chairman Rockefeller. I don't think so.
    Senator Specter. And now the chairman speaks. Senator 
Rockefeller?
    Chairman Rockefeller. Thank you very much, Senator Specter. 
I am always a little bit late, as you know, those of you who 
come to these meetings. I am not usually this late. But I was 
held up by a lot of traffic, and the more I was held up, the 
less I cared because my Department of Defense friends--not my 
VA friends who have been terrific on this--make people wait, 
and you make them wait forever. I don't know where you get the 
guts.
    I think back to an American hero, General Norman 
Schwarzkopf, in one of the more ignominious moments of this 
committee's history. He kept diaries on the Persian Gulf War, 
including a little incident called Khamisiyah, where a lot of 
chemical bombs had been blown up by the Americans, and he went 
over to look at them. He was really mad at the committee 
because he didn't like the idea of the committee demanding that 
he turn over his diaries because, you know, generals and people 
who fight wars don't truck or give in to mere politicians. He 
considers that an insult to his integrity. He came up here and 
he said, you know, I looked at those bombs, and they had these 
little yellow ribbons around the front of them. But the 
problem, he said, was that everything was written in Arabic. 
And how was I meant to know what was going on?
    These were his words, if you want to go back and check the 
record. And, of course, he probably didn't have more than 30 
people surrounding him who could have read those things to him. 
But was he willing to admit a single mistake, a single error, a 
single anything? Nothing.
    And that is my view of DoD. I used to get into this 
subject. Now I just get mad about it. VA has been terrific. 
Anybody from VA here has been terrific. Tony Principi has been 
terrific. They have shoved this, they have pushed this. This 
press release that Senator Specter referred to is a joke. And 
you are going to answer to it. At 5 o'clock yesterday, DoD 
expands SHAD investigation. Well, congratulations, 5 o'clock 
yesterday. I am sure that was a coincidence.
    Now, I am just a politician, you understand? People like 
you don't have to worry about people like me. You can disdain 
people like me. Because I represent people, I have to go back 
to the Persian Gulf War just like Senator Wellstone and all the 
rest of us have. You saw people who couldn't move, who had lost 
their wives, who had lost their jobs, who couldn't sleep, who 
couldn't pick up a newspaper, who you couldn't touch because 
they would scream in agony. Did DoD have anything to say about 
it? No.
    And we had an atomic war veteran come in. He had been 
through these tests earlier in the 1940's and 1950's. He 
testified. And you know what he testified about? He testified: 
I want to tell you what it is like to die, to be in the process 
of dying--which he did shortly thereafter--knowing that the 
Government never told us anything, and the Government refuses 
to because it said you can't prove you got cancer because of 
us. He's a soldier or a sailor and he's dying.
    A couple years ago we got something done about that. What 
did it take to do something about Agent Orange? You know what 
it took to get someone to look into Agent Orange exposures? Not 
anybody here, nobody from the Defense Department, I will 
guarantee you, because you never make mistakes. You never make 
mistakes.
    You know what it took? It took Admiral Zumwalt to come in 
here because his son was dying, and that got the Congress 
finally to wake up. His son was dying from Agent Orange, and 
that got Congress to wake up. And then we passed legislation, 
20 years too late.
    There is a lot of talk about the CIA and the FBI not 
cooperating, but there is no talk about either of them not 
caring. They just have cultural problems. The FBI investigates 
crimes that have already taken place. The CIA is looking 
forward to try and prevent crimes. Those are two different 
cultures, and they don't mix very well. But nobody doubts that 
they care.
    I doubt you care unless you can prove to me otherwise this 
morning.
    Now, you, Dr. Winkenwerder, are a young man. But one of 
these days, you are going to be a veteran and you may care how 
you are treated, or you may not. You may be rich enough by your 
retirement that you don't really care because you can handle it 
on your own.
    But the State that I come from and the States that most of 
us come from have veterans who can't afford to take care of 
themselves, and they depend upon the VA, which in this case had 
to depend upon you, the DoD. Because the Department of Defense 
never makes a mistake, can't make a mistake because they are 
over there fighting wars. You can't make mistakes, 
psychologically you can't admit mistakes.
    And maybe you will just care. Maybe you will be a little 
bit nervous. Maybe you will understand what some of these 
veterans have to go through.
    I don't know if there is a disdain in the Department of 
Defense for veterans, the people who fought, who kept your 
freedom.
    I don't know if you care. Really, one of the things I am 
going to probe is how you care. How do you insult us with 
something like this press release? How do you insult us? You 
know, we are elected. You are not. You get appointed. You go, 
you apply for a job, and you get a job. You are good enough to 
get a job, you pull strings to get a job, you are qualified to 
get a job, you get a job and you keep that job. You are 
accountable to the person above you, but you are not 
accountable to the people. You are not accountable like we are 
accountable.
    We spend our weekends, we spend our time with people. You 
go home at 5, you go home at 7, you play golf on weekends. We 
don't. We work. We go back and we spend time with our people.
    We are responsible to our people, and we take it seriously. 
There is not one person here who doesn't take what we do 
seriously. You don't have to face them. They are numbers to 
you. They are papers. They are things that come across. You 
don't even see veterans. Now, you make policies, or you refuse 
to make policies, or you make policies the day before the 
hearing because you know you are going to have to testify. You 
would have done better not to have put this out, in my 
judgment. I would have had more respect for you, to come in and 
say, you know, we really haven't done this very well and we are 
going to do a better job rather than something like this.
    Now, I am a temperate person, believe it or not. But I am 
not temperate when it comes to veterans getting shafted by 
inattention. And I have about eight questions for you, and I 
can't wait to ask them.
    Could I give my statement now, Mr. Chairman?
    Senator Specter. Yes, we understand that was just an 
introduction.
    Chairman Rockefeller. Yes. I don't know how much of this I 
have to give. It is the same old story, and Bill Nelson pretty 
much gave it: waiting, waiting, waiting, refusing to do 
anything, getting pressure from the VA, Tony Principi doing a 
good job, and then, of course, DoD is too busy to do anything 
about it.
    You know, you are getting lots of money. You are not under 
a restrained budget like veterans health care is under. We 
can't stretch our budgets. You can.
    So I suppose what we are here is to find out whether 
veterans are endangered by all of this. I suspect they are. I 
don't know, Doctor, if you were around during the PB 
investigations. Were you?
    Dr. Winkenwerder. No.
    Chairman Rockefeller. OK. Well, that is just too bad. You 
know that? Because you might have learned something from that. 
Because what the military was doing, they were taking an 
investigational drug that had not been approved by the FDA, 
forcing soldiers to take it. The smart ones didn't. And the 
ones who did may have paid a terrific price for it, many of 
them. And then all kinds of studies come up showing that, no, 
there is no particular connection, including reports from the 
National Academy of Sciences. You know, who am I to talk about 
the National Academy of Sciences? I don't buy any of it. I 
think there is a direct connection.
    And all during this time, we had to fight DoD for 
everything we wanted to do, including demanding that the 
esteemed General Schwarzkopf make a trip all the way from his 
comfortable home in Florida up here to Washington to talk to a 
terrible group of politicians who he so totally disdains, who 
dared to question the wisdom of the way he won his war, which 
is partly how you handle your soldiers and what you do about 
them. Do you stand up for your soldiers, your men and women, or 
don't you?
    Dr. Winkenwerder. I do.
    Chairman Rockefeller. I am not asking you. I was talking 
about him. And I don't think he did.
    Now, he is a big American hero, but when I think of him, I 
think of what he did to a lot of veterans by his inaction. He 
wouldn't even release the notes he had kept. That is why we had 
to threaten to subpoena him, to try and get at his notes. It 
wasn't anything about him. It was just trying to get at his 
notes. When he finally turned them over, he only gave us a few 
pages.
    So this is about the Department of Defense attitude. I 
mean, do you guys care? I am not sure. I am not sure. It is 
just too big a building, too many cultural problems, and you 
have got other problems. You are fighting wars. And then there 
are veterans. Oh, yes, we have veterans, but you are not 
veterans and you are out there fighting the war. Well, VA takes 
care of veterans. We try to take care of veterans. We are not a 
big and famous committee. But we can get really ticked off 
sometimes, and I hope this thing is on television somewhere. 
And I hope there are a lot of people listening because you have 
got some explaining to do. I will be looking forward to your 
statements.
    [The prepared statement of Chairman Rockefeller follows:]

 Prepared Statement of Hon. John D. Rockefeller IV, U.S. Senator From 
                             West Virginia

    Good morning. I wish that I could say that this is the 
first time the Committee has gathered in this room to talk 
about the struggles of veterans who might have been exposed to 
hazardous agents during their military service. I wish that it 
were the first time that veterans and officials from the 
Departments of Defense and Veterans Affairs have met to talk 
about the legacy of battles and tests long over but still not 
resolved. Unfortunately, it is not.
    First, I want to acknowledge that my colleague, Ranking 
Member Arlen Specter, requested this hearing based on his 
outrage over the Project SHAD revelations to date. I was 
pleased to accommodate his request, especially given my long 
history of investigating military exposures and the 
consequences for veterans.
    In 1994, I chaired a hearing in this room on the legacy of 
military research, on the double battle that veterans must wage 
with illnesses that may have resulted from service and with the 
shroud of secrecy that bars them from the care and the benefits 
they so desperately needed. We talked about the hazards that 
military research posed to veterans' health, and the lessons we 
have learned from World War II until today. The transcript from 
that hearing is in front of me, and contains a lot of good 
ideas and good intentions and regrets about the way veterans 
have been treated in the past. Eight years later, we still 
haven't learned those lessons.
    DOD recently released information on Project SHAD--
Shipboard Hazard and Defense--tests that took place in the 
1960's. That information was released only after pressure from 
veterans and Congress spurred VA to look for answers, and after 
VA in turn pressed DOD for details that had remained quietly 
hidden for decades. Two years after VA asked for information on 
SHAD, for a simple list of who and what hazards might have been 
involved, DOD finally released information on one-third of 
those tests.
    While a delay of thirty years for this trickle of 
information is appalling, sadly it is no longer shocking. 
Veterans have had to struggle to learn about the consequences 
of exposures that were no secret at all--the tests that exposed 
American forces to radiation during and after World War II, 
Agent Orange in Vietnam, and the myriad chemical and biological 
hazards of the Gulf War.
    We are here to learn whether Project SHAD endangered 
veterans' health, but we are also here to address the military 
culture that still fails to keep good medical records and to 
share those records with servicemembers and veterans in a clear 
and timely way. When confronted with questions from veterans, 
VA, and Congress, DOD first obfuscates, and then delays. This 
is unacceptable.
    I don't want to hear about difficulties in sorting and 
declassifying records, I want to hear about how we can 
streamline that process so that veterans do not have to wait 
years for answers. I know that SHAD took place decades ago on 
somebody else's watch, but I want to hear what we are doing to 
understand whether veterans are now at risk because of those 
tests, and what we can do to help them if they are at risk. 
Most importantly, I want to hear what all of us can do to 
guarantee that we don't perpetuate this cycle of delay and 
dismay again.
    We are not sitting in this room today because I want 
answers to these questions, or because Congress wants answers, 
but because veterans want--and deserve--answers.

    Senator Specter. Our first witness is Daniel Cooper, Under 
Secretary for Benefits of the Department of Veterans Affairs. 
So let us proceed. We have a long list of witnesses. We will 
hear from you, Mr. Secretary.

    STATEMENT OF HON. DANIEL L. COOPER, UNDER SECRETARY FOR 
BENEFITS, DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY ROBERT 
EPLEY, ASSOCIATE DEPUTY UNDER SECRETARY FOR POLICY AND PROGRAM 
MANAGEMENT, VETERANS BENEFITS ADMINISTRATION, AND SUSAN MATHER, 
  M.D., CHIEF OFFICER, PUBLIC HEALTH AND ENVIRONMENTAL HAZARDS

    Mr. Cooper. Yes, sir. Thank you. I will make a brief 
statement if I may.
    Mr. Chairman, members of the committee, I am pleased to be 
here to talk about SHAD and the services that VA must provide 
our veterans to ensure they are given proper notification, 
necessary claims filing assistance, and medical attention, when 
required.
    Having just recently studied the situation and attempting 
to define a path that we can follow, I will state that the 
process has been developed in fits and starts and must be 
improved. The problem is, as you know, greatly exacerbated by 
classification of the operations. That has severely hampered 
our getting the names of the units, the tests, and the 
individual participants.
    Once we get those names, we have some difficulty because we 
get the names along with the military ID numbers. We have to 
get SSN's, so we have to go through a whole process. Then, when 
we try to notify them, we have to go through OSHA in order to 
have the IRS release their addresses. So the notification 
process is a rather onerous one that we are trying to work 
through and do properly.
    The participants are being identified by name but, 
unfortunately, quite slowly. Once we determine the Social 
Security numbers, we submit those numbers, get them to the IRS, 
get the addresses back, and then finally get notifications sent 
out.
    Despite the difficult problems, as both a veteran and a VA 
official, I must state that we could have and should have done 
better. The problems cited, and particularly the certification 
firewall, caused a very difficult situation which has hampered, 
in my opinion, well-intentioned people within the organization 
who are trying to do the job properly.
    By mid-May of this year, we had identified by name just 
over 2,700 participants in 3 of the 12 tests. We have been able 
to locate and send letters to 622 of those that we could 
identify sufficiently. In this last week, we have submitted 800 
more names to the IRS through the circuitous OSHA path in order 
to try to get the addresses and notify those people.
    Every step taken has been difficult. We received the first 
set of names in April to July of last year, but we didn't 
receive information on the tests until September. In January 
through May of this year, we received the names of other 
participants. Again, we have had to cull through the whole list 
to find out exactly where they were stationed and when.
    Finally, on 22 May, we sent a letter to the people that we 
could properly identify. When I signed that letter, I was 
assured it had been well coordinated and that the veterans 
service organizations had had input. I learned later that they 
did have a problem with one of the sentences in our letter, and 
we will change that with the next letter that we send out to 
ensure that everybody is satisfied that we are doing it 
properly.
    We presently have a hotline to receive calls. We have 
carefully trained the people on that hotline. But occasionally 
we have some problems with the information they put out. We 
have given them strict guidelines as to what to tell the 
veterans, primarily to go to a medical center and get an 
examination, and we give them the name of an individual there. 
We are continuing to test that hotline to ensure that we are 
being properly responsive.
    Since the 622 letters were sent, we have received 
approximately 100 calls from potential participants in response 
to those letters. I might add that in my statement for the 
record I have an incorrect number on page 6. I would like to 
have that corrected, please, for the record.
    Senator Specter. Without objection, it will be placed in 
the record.
    Mr. Cooper. As I stated, we in VA must and will remain 
focused and work more closely. Secretary Principi has taken 
steps to ensure better coordination within VA. Similarly, VA 
and DoD must work more closely both on information availability 
and information transfer between the two of us.
    We must continue to improve the system as effectively as we 
can while adhering to the laws of the land. We strongly welcome 
any assistance possible from any source, particularly veterans 
services organizations.
    Finally, I would say I have two personnel with me today who 
are much more expert than I: Dr. Susan Mather, who is the Chief 
of VHA's Office of Public Health and Environmental Hazards; and 
Mr. Robert Epley, the Associate Deputy Under Secretary for 
Policy and Program Management in VBA. I am ready to answer any 
questions you may have, sir.
    [The prepared statement of Mr. Cooper follows:]
 Prepared Statement of Daniel L. Cooper, Under Secretary for Benefits, 
                     Department of Veterans Affairs
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on the efforts of the Departments of 
Defense (DoD) and Veterans Affairs (VA) to provide health care 
information and support to veterans who were exposed to environmental 
hazards during military service. Accompanying me today is Dr. Susan 
Mather, Chief Officer, VA Office of Public Health and Environmental 
Hazards, and Mr. Robert Epley, Associate Deputy Under Secretary for 
Policy and Program Management.
    War and training for war have always exposed America's men and 
women in uniform to a wide variety of health hazards. Each war in the 
last century has produced unique hazardous exposures. In World War I, 
chemical warfare agents, including chlorine and mustard gas, were used. 
World War II saw the first deployment of nuclear weapons. Korea exposed 
many American POWs to psychological brainwashing techniques and to 
extremely cold weather conditions. The widespread use of herbicides 
during the Vietnam War is now associated with several adverse health 
effects. Military personnel encounter a broad array of environmental 
hazards, infectious disease, and psychological health risks any time 
they deploy outside the United States.
    During peacetime, America's Armed Forces prepare for health hazards 
through research and by developing better preventive measures and 
conducting appropriate training. Many of these efforts have been well 
publicized, while others have been conducted in secret. For example, 
the testing of nuclear weapons during the Cold War exposed many 
American veterans to increased levels of radiation. Similarly, VA 
became aware in 1991 of approximately 4,000 American servicemen who had 
been exposed to high concentrations of mustard gas in both study 
chambers and field tests as a part of a larger chemical defense 
research program begun in World War II. In response, the National 
Academy of Sciences assessed the medical literature on health effects 
from those exposures, leading to new VA compensation regulations.
    Following the Gulf War in 1991, Congress identified thirty-three 
separate hazardous substances to which Gulf War veterans may have been 
exposed. Public Laws 105-277 (signed Oct. 21, 1998) and 105-368 (signed 
Nov. 11, 1998) required VA to establish an agreement with the National 
Academy of Science to review and evaluate the medical literature on 
possible health outcomes from these exposures. The first phase of this 
study was published in 2000 and additional studies are underway. In 
addition, extensive analysis has been conducted to determine the 
potential health effects of exposure to sarin and cyclosarin at 
Khamisiyah following the Gulf War.
    Most recently, VA became aware of the exposure of an undetermined 
number of U.S. service members to a variety of biological and chemical 
agents in secret tests called Project SHAD (Shipboard Hazard and 
Defense) conducted during the 1960s.
    Because of this long history of hazardous exposures of U.S. 
military populations, we must carefully examine our methods for 
identifying exposed veterans, studying the potential effects of the 
contaminants, and for providing our veterans with appropriate health 
care and deserved disability compensation.
    In the past, VA has established special programs for specific 
groups of veterans potentially exposed to environmental health hazards. 
For instance, VA responded to Gulf War health issues through a 
comprehensive program of health care, research, outreach, and special 
compensation for ``undiagnosed illnesses.'' About 12 percent (84,000) 
Gulf War veterans have participated in a clinical registry program. The 
principal finding from this clinical evaluation program is that these 
veterans are suffering from a wide variety of recognized illnesses that 
respond to conventional treatments. Subsequent research studies have 
supported these findings, as have similar results from studies 
conducted in the United Kingdom and Canada among their Gulf War veteran 
populations.
    Although special programs are useful, VA has learned many lessons 
since the Gulf War and is now taking a more pro-active approach in 
establishing policy and programs that will address environmental health 
concerns as early as possible.
                            lessons learned
Clinical Practice Guidelines
    Special clinical programs, such as the Gulf War Registry reach only 
a limited number of eligible veterans. Therefore, the VA, in 
cooperation with DoD, has taken concrete steps to better understand and 
to routinely manage post-deployment health problems. A further goal is 
to improve veterans' satisfaction with their health care. VA is using 
an evidence-based approach to develop clinical practice guidelines for 
the evaluation of military veterans following hazardous deployments. 
Just completed in collaboration with DoD are a ``Post-Deployment Health 
Evaluation and Management Guideline'' and a second clinical practice 
guideline for unexplained fatigue and muscle pain, which was recently 
released. These guidelines will provide VA physicians with the best 
medical practices for dealing with veterans following deployment. A 
clinical guideline for PTSD, now in the planning stage, will be the 
next step in the development of a sound strategy for the screening, 
assessment, and care of all veterans returning from military 
deployments.
    The regular use of standardized clinical practice guidelines that 
outline the best medical practices will decrease the need for ad hoc 
registries. Troops will be specifically screened early in the primary 
health care setting for illnesses that may be related to a military 
deployment. The Gulf War registry programs only reached a minority of 
veterans and the clinical findings from examinations of self-selected 
populations were difficult to interpret. In contrast, the post-
deployment clinical practice guidelines will ensure that the health 
problems of all veterans returning from hazardous deployments are 
addressed whenever they seek care in the DoD or VA health systems. 
These new Guidelines will give VA primary care providers the tools they 
need to diagnose and treat veterans who had participated in hazardous 
deployments.
War-Related Illness and Injury Study Centers (WRIISC)
    For veterans with severe symptoms that remain unexplained after 
examination, the local VA physician can refer them to one of VA's two 
War-Related Illness and Injury Study Centers (WRIISC) (formerly known 
as Centers for the Study of War Related Illnesses). Many of these 
veterans are concerned that their illnesses are related to 
environmental hazards they encountered during deployment. The two 
Centers are located at the VA medical centers in Washington, DC, and 
East Orange, NJ. They are charged with identifying current effective 
treatments, developing new treatments, providing environmental hazard 
health risk communication to veterans and their families, and promoting 
education for VA health care personnel on the ``difficult-to-diagnose'' 
illnesses found among veterans from all military deployments.
Veterans Health Initiative/Independent Study Guides
    Recognizing the need to educate health care providers about the 
unique medical care needs and concerns of veterans--including the 
effects of environmental hazards--VA began an ongoing training program 
known as the Veterans Health Initiative (VHI). Two key products are our 
independent study guides ``A Guide to Gulf War Veterans' Health,'' and 
``Vietnam Veterans and Agent Orange Exposure.'' In addition, VA has 
developed other new independent study guides on a broad range of unique 
veteran health issues, including Cold Injury, Hearing Impairment, Post 
Traumatic Stress Disorder (PTSD), Prisoner of War (POW), Radiation, 
Spinal Cord Injury, Visual Impairment, and Traumatic Amputation and 
Prosthetics.
Enhanced Outreach
    The Gulf War emphasized to us the value to veterans and their 
families of timely access to reliable information about the 
environmental health risks during military deployment. Acting on these 
lessons, VA developed a new brochure that addresses common health 
concerns for military service in Afghanistan and South Asia. It answers 
questions about health care and eligibility for VA benefits that 
veterans, their families, and their health care providers will have 
following this military deployment in the war on terrorism. The 
brochure also describes relevant medical care programs that VA has 
developed in anticipation of the health needs of veterans returning 
from combat and peacekeeping missions abroad. This outreach material 
has been distributed to all VAMCs and Regional Offices.
                              project shad
    The recent revelations concerning a series of Cold War tests known 
as Project SHAD reinforces the potential environmental hazards that our 
military forces face. This project was part of a DoD chemical and 
biological warfare test program conducted between 1963 and 1970 to 
evaluate the vulnerabilities of U.S. warships to attacks with chemical 
or biological warfare agents. Project SHAD exposed veterans to 
potentially harmful biological and chemical agents.
    VA first learned of SHAD when a veteran filed a claim for service 
connection for disabilities he felt were related to his participation 
in Project SHAD. In two meetings held with DoD in late 1997, VA was 
advised that all material was classified and access to material was not 
assured and could only be given on a case-by-case basis. VA was able to 
grant that particular veteran's claim without reliance on classified 
information.
    In May 2000, the Under Secretary for Benefits responded to a 
Congressional inquiry requesting assistance for veterans involved in 
Project SHAD. A VA/DoD workgroup was subsequently established and met 
the first time in October 2000. Since that time, DoD and VA have worked 
together collaboratively to develop the facts surrounding Project SHAD.
    DoD began the formal process of declassification, compiling rosters 
of participants, and providing VA with names and service numbers of 
test participants. Initially, information was provided for 1,149 
veterans involved in the tests Autumn Gold, Copper Head, and Shady 
Grove. Over a period of several months, VBA engaged in the labor 
intensive task of identifying the participants of those three tests 
identified initially. The social security numbers of 703 veterans were 
found. Using social security numbers, VA worked through the National 
Institute for Occupational Safety and Health to obtain from IRS the 
current addresses for 622 of these individuals. On May 21, 2002, 
outreach letters were mailed to the 622 identified participants 
involved in the three initial tests.
    VA has initiated a significant outreach program to contact Project 
SHAD veterans once they are located. For SHAD veterans we have so far 
been unable to identify, VA has established a SHAD Hotline (at 1-800-
749-8387), Internet web-site (at www.VA.GOV/SHAD), and e-mail address 
(at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="693a21282d212c25392520272c293f2b28473f28472e263f">[email&#160;protected]</a>). The VA Internet website provides veterans 
with information currently available and a link to DoD's web page. To 
date, approximately 125 SHAD hotline inquiries and 43 e-mail messages 
have been received. Approximately 14 SHAD related claims for service 
connection are currently pending.
    Since the beginning of calendar year 2002, DoD has provided VA with 
information on nine additional tests. Information on three tests was 
provided in January:
    <bullet> Eager Bell I
    <bullet> Eager Bell II
    <bullet> Scarlet Sage
    VA received information on six additional tests in May of this 
year:
    <bullet> Fearless Johnny
    <bullet> Flower Drum Phase I
    <bullet> Flower Drum Phase II
    <bullet> Purple Sage
    <bullet> DTC Test 68-50
    <bullet> DTC Test 69-32
    DoD has identified one hundred and three potential SHAD tests. 
However, the number of tests actually conducted is unknown. 
Furthermore, the total number of service members involved in these 
tests is not known at this time. Unfortunately, the number of veterans 
who participated in multiple tests, the names of those tests, and the 
potentially harmful agents to which they may have been exposed cannot 
be determined until all relevant documentation has been collected, 
reviewed, and declassified.
    DoD continues to review documentation and declassify additional 
SHAD tests. As names and service numbers or social security numbers are 
provided, VA will conduct the efforts required to identify the 
individuals who participated in these tests and then to locate their 
current address. We will engage in an aggressive outreach program to 
provide appropriate information to SHAD veterans.
    Project SHAD information has been provided to VA medical staff 
through annual publication of Information Letters from VA's Under 
Secretary for Health. The Information Letters provide VA health care 
personnel with background information on Project SHAD, along with 
information about the potential short- and long-term health effects of 
the specific chemical and biological agents that DoD tells us were used 
in these tests. This information has been made available on our SHAD 
web site at www.va.gov/SHAD, including the information letter and other 
relevant information. As more information becomes available, satellite 
video-conferences are planned to broadcast relevant information to all 
VA health care facilities.
    In addition, VA will begin to work with the National Personnel 
Records Center in St. Louis to review personnel and medical files for 
individuals listed as participants in tests for whom we have been 
unsuccessful in finding social security numbers. This represents 
approximately half of all the known participants provided to date. We 
are not particularly optimistic that this search will be fruitful but 
we believe that it represents a possible source of at least a few 
numbers otherwise unknown.
    Importantly, a contract with the Medical Follow-up Agency of the 
National Academy of Sciences is being developed to include a formal 
epidemiological study of mortality and morbidity among SHAD 
participants. In contrast to a clinical registry, which cannot provide 
scientific data, this independent study will give us the clearest 
picture of the health status of SHAD veterans and tell us whether their 
health was harmed by prior chemical and biological exposures.
    In the meantime, it should be stressed that there are no markers or 
laboratory tests for the exposures currently known to have occurred in 
Project SHAD. However, the provision of appropriate medical care for 
any of the conditions that have developed in the ensuing 40 years since 
the SHAD tests were begun is not dependent on specific information 
about prior exposures. High quality medical care can be provided right 
now for each SHAD veteran who seeks a clinical evaluation in the VA.
                     service-connected compensation
    In order for VA to make accurate rating decisions on claims for 
service connection for disabilities associated with SHAD, complete 
evidence is necessary when the issue is first decided. Because of the 
piecemeal and fragmented approach of declassifying and providing 
information, VA may be required to readjudicate claims as additional 
evidence becomes available for those service members involved in 
multiple tests. Likewise, as evidence is declassified and made 
available, VA may find that the new evidence regarding SHAD tests 
supports grants of service connection previously denied.
    VA will continue to send outreach letters to participants as 
additional tests are declassified and participant names and Social 
Security numbers are made available. Because it now appears that many 
of the service members participated in more than one test, our initial 
outreach efforts run the risk of being incomplete until DoD's 
declassification efforts are finished. It should be noted that in those 
cases where inquiries have come from veterans regarding tests not yet 
declassified, VA has been able to provide names to DoD and they have 
responded by providing relevant information on a timely basis.
    VA also realizes that we cannot understand all the potentially 
hazardous exposures experienced by members of the Armed Forces without 
consultation and cooperation with other government agencies, 
particularly DoD, but also HHS, EPA, and DOE. This coordination is 
being addressed at the highest levels in VHA through the VA/DoD 
Executive Council.
    In conclusion, the Department of Veterans Affairs shares this 
Committee's concern about the adverse effects of hazardous exposures 
during military service and will continue to aggressively address them. 
VA sponsors research to assess the effects of these exposures; is 
actively contacting veterans of Project SHAD to notify them of 
potential exposures; and has developed numerous studies with the 
Institute of Medicine to determine the health effects of hazardous 
exposures.
    This concludes my testimony. My colleagues and I will be happy to 
answer any questions that the Committee may have.

    Senator Specter. Thank you very much, Mr. Secretary.
    We turn now to Dr. William Winkenwerder, Assistant 
Secretary of Defense for Health Affairs. Dr. Winkenwerder, we 
are very much concerned about--and focused on--what happened 
and why nothing was done up to this point. But at this point, 
we will invite your opening statement.

 STATEMENT OF WILLIAM WINKENWERDER, M.D., ASSISTANT SECRETARY 
FOR HEALTH AFFAIRS, U.S. DEPARTMENT OF DEFENSE; ACCOMPANIED BY 
ELLEN EMBREY, DEPUTY ASSISTANT SECRETARY FOR DEFENSE FOR FORCE 
  HEALTH PROTECTION AND READINESS, AND MICHAEL E. KILPATRICK, 
M.D., DIRECTOR, DEPLOYMENT SUPPORT, FORCE HEALTH PROTECTION AND 
                           READINESS

    Dr. Winkenwerder. Thank you. Senator Specter, Mr. Chairman, 
and members of the committee, thank you for the opportunity to 
appear today and to provide this testimony. I have a written 
testimony that I will provide for the record. I just want to 
start by making a couple of comments.
    First, in response to your comment, Senator Rockefeller, 
the first is that I do care. I care greatly about these men and 
women, not only today but those of the past, the veterans. They 
are an important and critical part of the whole DoD 
responsibility. When it comes to veterans, over half, for 
example, of all the people we care for in the defense health 
program are veterans. We care for veterans, and I consider it a 
high responsibility, an important responsibility. That is why I 
am here today. I could have ignored this hearing. I chose not 
to because it is an important issue.
    I came upon this information not too long ago, certainly 
after I started, which was just after September 11th. I left my 
job in the private sector to come work here----
    Senator Specter. Dr. Winkenwerder, how could you have 
avoided this hearing?
    Dr. Winkenwerder. Pardon?
    Senator Specter. You say you could have avoided this 
hearing but chose not to.
    Chairman Rockefeller. Nobody has ever said that to us 
before.
    Dr. Winkenwerder. Well, I am just saying, you know how you 
can certainly say someone else go testify. I wanted to testify.
    Senator Specter. Well, whom would you have sent? Secretary 
Rumsfeld?
    Dr. Winkenwerder. No. There are others that could represent 
the Department on this issue.
    Chairman Rockefeller. So we should be pretty grateful then 
that you are here, shouldn't we?
    Dr. Winkenwerder. No. I am telling you I wanted to be here. 
I wanted to be here.
    Chairman Rockefeller. You had a duty to be here.
    Dr. Winkenwerder. Absolutely, and I want to be here, 
period.
    Chairman Rockefeller. Well, then, why did you point out to 
us that you didn't have to come? I am going to give you a hard 
time, OK?
    Dr. Winkenwerder. OK. Fine.
    Chairman Rockefeller. But I will accept your point. You are 
here. And I can't argue that.
    Dr. Winkenwerder. I care about this issue. I came upon this 
information, and I can assure you that I am fully engaged and 
that the other people that are with me are fully engaged.
    Senator Specter. Dr. Winkenwerder, we will accept that. 
Proceed with your statement.
    Dr. Winkenwerder. OK. Well, that is in essence--that is the 
main message. I want to assure you that the Defense Department 
is committed to working with VA and sharing medically relevant 
information from Project 112 and SHAD so that veterans who were 
involved can be notified and receive appropriate care.
    When we started our investigation into Project SHAD, which 
was, as I understand it, a couple of years ago, we encountered 
several challenges, as it has been explained to me. But I think 
today it is fair to say the investigation has established a 
format for sharing that information with the VA, has created a 
system to declassify this information in a relatively expedited 
way, and has determined the locations of the necessary 
documents. These documents, again, as it is explained to me, 
are spread out in many places. They have not been well 
catalogued. This is a problem. This is an issue. I fully accept 
that. And we are working with the respective services to look 
at literally boxes of information that are in warehouses and 
various places around the country to get the information 
catalogued and to get it back and to declassify it rapidly so 
that we can provide this information.
    We provide test information as fact sheets to the VA as 
soon as it is declassified. However, in order to expedite the 
VA's notification process, we are forwarding to the VA the 
names of service members involved in each test we identify 
before the declassification process ensues.
    To date, we have produced fact sheets on 12 SHAD tests, 
which involved about 2,700 or 2,800 service members, and so far 
our investigation indicates that most of these tests were done 
using simulants and not live agents or real agents that were 
thought and believed at that time to be harmless, not something 
that would cause any medical harm.
    Those service members involved in using live test agents 
appear from the information that we have been provided to have 
been appropriately protected from those agents. Since the Gulf 
War, the services each have made efforts to fulfill today's 
requirements, which are much greater and appropriately need to 
be, of medical recordkeeping and to include documenting 
potentially harmful exposures. And we plan to consolidate all 
of these efforts into something we are calling--a software and 
a data collection system we are calling Theater Medical 
Information Program. TMIP will provide an electronic record of 
care in theater that can be entered into the individual's 
permanent medical record and it can be then provided to the VA.
    Our commitment is to get this information literally from 
the start of a service member's experience in the service so 
that we have it and then subsequently the VA would have it as 
well.
    Senior leaders from DoD and VA are working closely together 
on these efforts, and let me just close by saying that I am 
very interested in getting to the bottom of this as quickly as 
possible and getting the information out.
    Thank you, and I would be glad to answer your questions.
    [The prepared statement of Dr. Winkenwerder follows:]

 Prepared Statement of William Winkenwerder, M.D., Assistant Secretary 
             for Health Affairs, U.S. Department of Defense

    Mr. Chairman and members of this distinguished committee, 
thank you for the opportunity to be here today and thank you 
for your continuing support of the men and women who have 
served in our Armed Forces.
    As Assistant Secretary of Defense for Health Affairs, I 
want to stress that the Department of Defense is committed to 
ensuring that we deploy fit and healthy military personnel, 
that we monitor their health and environmental exposures while 
they are deployed, and that we assess their health status and 
address their health concerns when they return. My Deployment 
Health Support Directorate is conducting the investigation into 
Project SHAD. Today, I would like to explain some of the 
challenges we face in the investigation into Project SHAD, and 
why I think problems associated with that situation, 
particularly in regard to medical record keeping, are not 
likely to occur for post-Gulf War operations.
    As you know, Project SHAD (Shipboard Hazard and Defense) 
was a chemical and biological weapons vulnerability testing 
program conducted in the 1960s by the Deseret Test Center in 
Utah. In August of 2000, the Secretary of Veterans Affairs 
requested that the Secretary of Defense provide information 
concerning three classified Project SHAD tests: Autumn Gold, 
Copper Head and Shady Grove. In September 2000 DoD assigned 
responsibility for fulfilling that request to the Deployment 
Health Support Directorate. Within a month, VA and DoD 
personnel began meeting regularly to define what medically 
relevant information the VA needed to address veterans' 
concerns. This collaborative effort established a 
communications process, coordination for the exchange of 
information between the agencies, and a format for fact sheets 
to inform the VA, veterans and the public about the nature of 
these exposures and the agents used.
    SHAD was part of a larger program called Project 112, which 
was itself one of many projects run by the Deseret Test Center. 
Project 112 consisted of 103 chemical and biological warfare 
agent tests. SHAD involved thirty-four planned tests, many of 
which were never performed. These were not clinical trials, but 
rather were done for operational preparedness purposes. Leaders 
at the time thought they were appropriate tests given the 
information they then had available. So far, our investigation 
indicates that most of the tests were done using simulants that 
were thought to be harmless. Moreover, service members involved 
in tests using live agents were appropriately protected. 
Nonetheless, the Deployment Health Support Directorate quickly 
recognized the necessity to investigate all Project 112 and 
SHAD tests, and expanded the scope of the original effort.
    The first year of this investigation we discovered the 
difficulties in obtaining the needed medically relevant 
information and put systems in place to overcome them. First, 
we had to find the needed documents. In the 1960's, joint 
operations were not so common. The Army planned the SHAD tests, 
but for the most part the Navy and Marine Corps conducted the 
tests, with assistance from the Air Force. The primary planning 
was done at the Deseret Test Center, a facility that closed in 
the early 1970's. Records that were kept were stored at 
different facilities in different geographic areas, ranging 
from Dugway Proving Grounds, Utah, to Aberdeen Proving Ground, 
Maryland. Remember, these test plans and reports are not 
computer files but paper records stored in boxes or folders in 
file cabinets, so finding what you need is a painstaking manual 
process.
    Learning who may have been involved in a particular test 
involves finding personnel records in the Navy archives. Navy 
deck logs aren't found in the military system at all, but are 
maintained by the National Archives and Records Administration. 
At this point our investigators believe they have established 
the locations of most of the relevant records. Of course, the 
ongoing search could lead to new locations and we will pursue 
those leads until we have all relevant data.
    When the desired test reports are located, there is still 
the task of declassification. Most of the operation plans and 
results of these tests remain classified. These documents 
contain operational information about ship vulnerability to and 
defenses against chemical and biological weapons. These agents 
remain a threat to our forces today so, as you can understand, 
these records can not be casually declassified. DHSD developed 
a solution. Investigators with appropriate clearances comb 
through the documents to identify the medically relevant data. 
Early on, VA staff members who also held appropriate clearances 
joined our investigators to verify that the information being 
sought was what they needed to help settle benefits questions. 
Following the identification of these specific topic areas, our 
investigators requested that specific information be 
declassified. The Army has greatly expedited this 
declassification process.
    When we first provided data to the VA we learned that DoD 
and VA computer systems were not compatible. Both agencies have 
made the necessary adjustments to allow the smooth transfer of 
this information. We now have the data the VA needs formatted 
in such a way that they can use it immediately and easily. In 
fact, I believe that one positive outcome of this investigation 
has been a new level of cooperation between the VA and DoD that 
is focused on providing the information our veterans need and 
deserve.
    To date we have produced fact sheets on 12 SHAD tests, 
which involved between 2700 and 2800 servicemembers. The VA has 
a process in place for notifying the servicemembers, however, 
we understand the VA has a significant challenge in identifying 
them because at the time they served, they were identified by 
service numbers, not their social security numbers. The process 
to translate service numbers to social security numbers is also 
labor intensive. So, to give the VA time to make positive 
identifications, we are implementing a process to provide the 
VA with the list of names and service numbers as soon as we 
have them, before the investigation of a particular test is 
completed. And as soon as complete information becomes 
available, we will continue to share it with the VA and the 
public.
    At the time of the project SHAD tests, there was little 
awareness of the possible long-term effects of low level toxic 
exposures. Our recognition of the importance of individual 
assignments, unit locations and documenting medically relevant 
exposures following the Gulf War have dramatically changed our 
processes. Today, DoD monitors the servicemember's environment 
closely. The U.S. Army Center for Health Promotion and 
Preventive Medicine and the Naval Environmental Health Center 
maintain environmental surveillance wherever our military 
forces go. For example, you may have seen news reports of 
possible chemical warfare agent exposures at Karshi Khanabad 
Air Base in Uzbekistan. Routine environmental monitoring 
discovered what appeared to be traces of possible chemical 
agents on the base. The base commander immediately cleared the 
areas where the contamination was suspected and notified troops 
of the situation. Closer investigation proved that the 
substances that caused the alert were not chemical warfare 
agents. However, that example does demonstrate that we have 
procedures to protect our people from environmental dangers, 
and that we keep them aware of possible risks.
    We are also dedicated to improvements in medical record 
keeping. In this area, DoD has stepped boldly into the 21st 
century. The services have made individual efforts to fulfill 
today's requirements. We plan to consolidate those efforts into 
a joint program under the Theater Medical Information Program, 
or TMIP. TMIP, which is being tested right now, is a tri-
Service system designed to provide information to deployed 
medical forces to support all medical functional areas, 
including medical logistics, blood management, patient 
regulation and evacuation, medical intelligence, health care 
delivery and more. TMIP will integrate several existing and 
developmental systems into a single system that can be easily 
used by theater commanders and medical personnel in combat 
environments. It will also provide an electronic record of care 
provided in theater that can be entered into the individual's 
permanent medical record and provided to the VA
    DoD is in the process of setting up a system that will 
monitor the health of all military members for the duration of 
their service. It will begin with the Recruit Assessment 
Program, which will collect comprehensive baseline health data 
from all U.S. military personnel. That program is in pilot 
testing right now.
    After deployments, servicemembers now receive care based on 
a set of clinical practice guidelines for post-deployment 
evaluation and treatment developed jointly by DoD and VA 
medical personnel. The guidelines are designed to assist health 
care providers in screening and evaluating service members and 
veterans with health concerns following deployment.
    At the other end of the system is a joint DoD/VA exit 
physical for service members who are returning to civilian 
life.
    We already have a number of initiatives working through our 
VA/DoD Executive Council, co-chaired by myself and my colleague 
Dr. Roswell, the VA Under Secretary for Health. This council 
provides the forum for senior health care leaders, including 
our Surgeons General, to proactively address potential areas 
for further collaboration, and resolve obstacles to sharing.
    We are building on the success of our health care council 
through the newly established VA/DoD Benefits Council, which is 
examining ways to expand and improve information sharing, 
refining the process of records retrieval and identifying 
procedures to improve the benefits claims process. The VA/DoD 
Joint Executive Council, co-chaired by the Under Secretary of 
Defense for Personnel and Readiness and the Deputy Secretary of 
the VA, brings the leadership of the Health and Benefits 
councils together quarterly to demonstrate their commitment to 
improving inter-departmental cooperation at all levels. As 
Under Secretary of Defense David Chu said of the first meeting, 
``Our concern for the well-being of servicemembers extends 
beyond just their time on active duty.'' The two panels will 
work together to improve coordination between the departments 
in such areas as health care services, benefits delivery, 
information sharing and capital asset coordination. The future 
will hold increased cooperation between our departments, 
because our focus is the health of our servicemembers 
throughout their military careers and throughout the rest of 
their lives.
    Mr. Chairman, this concludes my statement. I thank you and 
the members of this committee for your outstanding and 
continuing support for the men and women of the Department of 
Defense. Now, what are your questions?

    Senator Specter. Doctor, is it a fact that Navy personnel 
were exposed to VX and sarin, both lethal agents?
    Dr. Winkenwerder. It appears in one of the tests that that 
is the case. They were, in my review of this information. I may 
turn to Dr. Kilpatrick, who has been directly involved in this 
effort--that people----
    Senator Specter. Was that exposure----
    Dr. Winkenwerder [continuing]. Were wearing all the 
protective--appropriate and necessary protective equipment, and 
it was in part to test the ability of that equipment to 
protect. Not something we would do today, obviously, but I 
think it reflects in my judgment, looking back on this, 
certainly not the level of informed consent that we would 
expect today, but it is----
    Senator Specter. Well, let's just establish a few basic 
facts.
    Dr. Winkenwerder. OK.
    Senator Specter. They were exposed to VX and sarin, lethal 
agents, correct?
    Dr. Winkenwerder. That is correct.
    Senator Specter. All right. Now, they were wearing----
    Dr. Winkenwerder. Let me turn to Dr. Kilpatrick.
    Senator Specter. And you say that they were----
    Dr. Winkenwerder. It was on a barge, not populated with 
people.
    Senator Specter. And you say that they were wearing 
protective clothing?
    Dr. Winkenwerder. Protective gear, yes.
    Senator Specter. Protective gear.
    Dr. Winkenwerder. Everything that would----
    Senator Specter. Was it determined that they so-called 
protective gear was adequate to protect them?
    Dr. Winkenwerder. I don't know what the people at that 
time--my understanding, again, these were 40 years ago. The 
records are not great in terms of all the details here. But 
that would have been my inference that they believed that the 
masks, equipment and so forth were protective. I can't 
imagine----
    Senator Specter. Well, Dr. Winkenwerder, you can't testify 
as to what they believe. We have to make a factual 
determination what the protective gear was. Have you made a 
search to determine if any of the naval personnel involved in 
these tests are still alive? A lot of people are alive from the 
1960's.
    Dr. Winkenwerder. Yes, I believe many of these people are 
alive, and we have had contact with some of them.
    Senator Specter. Well, have you questioned them----
    Dr. Winkenwerder. Yes.
    Senator Specter [continuing]. As to the exposure and the 
adequacy of the protective gear?
    Dr. Winkenwerder. Yes. Let me turn to Dr. Kilpatrick, who 
is here with me, and who has actually had some of those 
conversations with those service members.
    Senator Specter. Let me stick with you, Dr. Winkenwerder, 
for just a few minutes to outline the scope of what this 
committee is looking for. We want to find out what the facts 
are. We have already said Navy personnel were exposed to lethal 
agents. We want to find out the specifics as to what they were 
exposed to. And we want to find out the specifics as to what 
the protective gear was, whether the protective gear was 
adequate.
    The issue of consent is a very important one. We understand 
that there are no documents around which would verify that 
there was written consent. Is that correct?
    Dr. Winkenwerder. I cannot answer that question for you 
today. We will try to provide an answer for you.
    Senator Specter. Well, would you please find out?
    Dr. Winkenwerder. Yes.
    Senator Specter. There are a great many questions to be 
answered, and we would not be surprised if you don't have all 
the answers today. But let us give you an outline as to what we 
expect from you and what we want to have determined. We want to 
get into the question of informed consent. Then a central issue 
is what happened from 1963 to the present as to informing these 
people about the risks that they were exposed to.
    Senator Rockefeller sees red about the subject, and, 
frankly, so do I. We went through great pains. I chaired the 
committee back when we had the hearings in 1995 and 1996 and 
what happened with Gulf War Syndrome and how the Department of 
Defense did not tell the truth.
    It seems to be endemic and epidemic, happens all the time. 
And our oversight function--you can leave my red light on. 
Don't turn the lights off. It reminds me to conclude.
    We want to know what happened in the interim. Every time 
this committee turns around, it is Agent Orange or some other 
substance, and it is always the same thing about the records 
being inadequate. But there are people who were around. Senator 
Rockefeller and I were around in 1963. I was conducting, 
helping conduct, an investigation about what the Government did 
in 1963. And we want to know what efforts are being made now--
Secretary Cooper will respond to this in part--by the Veterans 
Administration but also by the Department of Defense. You have 
12 tests, 2,700 to 2,800 people involved. They ought to be 
notified, they ought to be found, they ought to be located so 
they can be apprised as to what they were exposed to. They may 
have some lingering symptoms. They may have some lingering 
illnesses. We all wonder why we respond in certain ways, but if 
that is part of a medical history, they are entitled to know 
about it.
    But, most fundamentally, we want to probe the question of 
why the Department of Defense did nothing from 1963 until a 
couple of years ago. We want the precise date when the 
investigation started. And we want to know why the probe was 
expanded and an announcement made just yesterday. Does it 
really take congressional oversight and a congressional jar to 
get the Department of Defense to do a little something? We want 
to know that because we expect affirmative and positive 
responses.
    Dr. Winkenwerder. We will provide all of that information. 
We would be glad to do so.
    Senator Specter. We would like to know also if you hadn't 
come, who would have come. We are not too fondly disposed to 
having witnesses tell us that they could have avoided the 
hearing.
    Dr. Winkenwerder. I apologize for suggesting that.
    Senator Specter. Because we are not only going to want to 
hear from you, Dr. Winkenwerder, but we are going to want to 
hear from your superiors. And when your superiors come in, 
Senator Rockefeller is really going to get tough.
    Mr. Chairman?
    Chairman Rockefeller. Thank you.
    You indicated that you came, and we are very grateful that 
you made that choice. Dr. David Chu, however, decided not to, 
and I would like a little explanation from you. He is Under 
Secretary for Personnel and Readiness, and we had requested 
that he come testify. Now, this committee has oversight over 
veterans' care, and I am going to ask you what you think 
oversight means and how you react to the word ``oversight.'' 
What do you think the relationship between congressional 
oversight and the Department of Defense, as well as any other 
agency, might be?
    DoD has not been at all enthusiastic about this hearing, 
and I understand that. But only late last week we were told 
that Dr. Chu could not attend.
    Now, that is not to dishonor any of you because I think all 
of you are experts on this subject, and we are very pleased 
that you are here. But, you know, you said you decided to come. 
Dr. Chu decided not to come. Could you give me a reason for 
that? Is he busy?
    Dr. Winkenwerder. Mr. Chairman, I don't know if it was a 
schedule issue----
    Chairman Rockefeller. Could you find out for me?
    Dr. Winkenwerder. I can.
    Chairman Rockefeller. Because I don't think he wanted to 
come. I don't think he wanted to face the music. That is my 
interpretation. I would love to have you prove me wrong. But I 
would love to have you ask him why it was that he declined late 
last week to show up at this hearing on the second day of 
Congress being back in session.
    Dr. Winkenwerder. We will do it.
    Chairman Rockefeller. I am going to give you a hard time, 
because I care about veterans. I am not doing this because of 
you. You look like a fine person. But you talked about caring 
for veterans and that you take care of them. Well, you take 
care of them because the Congress told you to by law back in 
1982. Yes, you do take care of them, but don't make this into a 
big humanitarian gesture. We told you to. And so you have 
sharing of some facilities. So that is straight, right? Did you 
know that?
    Dr. Winkenwerder. I am sorry, but I did not hear you.
    Chairman Rockefeller. That we passed a law saying that you 
had to share resources with VA?
    Dr. Winkenwerder. I could only have assumed that the 
Congress did pass a law.
    Chairman Rockefeller. You didn't know, but you know now.
    Dr. Winkenwerder. I certainly know now, yes.
    Chairman Rockefeller. In a sense, like Senator Specter 
said, this Project SHAD to me is just a perfect example--that 
is why it is so upsetting--of how DoD has historically 
responded to service-related exposures. You have got a war to 
fight, and you get people to do things, don't take records, 
there is no time, people get fired, people don't talk. But it 
is OK because you are not veterans. You are the warfighters. 
The veterans are the people that come home, if they come home.
    Now, as has been said, the Department of Veterans Affairs 
first contacted DoD about SHAD in 1997, and I note from your 
written testimony that only after Acting Secretary Gober 
formally requested information in August of 2000 did DoD begin 
to work on compiling this information. So that is 2 years, and 
DoD can only guess that it has established the locations of 
most of the relevant records.
    You indicate that DoD has contacted the SHAD planners, but 
the retired technical director of those tests told this 
committee personally that he had never received a phone call 
from DoD. So, again, there is something askew here. It is so 
easy to sort of mislead, so easy to say you are going to do 
something, you did do something, but then you start digging in 
and you find someone who knows the situation and life isn't 
quite so easy.
    You know, this task could have been hurried up. DoD could 
have chosen to contact retired staff, sort of a creative thing 
to do--but you have to think about it--such as the former 
Technical Director of Planning and Evaluation for Project 112, 
who might have helped sort the wheat from the chaff.
    You do have many competing demands, but can you please tell 
me why, when DoD first investigated VA's request for 
information on SHAD back in 1997, it did not lead to any 
broader, more aggressive effort? Why must DoD wait until there 
is a congressional inquiry before it does, or starts to do, 
more aggressive investigations?
    Dr. Winkenwerder. Mr. Chairman, I cannot give you an 
explanation for why in 1997 or between 1997 and 2000 there 
wasn't more prompt, expedient response on the part of the 
Department. What I can tell you is that I am very committed to 
getting this information out, that upon learning about this 
effort and its importance and what it means, that I have 
directed, am directing that every effort be made to get this 
information out quickly, accurately, appropriately, and that I 
believe that, yes, there is information that needs to be 
classified, but the public and our veterans need to know about 
what went on.
    And so I am very committed to that, and that is my 
assurance to you. We will keep you regularly informed or 
provide, you know, whatever information you think would be 
useful to know more about this as this investigation goes 
along.
    Chairman Rockefeller. Obviously, some materials have to be 
classified in order to protect national security. That becomes 
a huge issue in all kinds of fields. People don't want to risk 
national security. You get that with the FBI and the CIA. The 
FBI is doing this; they need some information, an intercept 
from the CIA. The CIA doesn't want to give it to them because 
it would compromise sources, et cetera. So there are all kinds 
of built-in conflicts, and we understand that.
    However, many of the details of deployment of tests, 
including unit location, are classified when prepared, but need 
not remain so after completion. I am assuming that is true.
    The importance of this information to VA in determining 
eligibility for benefits and appropriate health care and 
research obviously cannot be overestimated. So what can DoD do 
to expedite the declassification process that you talk about?
    Dr. Winkenwerder. I have requested the assistance of each 
of the Secretaries of the services--the Army, Navy, Air Force--
with respect to their part in this. They maintain and actually 
have responsibility for the storage of the records, and so 
finding the locations of them and then actually getting the 
people who can go in and physically get boxes out and have them 
catalogued, as I described earlier, I have requested their 
assistance on this. I expect them to respond and to give us the 
help that we need to get the job done.
    I have asked Ms. Embrey, my Deputy for Force Health 
Protection, who has responsibility for this and has oversight 
responsibility for Dr. Kilpatrick in the deployment health 
support area that is responsible for the direct work here, that 
this is a priority to get this done, and to get it done 
properly. And I have asked to be informed on a regular basis, 
and by that I mean, you know, every couple of weeks, on our 
progress on this.
    I think we have got a job to do, and we need to get it 
done. We wanted to give some evidence of our recent efforts 
that we have not been standing--or sitting on our hands here 
the last few months with this effort. We hope for release of 27 
tests within a month or so. We are very hopeful that we will 
have that additional information, and then we want to speed 
along to get the rest of it.
    Chairman Rockefeller. I have been handed a note here which 
I would like your response to. It says that what you have been 
saying is not a SHAD-specific problem. Declassification will be 
an ongoing issue, particularly for special forces. Would you 
agree with that?
    Dr. Winkenwerder. Could you restate--I am not sure what the 
question is there.
    Chairman Rockefeller. I am asking if you agree with the 
statement----
    Dr. Winkenwerder. The statement----
    Chairman Rockefeller [continuing]. That this is not--what 
you have just said is not a SHAD-specific problem, that is, 
limited only to.
    Dr. Winkenwerder. Correct.
    Chairman Rockefeller. Declassification will be an ongoing 
issue, particularly for special forces.
    Dr. Winkenwerder. I am going to turn--yes.
    Chairman Rockefeller. Would you agree with this statement: 
With regard to SHAD, DoD declassified documents for VA on a 
limited case-by-case basis upon VA request, but this did not 
trigger a larger examination of related issues--in other words, 
the de minimis: you ask me a question, I will give you an 
answer, but no kind of larger approach. Since the military quit 
keeping morning reports, unit locations are frequently the only 
data available to determine where a veteran may have been--and 
this brings back many memories of the Gulf War Syndrome fiasco. 
Forget the fiasco part. Would you agree with the rest of the 
statement?
    Dr. Winkenwerder. I am not sure I would agree with the 
statement that we are only responding to what is very 
specifically and, in a very exquisite, targeted way is asked 
for. We have an understanding that there is a whole set of 
tests, these 103 tests under Project 112 and SHAD. I understand 
there are two different names, two different sets of tests, 
SHAD being a subset of the Project 112. Our job is to get all 
of this information that is available.
    Our understanding is that some of these tests, even though 
there were 103 that were planned, may have, in fact, never been 
performed. We don't know how many there may be of that number--
what the final number may be that were never performed. Again, 
it is a matter of getting the information out, reviewing and 
finding out if the test was ever done. But we have clear 
information on the roughly 52, I think, of the 103--I am sorry, 
55 that we know that were either done or we know that they were 
not done. But we are trying to get this additional information 
on the other 48. We believe a fair amount of that information 
may be at the Dugway Proving Ground record storage site. We 
have requested to get to that site, to get to that information. 
We believe we will be there next month and into those records, 
and we will know more at that time.
    But that is the best answer I can give you right now.
    Chairman Rockefeller. Part of what is coming through is 
what has come through so many times before. You have only been 
here a short time, and I understand that. That has nothing to 
do with you or who you are, what your makeup is. But you just 
don't have any sense of how many times we have been through 
this exact same conversation. I would have given anything if 
you could have seen that atomic veteran describe dying while 
his Government didn't care because he couldn't prove--
penniless--that the cancer 50 years later had been caused by 
what happened 50 years before. And just on and on and on and 
on, and it always comes back to the same questions. You know, 
sometimes the VA is slow. The VA are good guys, as far as I am 
concerned right now, but sometimes they are slow. But they are 
underfunded, too. They don't have the ear of the President like 
Donald Rumsfeld does. You know, if you at DoD need more money, 
you can go get more money.
    Now, I understand you think it doesn't work that way, but 
VA can't do that. They can't do that. Tony Principi can't walk 
into the Oval Office--he might not get into the Oval Office--to 
fight for more money for health care, for researchers that do 
things. DoD has got a whole different posture in the culture of 
this Nation. And so when you don't take efforts to find out 
what it is that happened to people who are no longer yours but 
theirs, please understand the anger of the people who represent 
those people, who see those people. You don't see those people. 
You don't go to their homes. You may see them in hospitals if 
they ever get there, but most of them never get there.
    You didn't go through the aftermath of the Persian Gulf War 
when VA discovered that returning troops were reporting all 
kinds of unexplained symptoms. That was kind of a surprise to 
people. Now, VA has to take care of those folks. DoD didn't 
seem to know anything about it, and we couldn't get any 
information for them. So this frustration is not personal. It 
is professional and it has built over a long period of time. I 
have been on this committee for 18 years, and I have never seen 
a change in DoD attitude. I have never seen a change in DoD 
attitude. And I don't like that, and there is no reason why I 
should. Because, you know, we get you your money, and you can 
think of us what you want. You probably don't like politicians, 
and you think we just are here for show.
    I am not here for show. I am here because I represent one 
of the poorest States in the Nation which has the highest 
participation of veterans anywhere. So I fight for them like I 
fight for our steel industry. So I have got to fight for my 
people. The question is: Are you fighting for our people, too?
    There is no ancient history here. Many of the participants 
and planners are still alive and active. They are still out 
there. One of the planners informed my staff that he had filmed 
every test and knew the names and codes assigned to each, but 
that no one from DoD had contacted him to help with finding or 
sorting any records. Other veterans and scientists involved in 
these tests have no problems openly discussing the agents used 
or what the tests looked like and express the belief that only 
the technical aspects and vulnerability assessments are 
classified. Why is this so difficult? Why is this so difficult? 
What do you need to do to more efficiently separate sensitive 
intelligence information from personal exposure histories?
    Dr. Winkenwerder. Mr. Chairman, if I could ask if you have 
that and are willing to share the name of that individual, I 
will ensure that we make the contact with that person. I would 
welcome the chance.
    Chairman Rockefeller. The Veterans' Affairs Committee will 
do anything they can to help you.
    Dr. Winkenwerder. And if I might, sir, I would just say I 
sense your level of frustration and that of the committee and 
others, and I don't have that experience. But what I can tell 
you is I am committed to trying to put into place at this point 
in time--and other things have been done in the past--the sort 
of systems of collecting this information, good records systems 
so that, you know, 15 years from now or 10 years from now we 
are not here asking these same kinds of questions with the 
inability to know really what happened. I am a big believer in 
records systems. I think we have made improvements. We have 
some other things that we can do. But I think this is really 
important. I think it cuts to the very core of what can help us 
avoid the problem in the future. That and a sensitivity to the 
fact that we do put people in harm's way and we do put people 
at or near exposures--I am talking about in the war battle 
situation. We need to do everything we can to protect people 
from those kinds of risks and injuries, and when they happen, 
we need to be as forthcoming as we can given the constraints of 
where it occurs, the security constraints, to get the 
information out. I think we are all better served if we do 
that. That is going to be my tack during my tenure in my job.
    Chairman Rockefeller. Clifton Spendlove is the person you 
want to talk to.
    Under Secretary Cooper, one of the problems here is that we 
have put the cart before the horse to some degree. Because of 
the delay in releasing this information, the VA is under time 
constraints to notify aging veterans long before the potential 
clinical effects of the SHAD test can be looked at by 
scientists.
    Now that VA is notifying veterans that they may have been 
SHAD participants, what will you do with claims for benefits 
from these veterans whose chronic illnesses may or may not be 
due to chemical or biological exposures?
    Mr. Cooper. The answer to that, Senator, is that we will 
look at their claims and find out whether we can adjudicate the 
claims even beyond the SHAD. If we don't have all the 
information, at least we can see if there is some compensation 
we can provide, based on their medical history, to at least get 
the process started. Beyond that, as, we are going through a 
process with the National Academy of Sciences, which will take 
time.
    I think the important thing is to try to look at the claim 
as submitted. There have been a couple of cases of people who 
came in who had been, in fact, involved in SHAD. We were able 
to get their claim processed based on other events that took 
place. These veterans were able to receive compensation without 
being dependent upon SHAD information. So we will do everything 
we can to adjudicate the claim properly and fairly. Other than 
that, I think we really have to wait as far as SHAD-specific 
things until we get the necessary information.
    Chairman Rockefeller. How long do you expect that will be?
    Mr. Cooper. I am sorry, sir. I cannot answer that. I will 
try to answer for the record, but it is through this laborious 
process of getting the technical information back from the 
medical community, from the National Academy of Sciences, and 
whoever else is doing that type of a test. It is a medical 
research type of problem as far as getting a justification. And 
of course, we have to do it as the law requires as far as 
justifying the claim. But we will do everything we can with the 
ones that are coming in, even though they are SHAD-related, to 
get them justified and adjudicated based on the medical 
information we have. I think that is the best information I can 
provide right now, sir.
    Chairman Rockefeller. Ellen Embrey, do you know how many 
veterans die every day?
    Ms. Embrey. No.
    Chairman Rockefeller. A thousand. Just think about it.
    Senator Specter has indicated it might be good to go on to 
the next panel, and I agree. Thank you all very much.
    Senator Specter. Before you depart, Dr. Winkenwerder, we 
outlined the scope of the issues which we have in mind, and 
what we would like you to do is to report back to the committee 
in 30 days as to what you have found on your record searches as 
to those issues. I don't want to have to repeat them now. And 
we want to see what you have found with a view to followup.
    And, Mr. Secretary, with respect to your pursuit of the 
medical records, we would like to be apprised also within 30 
days as to what you have found on ailments from people who were 
identified, and you talk about the laborious process of 
establishing a causal connection between what this exposure 
was, and we would like to know what you find. We don't want to 
see this eventuate into something like Agent Orange when it 
took more than a decade before there was legislation on a 
presumptive service-connection, because we may have to move on 
that route, too. These people have been waiting for almost 40 
years. And if they are going to be subjected to the kinds of 
scientific analyses which customarily turn out to be 
inconclusive--because of the nature of the investigation, you 
just can't establish a causal connection--leading to the burden 
of proof being put on the veteran, nothing is going to happen. 
That is why this committee has taken the lead on presumptive 
service-connections, on presumptive causation.
    So report back to us, if you would, in 30 days so we can 
take a look at what we ought to do further.
    Mr. Cooper. Yes, sir.
    [The information referred to follows:]
       VA Health Care and Compensation for Project SHAD Veterans

   Report to the Senate Veterans' Affairs Committee (August 5, 2002)

                           executive summary
    Project SHAD (Shipboard Hazard and Defense) was part of the joint 
service chemical and biological warfare test program conducted by the 
Department of Defense (DoD) during the 1960s. During a hearing before 
the Senate Veterans' Affairs Committee on July 10, 2002, the Honorable 
Arlen Specter asked the Department of Veterans Affairs (VA) to send the 
committee a report on what we currently know about the ailments 
afflicting veterans who participated in Project SHAD.
    The benefits portion of this report is based on analysis of data 
extracted electronically from VA's Beneficiary Identification and 
Records Locator Subsystem (BIRLS) and the Compensation & Pension (C&P) 
Master Record file for those veterans identified, to date, who have 
filed claims. For health care, the report reflects preliminary data 
from VA's computerized health databases. DoD continues to search and 
declassify documents associated with Project SHAD. As additional test 
information and participant names are made available to VA, we will 
continue to analyze data and update our findings.
    Thus far, VA has identified 1,739 Project SHAD veterans having VA 
claim numbers. Social security numbers were associated with 1,419 of 
the 1,739 names and that information was provided to the Veterans 
Health Administration (VHA).
    On May 21, 2002, VA mailed letters to 622 veterans who participated 
in the initial three Project SHAD tests declassified by DoD (i.e., 
Autumn Gold, Copper Head, and Shady Grove) for whom social security 
numbers and addresses had been obtained. The letter informed the 
veterans of potentially hazardous exposures during military service and 
encouraged them to seek an evaluation at a local VA medical center, if 
they had any concerns.
    Review of health care data shows that of the 622 SHAD veterans, 226 
have received health care from VA for a very wide array of common 
diagnoses. Preliminary data shows that the most frequent infectious 
disease diagnosis was dermatophytosis, a fungal infection of the skin 
like athletes foot. The most frequent neurological diagnoses were 
disorders of refraction (needing eye glasses) and deafness.
    Using BIRLS and C&P Master Record file data, VA identified 299 
veterans who were SHAD participants having at least one service-
connected disability. There were many similarities between the 
disabilities of the 299 SHAD participant veterans and the total 
service-connected veteran beneficiary population. For both SHAD 
participants and the total service-connected veteran beneficiary 
population, the majority of the disabilities were associated with the 
following four body systems: musculoskeletal system, skin, impairments 
of auditory acuity, and the digestive system. The most common 
disabilities were defective hearing, scars, and generalized skeletal 
conditions.
    In order to determine whether SHAD veterans are experiencing 
particular health problems due to prior exposures during military 
service, a formal epidemiological study will have to be conducted. To 
answer this question, the Secretary requested the Institute of Medicine 
(IOM), Medical Follow-Up Agency, to develop a formal proposal which is 
expected by the end of August 2002.
    VA treatment data in this report is preliminary and based on the 
initial 622 veterans identified with social security numbers. VA will 
submit a more extensive assessment of treatment and diagnoses based 
upon existing computer records.
                               background
    On July 10, 2002, Senator Specter, Ranking Member, Senate Veterans' 
Affairs Committee, requested a report back to the Committee within 30 
days about what VA has found out regarding the ailments of Project SHAD 
veterans. The information requested was for the ailments of Project 
SHAD veterans who have been treated in VA health care facilities and 
the medical conditions of Project SHAD veterans who have submitted 
compensation claims.
    Project SHAD was part of the joint service chemical and biological 
warfare test program conducted by DoD during the 1960s. Project SHAD 
encompassed tests designed to identify US warships' vulnerabilities to 
attacks with chemical or biological warfare agents and to develop 
procedures to respond to such attacks while maintaining a war-fighting 
capability. Although classified, DoD is in the process of declassifying 
relevant medical information.
    At this time, the exact number of Project SHAD tests actually 
conducted is unknown. As of July 5, 2002, DoD has provided VA with 
declassified information relating to twelve tests. In addition, DoD has 
provided VA with test names and participant information for two tests 
not yet declassified. Approximately 4,684 participants were involved in 
the fourteen tests known as:

<bullet> Autumn Gold

<bullet> Big Tom

<bullet> Copper Head

<bullet> DTC Test 68-50

<bullet> DTC Test 69-32

<bullet> Eager Belle I

<bullet> Eager Belle II

<bullet> Fearless Johnny

<bullet> Flower Drum I

<bullet> Flower Drum II

<bullet> Half Note

<bullet> Purple Sage

<bullet> Scarlet Sage

<bullet> Shady Grove


    Some veterans participated in more than one test. Based on current 
information, approximately 2,938 unique service members participated in 
these fourteen tests.
identification of veterans who received health care treatment and filed 
                          compensation claims
    VA used the names and service numbers of SHAD participants provided 
by DoD to identify veterans who have been treated in VA health care 
facilities and/or filed compensation claims. That data was matched 
against information available in VA's Beneficiary Identification and 
Records Locator Subsystem (BIRLS). The Veterans Benefits Administration 
(VBA) matched 1,739 records identified with VA claim numbers against 
the June 2002 Compensation & Pension Master Record and May 2002 BIRLS 
inactive compensation/pension data and extracted information about SHAD 
veterans who have filed compensation claims. Of the 1,739 records, we 
were able to associate social security numbers with 1,419 names and 
provide that information to VHA to match against their databases for 
health care utilization.
                            report findings
    The benefits portion of this report is based on analysis of data 
extracted electronically from BIRLS and the C&P Master Record file for 
those veterans identified, to date, who have filed claims. For health 
care, the report reflects preliminary data. DoD continues to search and 
declassify documents associated with Project SHAD. As additional test 
information and participant names are made available to VA, we will 
continue to analyze both VBA and VHA data and update our findings.

   I. Project SHAD Veterans Who Have Been Treated in VA Health Care 
                               Facilities

                          va health databases
    VA is engaged in a complex process to augment its medical record 
system and to connect computerized health databases into a coherent 
network. Because of progress in integrating VA's computerized health 
databases, VHA can now track health care utilization by special groups 
of veterans such as the veterans who participated in Project SHAD.
    In this regard, VA is developing the Health Data Repository (HDR) 
to provide the support for a full electronic patient medical record. 
VHA will use a combination of the existing VistA system and a 
commercial clinical repository product to record all patient data, 
thereby creating a ``longitudinal'' record covering all care received 
from VA. In addition, the HDR will provide the means to electronically 
receive data from other health care entities, such as DoD, private 
health care, and any reference facility (such as specialty 
laboratories).
    For evaluating the health of Project SHAD veterans who come to VA 
for health care, the use of these standard health care databases 
provide several important advantages over clinical ``registries,'' 
which have been used in the past to evaluate particular cohorts of 
veterans, such as Vietnam and Gulf War veterans. The use of VA's health 
databases allows VA to evaluate the health of veterans every time they 
obtain care in the VA, not just on the one occasion that they elect to 
have a registry examination. This will provide a much broader and 
longer-term assessment of the health status of these veterans because 
many veterans return frequently for VA health care, and because 
veterans are often seen in different clinics or even different parts of 
the country for specialized health care.
                   status of shad veterans seen by va
    On May 21, 2002, VA mailed letters to 622 veterans who participated 
in the initial three tests declassified by DoD (i.e., Autumn Gold, 
Copper Head, and Shady Grove) for whom social security numbers and 
addresses had been obtained. The letter informed the veterans of 
potentially hazardous exposures during military service and encouraged 
them to seek an evaluation at a local VA medical center, if they had 
any concerns.
    VA's health databases were used to assess SHAD veterans who 
received VA health care, including how many had newly enrolled in the 
VA health care system, what percentage had previously obtained care 
within the VA, and the general types of diagnoses that SHAD veterans 
received at VA medical centers, with the following results:
    <bullet> Between May 1 and July 24, 2002, eleven or 1.8 percent of 
the 622 veterans who had been mailed letters, enrolled for VA health 
care for the first time.
    <bullet> The letter VA sent to SHAD veterans may have had an impact 
on the number of veterans seeking VA health care. On average, 15 of 
these 622 veterans were seen at a VA health care facility each month 
from October 2001 to May 2002. A larger number (48) of these SHAD 
veterans were seen at VA health care facilities in June 2002, the month 
after the notification letters were mailed.
    <bullet> Of the 622 SHAD veterans, 226 have received health care 
from VA at some time in the past and with a very wide array of common 
diagnoses. This is to be expected in a cohort of veterans who are 50 
years of age and older. The most frequent infectious disease diagnosis 
was dermatophytosis, which is a fungal infection of the skin like 
athletes foot. The most frequent neurological diagnoses were disorders 
of refraction (needing eye glasses) and deafness, which also are common 
diagnoses among aging veteran populations.
    <bullet> It is not possible to determine whether any particular 
diagnoses is occurring at higher rates than normal because this is a 
highly select group of veterans who have sought health care in the VA 
system.
    <bullet> The number of SHAD veterans being evaluated by the VA is 
too small to assess individual diseases.
       va health care utilization among shad participant veterans
    In fiscal year 2002, 102 of the 622 SHAD veterans who had been 
mailed letters were obtaining health care in the VA system. This is a 
16 percent rate of health care utilization, which is comparable to the 
15 percent rate of VA health care utilization by the entire U.S. 
military veteran population in FY 2002.
    The social security numbers of 797 additional veterans who 
participated in subsequent declassified tests have been obtained. None 
of these 797 veterans were included in the original group of 622 SHAD 
veterans contacted by mail in May 2002. The addresses of veterans 
associated with this new group have been obtained and, in the near 
future, VA will notify them of potential exposures.
    Within the constraints of this report, the only health information 
that VA has been able to assess for the more recently identified 797 
veterans is their VA health care utilization. Among these veterans, 124 
(16 percent) received health care from the VA during the current fiscal 
year. This is similar to other groups of U.S. veterans.
      initial conclusions regarding utilization of va health care
    To date, the 622 Project SHAD veterans have not demonstrated higher 
utilization of VA health care services compared to other veterans. 
However, Project SHAD veterans directly notified by mail of potentially 
hazardous exposures appear to have been prompted to seek health care 
from the VA. Eleven new veterans who sought health care from the VA for 
the first time may have done so because of the notification letters.
      epidemiological study to evaluate shad veteran health status
    In order to determine whether SHAD veterans are experiencing 
particular health problems due to prior exposures during military 
service, a formal epidemiological study will have to be conducted. 
Neither VA health care databases nor a clinical registry can assess 
rates of disease or possible causes because veterans receiving care in 
the VA do not constitute a representative sample for research purposes. 
As an example, evaluation of over 100,000 Gulf War veterans in VA and 
DoD clinical registries has not answered scientific questions about the 
health of this population. Both veterans receiving care from the VA and 
veterans receiving health care from other providers have to be sampled 
in order to conduct a valid scientific study and determine the nature 
and causes of their health problems.
    The Institute of Medicine (IOM), Medical Follow-Up Agency, has 
developed a proposal to conduct this independent, epidemiological 
study, and this proposal is currently undergoing internal review by the 
IOM. The VA expects to receive the formal proposal in August 2002.
                 further use of existing vha databases
    While this will not be a substitute for the well designed 
epidemiological study described above, further information on medical 
conditions of SHAD veterans is available with some limitations. Medical 
conditions are not stable over time. Some improve while others get 
worse. Some are cured while others become chronic. This complicates any 
analysis of health status over time. Databases are maintained by fiscal 
year and not all patients are seen every year. The two automated 
databases containing diagnostic information are the patient treatment 
file (PTF), which covers inpatient hospitalization from FY 1970, and 
the outpatient file (OPC), which contains diagnostic data beginning in 
FY 1997. These data files are extremely large but an analysis of the 
medical diagnoses of the SHAD veterans identified with social security 
numbers as of July 2002 has begun and will be made available as soon as 
possible. VA will submit a more extensive assessment of treatment and 
diagnoses based upon existing computer records.

    II. Project Shad Veterans Who Have Submitted Compensation Claims

        veterans with at least one service-connected disability
    As of June 2002, of the 1,739 veterans for whom VA claim numbers 
were matched, VA identified 299 veterans who were SHAD participants 
having at least one service-connected disability. This group included:
    <bullet> Those veterans receiving compensation (159),
    <bullet> Those evaluated at less than 10 percent for service-
connected disabilities (74),
    <bullet> Those who had at least one service-connected disability 
evaluated at 10 percent or more, but with inactive records \1\ (61), 
and
---------------------------------------------------------------------------
    \1\ In 55 (90%) of these cases, the veteran is deceased.
---------------------------------------------------------------------------
    <bullet> Those with service-connected disabilities, but receiving 
disability pension (5).\2\
---------------------------------------------------------------------------
    \2\ Two veterans receiving pension had service-connected 
disabilities evaluated at 0% and three had service-connected 
disabilities evaluated at 10%.
---------------------------------------------------------------------------
 veterans who filed for benefits who did not have a service-connected 
                               disability
    Of the 1,739 veterans for whom VA claim numbers were matched, 78 
veterans did not have a service connected disability.
    <bullet> Sixty-six veterans had all non service-connected 
disabilities.
    <bullet> Twelve veterans were receiving disability pension and had 
no service-connected disabilities.
                 combined service-connected evaluation
    The following chart shows the distribution based on the combined 
service-connected evaluation for the 299 service-connected veterans. 
The largest number (76 or 25.4 percent) of the veterans had a combined 
service-connected evaluation of 0 percent followed closely by 23.4 
percent with a 10 percent evaluation.

      Number of Veterans With Combined Service-Connected Evaluation
------------------------------------------------------------------------
                                                 Number of    Percent of
              Combined Evaluation                 Veterans      Total
------------------------------------------------------------------------
0%............................................           76        25.4%
10%...........................................           70        23.4%
20%...........................................           33        11.0%
30%...........................................           25         8.4%
40%...........................................           21         7.0%
50%...........................................           13         4.3%
60%...........................................           18         6.0%
70%...........................................            8         2.7%
80%...........................................            5         1.7%
90%...........................................            3         1.0%
100%..........................................           27         9.0%
                                               -------------------------
    Total.....................................          299       100.0%
------------------------------------------------------------------------

                     service-connected disabilities
    The 299 veterans had 724 individual service-connected disabilities. 
The following chart shows the number of disabilities for each veteran. 
For example, 84 veterans had two service-connected disabilities; 11 
veterans had five service-connected disabilities. On average, each had 
2.4 service-connected disabilities.

                Number of Service-Connected Disabilities
                              [Per Veteran]
------------------------------------------------------------------------
                                                Number of     Number of
   Number of Service-Connected Disabilities      Veterans   Disabilities
------------------------------------------------------------------------
1............................................          108           108
2............................................           84           168
3............................................           43           129
4............................................           27           108
5............................................           11            55
6............................................           26           156
                                              --------------------------
    Total....................................          299           724
------------------------------------------------------------------------

             service-connected disabilities by body system
    The 724 service-connected disabilities were associated with 14 of 
the 15 rating schedule body systems. The following chart shows the 
number of service-connected disabilities associated with each and the 
percentage of total. None of the disabilities were gynecological.

   Number of Service-Connected Disabilities Associated With Each Body
                                 Systems
------------------------------------------------------------------------
                                                 Number of    Percent of
                 Body System                   Disabilities     Total
------------------------------------------------------------------------
Grand Total--All SC Conditions (Codes 5000-             724       100.0%
 9999).......................................
Musculoskeletal System (Codes 5000-5399).....           225        31.1%
Digestive System (Codes 7200-7399)...........           102        14.1%
Impairment of Auditory Acuity (Codes 6100-               97        13.4%
 6299).......................................
Skin (Codes 7800-7899).......................            76        10.5%
Cardiovascular System (Codes 7000-7199)......            61         8.4%
Respiratory System (Codes 6501-6899).........            44         6.1%
Neurological Conditions (Codes 8000-8999)....            26         3.6%
Genitourinary System (Codes 7500-7599).......            25         3.5%
Mental Disorders (Codes 9200-9599)...........            25         3.5%
Endocrine System (Codes 7900-7999)...........            17         2.3%
Eye (Codes 6000-6099)........................            14         1.9%
Infectious Diseases, Immune Disorders,                    5         0.7%
 Nutritional Disorder (Codes 6300-6399)......
Dental and Oral Conditions (Codes 9900-9999).             5         0.7%
Hemic & Lymphatic Systems (Codes 7700-7799)..             2         0.3%
Gynecological Conditions (Codes 7601-7699)...             0         0.0%
------------------------------------------------------------------------

           non service-connected disabilities by body system
    This group of 299 veterans also had 257 disabilities determined to 
be non service-connected. The non service-connected disabilities were 
associated with 13 of the 15 rating schedule body systems. The 
following chart shows the number of non service-connected disabilities 
associated with each body system and the percentage of total. None of 
the disabilities were gynecological or dental/oral conditions.

 Number of Non Service-Connected Disabilities Associated With Each Body
                                 system
------------------------------------------------------------------------
                                                 Number of    Percent of
                 Body System                   Disabilities     Total
------------------------------------------------------------------------
Grand Total--All NSC Conditions (Codes 5000-            257       100.0%
 9999).......................................
Musculoskeletal System (Codes 5000-5399).....            62        24.1%
Impairment of Auditory Acuity (Codes 6100-               28        10.9%
 6299).......................................
Cardiovascular System (Codes 7000-7199)......            26        10.1%
Mental Disorders (Codes 9200-9599)...........            25         9.7%
Digestive System (Codes 7200-7399)...........            23         8.9%
Skin (Codes 7800-7899).......................            21         8.2%
Respiratory System (Codes 6501-6899).........            19         7.4%
Neurological Conditions (Codes 8000-8999)....            15         5.8%
Endocrine System (Codes 7900-7999)...........            14         5.4%
Eye (Codes 6000-6099)........................            12         4.7%
Genitourinary System (Codes 7500-7599).......             9         3.5%
Hemic & Lymphatic Systems (Codes 7700-7799)..             2         0.8%
Infectious Diseases, Immune Disorders,                    1         0.4%
 Nutritional Disorder (Codes 6300-6399)......
Gynecological Conditions (Codes 7601-7699)...             0         0.0%
Dental and Oral Conditions (Codes 9900-9999).             0         0.0%
------------------------------------------------------------------------

               most common service-connected disabilities
    The following chart shows the 15 most common service-connected 
disabilities, their associated diagnostic codes, frequency, and the 
percent of total. For example, 64 or 8.8 percent of the 724 service-
connected disabilities were for defective hearing/hearing loss.

                                   Most Common Service-Connected Disabilities
----------------------------------------------------------------------------------------------------------------
                                                                    Diagnostic                      Percent of
                 Service Connected Disabilities                        Codes         Frequency         Total
----------------------------------------------------------------------------------------------------------------
Total Disabilities..............................................       5000-9999             724          100.0%
Defective hearing/Hearing Loss..................................  6100-6101-6102              64            8.8%
                                                                  -6282-6288-628
                                                                  9-6292-6293-62
                                                                         96-6297
Scars...........................................................  7800-7801-7802              47            6.5%
                                                                      -7604-7805
Generalized, Skeletal condition.................................            5299              41            5.7%
Hemorrhoids, external or internal...............................            7336              28            3.9%
Intervertebral disc syndrome....................................            5293              26            3.6%
Tinnitus........................................................            6260              26            3.6%
Hypertensive vascular disease (essential arterial hypertension).            7101              23            3.2%
Hernia, inguinal................................................            7338              20            2.8%
Lumbo-sacral strain.............................................            5295              17            2.3%
Arteriosclerotic Heart Disease..................................            7005              16            2.2%
Duodenal ulcer..................................................            7305              16            2.2%
Arthritis, Degenerative, Hypertrophic or Osteoarthritis.........            5003              14            1.9%
Diabetes Mellitus...............................................            7913              14            1.9%
Arthritis, Due to Trauma, substantiated by x-ray findings.......            5010              13            1.8%
Other impairment of knee........................................            5257              11            1.5%
Fifteen disabilities accounted for 51.9% of total disabilities..  ..............             376           51.9%
----------------------------------------------------------------------------------------------------------------

 most common disabilities (service-connected and non service-connected)
    This group of 299 veterans had a total of 981 disabilities (both 
service-connected and non service-connected). The following chart shows 
the 15 most common disabilities, their associated diagnostic codes, 
frequency, and the percent of total. For example, 83 or 8.5 percent of 
the 981disabilities were for defective hearing/hearing loss.

                                            Most Common Disabilities
----------------------------------------------------------------------------------------------------------------
                                                                    Diagnostic                      Percent of
                    Most Common Disabilities                           Codes         Frequency         Total
----------------------------------------------------------------------------------------------------------------
Total Disabilities..............................................       5000-9999             981          100.0%
Defective hearing/Hearing Loss..................................  6100-6101-6102              83            8.5%
                                                                  -6282-6288-628
                                                                  9-6292-6293-62
                                                                         96-6297
Scars...........................................................  7800-7801-7802              51            5.2%
                                                                      -7804-7805
Generalized, Skeletal condition.................................            5299              50            5.1%
Hypertensive vascular disease (essential arterial hypertension).            7101              34            3.5%
Tinnitus........................................................            6260              33            3.3%
Intervertebral disc syndrome....................................            5293              32            3.3%
Hemorrhoids, external or internal...............................            7336              30            3.1%
Diabetes Mellitus...............................................            7913              27            2.8%
Arthritis, Degenerative, Hypertrophic or Osteoarthritis.........            5003              26            2.7%
Lumbo-sacral strain.............................................            5295              26            2.7%
Arteriosclerotic Heart Disease..................................            7005              23            2.3%
Hernia, inguinal................................................            7338              23            2.3%
Generalized, The Skin...........................................            7899              21            2.1%
Arthritis, Due to Trauma, substantiated by x-ray findings.......            5010              17            1.7%
Duodenal ulcer..................................................            7305              17            1.7%
Fifteen disabilities accounted for 50.2% of total disabilities..  ..............             493           50.3%
----------------------------------------------------------------------------------------------------------------

    Appendix A lists in descending order of frequency the 981 
disabilities associated with the 299 veterans.
               disability evaluations within body system
    The following chart shows the distribution of 724 service-connected 
disabilities based on assigned evaluation and percentage of total for 
each of the eleven levels (i.e., 0 percent-100 percent). For example, 
93 musculoskeletal disabilities are evaluated at 0 percent and 17 
disabilities associated with skin are evaluated at 10 percent. Forty-
eight percent of the total disabilities are evaluated at 0 percent and 
25.1 percent of the disabilities are evaluated at 10 percent.

                                                  Number of Disabilities Based on Individual Evaluation
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                Number of
         Body System          Disabilities     0%        10%       20%       30%       40%       50%       60%       70%       80%       90%      100%
--------------------------------------------------------------------------------------------------------------------------------------------------------
Musculoskeletal System               225          93        68        30         9        12         1         9  ........  ........  ........         3
 (Codes 5000-5399)..........
Eye (Codes 6000-6099).......          14           8         2  ........         2  ........  ........  ........  ........  ........  ........         2
Impairment of Auditory                97          55        35         5  ........         1         1  ........  ........  ........  ........  ........
 Acuity (Codes 6100-6299)...
Infectious Diseases, Immune            5           3  ........  ........         1  ........  ........         1  ........  ........  ........  ........
 Disorders, Nutritional
 Disorder (Codes 6300-6399).
Respiratory System (Codes             44          21         8  ........         6  ........         1         4  ........  ........  ........         4
 6501-6899).................
Cardiovascular System (Codes          61           8        17         6         8         1         1        11  ........         1  ........         8
 7000-7199).................
Digestive System (Codes 7200-        102          80        12         4         5  ........  ........  ........  ........         1  ........  ........
 7399)......................
Genitourinary System (Codes           25          14         3         1         1  ........  ........         2  ........         1  ........         3
 7500-7599).................
Gynecological Conditions               0    ........  ........  ........  ........  ........  ........  ........  ........  ........  ........  ........
 (Codes 7601-7699)..........
Hemic & Lymphatic Systems              2    ........  ........  ........         2  ........  ........  ........  ........  ........  ........  ........
 (Codes 7700-7799)..........
Skin (Codes 7800-7899)......          76          55        17  ........         3  ........         1  ........  ........  ........  ........  ........
Endocrine System (Codes 7900-         17           3         1        11  ........         1  ........         1  ........  ........  ........  ........
 7999)......................
Neurological Conditions               26           3        11         3         1         2  ........         1  ........  ........  ........         5
 (Codes 8000-8999)..........
Mental Disorders (Codes 9200-         25           2         7  ........         5  ........         4  ........  ........  ........  ........         7
 9599)......................
Dental and Oral Conditions             5           4         1  ........  ........  ........  ........  ........  ........  ........  ........  ........
 (Codes 9900-9999)..........
Grand Total (Codes 5000-             724         349       182        60        43        17         9        29         0         3         0        32
 9999)......................
Percent of Total............      100.0%       48.2%     25.1%      8.3%      5.9%      2.3%      1.2%      4.0%      0.0%      0.4%      0.0%      4.4%
--------------------------------------------------------------------------------------------------------------------------------------------------------

                    shad compensation claims pending
    As of August 1, 2002, there were compensation claims pending 
decisions for 28 veterans alleging disabilities due to exposure to 
agents and substances while participating in Project SHAD. Sixteen of 
these claims were received subsequent to the May 21, 2002, letter VA 
mailed to veterans informing them of potentially hazardous exposures 
during military service. Only seven of the 16 claims are from veterans 
who actually received the letter. The claims are for service connection 
for a wide array of disabilities.
               conclusions regarding compensation claims
    The data obtained from this review was based on a relatively small 
sample 299--cases where veterans had filed compensation claims. Nothing 
unique came to light regarding the disabilities of these SHAD 
participants. There were many similarities between the awards/
disabilities of the 299 veterans identified as participants of Project 
SHAD and the total service-connected veteran beneficiary population.
    <bullet> Average Number of Disabilities On average, the 299 SHAD 
participants had 2.4 service-connected disabilities compared to 2.57 
disabilities \3\ for the total service-connected beneficiary 
population.
---------------------------------------------------------------------------
    \3\ VBA Annual Benefits Report, Fiscal Year 2001, dated May 2002, 
Table 6 Chap. 3.
---------------------------------------------------------------------------
    <bullet> Majority of Service-Connected Disabilities were Associated 
with Four Body Systems For both SHAD participants and the total 
service-connected veteran beneficiary population, the majority of the 
disabilities were associated with the musculoskeletal system, skin, 
impairments of auditory acuity, and the digestive system. Sixty-nine 
percent of the disabilities for SHAD participants were associated with 
these four body systems compared to 68.9 percent \4\ for the total 
service-connected beneficiary population.
---------------------------------------------------------------------------
    \4\ VBA Annual Benefits Report, Fiscal Year 2001, dated May 2002, 
Table 7 Chap. 3.

------------------------------------------------------------------------
                                                             Percent of
                                                            Disabilities
                                               Percent of       Total
                 Body System                  Disabilities    Service-
                                                  SHAD        Connected
                                              Participants   Beneficiary
                                                            Population *
------------------------------------------------------------------------
Musculoskeletal.............................         31.1%         40.4%
Digestive...................................         14.1%          7.3%
Impairment of Auditory Acuity...............         13.4%          8.9%
Skin........................................         10.5%         12.3%
------------------------------------------------------------------------
* VBA Annual Benefits Report, Fiscal Year 2001, dated May 2002, Table 7
  Chap. 3.

    <bullet> Majority of Individual Service-Connected Disabilities 
Evaluated at 0 percent and 10 percent For both SHAD participants and 
the total service-connected veteran beneficiary population, the 
majority of the disabilities were evaluated at 0 percent and 10 
percent. That is, 73.3 percent of the disabilities for SHAD 
participants compared to 72.9 percent \5\ for the total service-
connected beneficiary population.
---------------------------------------------------------------------------
    \5\ VBA Annual Benefits Report, Fiscal Year 2001, dated May 2002, 
Table 8 Chap. 3.

------------------------------------------------------------------------
                                                             Percent for
                                                                Total
                                                Percent for    Service-
 Evaluation Assigned Individual Disabilities       SHAD       Connected
                                               Participants  Beneficiary
                                                              Population
------------------------------------------------------------------------
0% Evaluation................................         48.2%        35.0%
10% Evaluation...............................         25.1%        37.9%
------------------------------------------------------------------------

    <bullet> Common Disabilities For both SHAD participants and the 
total service-connected veteran beneficiary population,\6\ the 
following disabilities were among the most common:
---------------------------------------------------------------------------
    \6\ VBA Annual Benefits Report, Fiscal Year 2001, dated May 2002, 
Table 10 Chap. 3.
---------------------------------------------------------------------------
          Arthritis due to trauma
          Defective hearing/Hearing loss
          Degenerative Arthritis
          Diabetes Mellitus
          Duodenal ulcer
          Hemorrhoids
          Hypertensive vascular disease
          Intervertebral disc syndrome
          Knee impairments
          Lumbo-sacral strain
          Scars
          Skeletal conditions
          Tinnitus
Appendix A.--Frequency of Disabilities Associated with 299 Compensation 
                                 Claims

------------------------------------------------------------------------
                                                        Description of
            Frequency              Diagnostic Codes       Disability
------------------------------------------------------------------------
83..............................  6100-6101-6102-628  Defective hearing/
                                   2-6288-6289-6292-   Hearing Loss
                                   6293-6296-6297.
51..............................  7800-7801-7802-780  Scars
                                   4-7805.
50..............................  5299..............  Generalized,
                                                       Skeletal
                                                       condition
34..............................  7101..............  Hypertensive
                                                       vascular disease
                                                       (essential
                                                       arterial
                                                       hypertension)
33..............................  6260..............  Tinnitus
32..............................  5293..............  Intervertebral
                                                       disc syndrome
30..............................  7336..............  Hemorrhoids,
                                                       external or
                                                       internal
27..............................  7913..............  Diabetes Mellitus
26..............................  5003..............  Arthritis,
                                                       Degenerative,
                                                       Hypertrophic or
                                                       Osteoarthritis
26..............................  5295..............  Lumbo-sacral
                                                       strain
23..............................  7005..............  Arteriosclerotic
                                                       Heart Disease
23..............................  7338..............  Hernia, inguinal
21..............................  7899..............  Generalized, The
                                                       Skin
17..............................  5010..............  Arthritis, Due to
                                                       Trauma,
                                                       substantiated by
                                                       x-ray findings
17..............................  7305..............  Duodenal ulcer
14..............................  5257..............  Other impairment
                                                       of knee
11..............................  9411..............  Post-Traumatic
                                                       Stress Disorder
10..............................  6600..............  Bronchitis,
                                                       chronic
10..............................  7399..............  Generalized,
                                                       Digestive System
9...............................  5002..............  Arthritis,
                                                       Rheumatoid
                                                       (Atrophic), as an
                                                       active process
9...............................  7527..............  Prostate gland
                                                       injuries,
                                                       infections,
                                                       hypertrophy, post-
                                                       operative
                                                       residuals
9...............................  7819..............  New growths,
                                                       benign, skin
8...............................  7346..............  Hernia, hiatal
8...............................  7599..............  Generalized,
                                                       Genitourinary
                                                       System
7...............................  5099..............  Generalized,
                                                       Acute, Subacute,
                                                       or Chronic
                                                       Diseases of the
                                                       Musculoskeletal
                                                       System
7...............................  5290..............  Limitation of
                                                       motion of
                                                       cervical spine
7...............................  6899..............  Generalized,
                                                       Nontuberculous
                                                       Diseases
6...............................  5203..............  Impairment of
                                                       clavicle or
                                                       scapula
6...............................  5271..............  Limited motion of
                                                       the ankle
6...............................  6099..............  Generalized,
                                                       Disease of the
                                                       Eye, Impairment
                                                       of Central Visual
                                                       Acuity,
                                                       Impairment of
                                                       Field of Vision,
                                                       Impairment of
                                                       Muscle Function
                                                       (eyes)
6...............................  6599..............  Generalized,
                                                       Disease of the
                                                       Nose and Throat
6...............................  7017..............  Coronary Artery
                                                       Bypass Surgery
6...............................  9405..............  Dysthymic
                                                       disorder;
                                                       Adjustment
                                                       disorder with
                                                       depressed mood,
                                                       Major depression
                                                       without
                                                       melancholia
5...............................  6034..............  Pterygium
5...............................  6603..............  Emphysema,
                                                       pulmonary
5...............................  7099..............  Generalized,
                                                       Diseases of the
                                                       Heart
5...............................  7806..............  Eczema
5...............................  7813..............  Dermatophytosis
5...............................  7816..............  Psoriasis
5...............................  8018..............  Multiple sclerosis
5...............................  8099..............  Generalized,
                                                       Organic Diseases
                                                       of the Central
                                                       Nervous System
5...............................  9400..............  Generalized
                                                       anxiety disorder
4...............................  5015..............  Bones, New Growths
                                                       of, Benign
4...............................  5017..............  Gout
4...............................  5020..............  Synovitis
4...............................  5227..............  Ankylosis of any
                                                       other finger
4...............................  5285..............  Vertebra, fracture
                                                       of, residuals
4...............................  6079..............  Defective visual
                                                       acuity
4...............................  6510..............  Sinusitis,
                                                       parnsinusitis,
                                                       chronic
4...............................  6602..............  Asthma, bronchial
4...............................  6819..............  New growths,
                                                       malignant, any
                                                       specified part of
                                                       the respiratory
                                                       system exclusive
                                                       of skin growths
4...............................  7007..............  Hypertensive heart
                                                       disease
4...............................  7116..............  Claudication,
                                                       intermittent
4...............................  7120..............  Varicose Veins
4...............................  7318..............  Gall bladder,
                                                       removal of
4...............................  7341..............  Stomach wound
4...............................  7528..............  Malignant
                                                       neoplasms of the
                                                       genitourinary
                                                       system
4...............................  8008..............  Brain, vessels,
                                                       thrombosis of
4...............................  8045..............  Brain disease due
                                                       to trauma
4...............................  8515..............  Paralysis of the
                                                       median nerve
4...............................  8599..............  Generalized,
                                                       Diseases of the
                                                       Peripheral Nerves
                                                       (Paralysis)
4...............................  9203..............  Schizophrenia,
                                                       Paranoid type
4...............................  9499..............  Generalized,
                                                       Anxiety
                                                       Disorders,
                                                       Dissociative
                                                       Disorders,
                                                       Somatoform
                                                       Disorders, Mood
                                                       Disorders
4...............................  9999..............  Generalized,
                                                       Dental and Oral
                                                       Conditions
3...............................  5165..............  Amputation of Leg
                                                       at a lower level
                                                       permitting
                                                       prosthesis
3...............................  5201..............  Limitation of
                                                       motion of arm
3...............................  5211..............  Impairment of Ulna
3...............................  5215..............  Limitation of
                                                       motion of the
                                                       wrist
3...............................  5262..............  Tibia and fibula,
                                                       impairment of
3...............................  5276..............  Flatfoot, acquired
3...............................  5292..............  Limitation of
                                                       motion of lumbar
                                                       spine
3...............................  5309..............  Group IX Intrinsic
                                                       muscles of hand
3...............................  6018..............  Conjunctivitis,
                                                       other, chronic
3...............................  6200..............  Otitis media,
                                                       suppurative,
                                                       chronic
3...............................  6731..............  Tuberculosis,
                                                       pulmonary,
                                                       chronic, inactive
3...............................  6799..............  Generalized,
                                                       Diseases of the
                                                       Lungs and Pleura--
                                                       Tuberculosis
3...............................  7299..............  Generalized,
                                                       Digestive System
3...............................  7307..............  Gastritis,
                                                       hypertrophic
3...............................  7308..............  Postgastrectomy
                                                       syndromes
3...............................  7339..............  Hernia, ventral,
                                                       postoperative
3...............................  7344..............  New growths,
                                                       benign, any part
                                                       of digestive
                                                       system, exclusive
                                                       of skin growths
3...............................  9399..............  Generalized,
                                                       Delirium,
                                                       Dementia, and
                                                       Amnestic and
                                                       Other Cognitive
                                                       Disorders
2...............................  5019..............  Bursitis
2...............................  5209..............  Elbow, other
                                                       impairment of
                                                       Flail joint
2...............................  5212..............  Impairment of
                                                       radius
2...............................  5224..............  Ankylosis of thumb
2...............................  5225..............  Ankylosis of Index
                                                       Finger
2...............................  5253..............  Thigh, Impairment
                                                       of
2...............................  5279..............  Metatarsalgia,
                                                       anterior
                                                       (Morton's
                                                       disease)
2...............................  5294..............  Sacro-iliac injury
                                                       and weakness
2...............................  5296..............  Skull, loss of
                                                       part of, both
                                                       inner and outer
                                                       tables
2...............................  5314..............  Group XIV--
                                                       Anterior thigh
                                                       group
2...............................  5319..............  Group XIX--Muscles
                                                       of abdominal wall
2...............................  5399..............  Generalized,
                                                       Shoulder and
                                                       Girdle Muscles,
                                                       the Forearm and
                                                       Hand, the Foot
                                                       and Leg, the
                                                       Pelvic Girdle and
                                                       Thigh, the Torso
                                                       and Neck
2...............................  6029..............  Aphakia
2...............................  6210..............  Auditory canal,
                                                       disease of
2...............................  6211..............  Tympanic membrane,
                                                       perforation of
2...............................  6299..............  Generalized,
                                                       Diseases of the
                                                       Ear
2...............................  6310..............  Syphilis,
                                                       unspecified
2...............................  6399..............  Generalized,
                                                       Infectious
                                                       Diseases, Immune
                                                       Disorder and
                                                       Nutritional
                                                       Deficiencies
2...............................  6513..............  Sinusitis,
                                                       maxillary,
                                                       chronic
2...............................  6699..............  Generalized,
                                                       Diseases of the
                                                       Trachea and
                                                       Bronchi
2...............................  6723..............  Tuberculosis,
                                                       pulmonary,
                                                       chronic, minimal,
                                                       inactive
2...............................  6833..............  Asbestosis
2...............................  7199..............  Generalized,
                                                       Diseases of the
                                                       Arteries and
                                                       Veins
2...............................  7312..............  Liver, cirrhosis
2...............................  7323..............  Ulcerative colitis
2...............................  7345..............  Hepatitis,
                                                       infectious
2...............................  7504..............  Pyelonephritis,
                                                       chronic
2...............................  7508..............  Nephrolithiasis
2...............................  7512..............  Cystitis, chronic,
                                                       includes
                                                       interstitial and
                                                       all etiologies,
                                                       infectious and
                                                       non-infectious
2...............................  7706..............  Splenectomy
2...............................  7799..............  Generalized, Hemic
                                                       and Lymphatic
                                                       Systems
2...............................  7999..............  Generalized, The
                                                       Endocrine System
2...............................  8100..............  Migraine
2...............................  8512..............  Paralysis of lower
                                                       radicular group
2...............................  8520..............  Paralysis of
                                                       sciatic nerve
2...............................  8621..............  Neuritis of
                                                       external
                                                       popliteal nerve
                                                       (common peroneal)
2...............................  9304..............  Dementia
                                                       associated with
                                                       brain trauma
2...............................  9410..............  Other and
                                                       unspecified
                                                       neurosis
2...............................  9413..............  Anxiety disorder,
                                                       not otherwise
                                                       specified
1...............................  5012..............  Bones, New Growths
                                                       of, Malignant
1...............................  5013..............  Osteoporosis, with
                                                       Joint
                                                       Manifestations
1...............................  5021..............  Myositis
1...............................  5022..............  Periostitis
1...............................  5024..............  Tenosynovitis
1...............................  5055..............  Knee Replacement
                                                       (Prosthesis)
1...............................  5110..............  Loss of use of
                                                       both feet
1...............................  5111..............  Loss of use of one
                                                       hand and one foot
1...............................  5154..............  Amputation of
                                                       middle finger
1...............................  5155..............  Amputation of ring
                                                       finger
1...............................  5199..............  Generalized,
                                                       Combinations of
                                                       Disabilities and
                                                       Amputations of
                                                       the
                                                       Musculoskeletal
                                                       System
1...............................  5202..............  Other Impairment
                                                       of Humerus
1...............................  5219..............  Two digits of one
                                                       hand, unfavorable
                                                       ankylosis of
1...............................  5222..............  Three digits of
                                                       one hand,
                                                       favorable
                                                       ankylosis of
1...............................  5223..............  Two digits of one
                                                       hand, favorable
                                                       ankylosis of
1...............................  5255..............  Femur, Impairment
                                                       of
1...............................  5270..............  Ankle, ankylosis
                                                       of
1...............................  5278..............  Claw foot (pes
                                                       cavus), acquired
1...............................  5284..............  Other foot
                                                       injuries
1...............................  6007..............  Hemorrhage, intra-
                                                       ocular, recent
1...............................  6013..............  Glaucoma, simple,
                                                       primary, non-
                                                       congestive
1...............................  6019..............  Ptosis, unilateral
                                                       or bilateral
1...............................  6026..............  Neuritis, optic
1...............................  6062..............  Blindness both
                                                       eyes having only
                                                       light perception
1...............................  6080..............  Impairment of
                                                       Field vision
1...............................  6304..............  Malaria
1...............................  6311..............  Tuberculosis,
                                                       military
1...............................  6501..............  Rhinitis,
                                                       atrophic, chronic
1...............................  6502..............  Septum, nasal,
                                                       deflection of
1...............................  6519..............  Aphonia, organic
1...............................  6604..............  Chronic
                                                       obstructive
                                                       pulmonary disease
1...............................  6802..............  Pneumoconiosis,
                                                       unspecified
1...............................  6820..............  New growths of,
                                                       benign, any
                                                       specified part of
                                                       respiratory
                                                       system
1...............................  6821..............  Coccidioidomycosis
1...............................  6825..............  Diffuse
                                                       interstitial
                                                       fibrosis
                                                       (interstitial
                                                       pheumonitis,
                                                       fibrosing
                                                       alveolitis)
1...............................  6847..............  Sleep Apnea
                                                       Syndromes
                                                       (Obstructive,
                                                       Central, Mixed)
1...............................  7003..............  Adhesions,
                                                       Pericardial
1...............................  7006..............  Myocardium,
                                                       infarction of,
                                                       due to thrombosis
                                                       or embolism
1...............................  7015..............  Auriculoventricula
                                                       r Block
1...............................  7100..............  Arteriosclerosis,
                                                       general
1...............................  7118..............  Angioneurotic
                                                       edema
1...............................  7304..............  Gastric ulcer
1...............................  7315..............  Cholelithiasis,
                                                       chronic
1...............................  7325..............  Enteritis, chronic
1...............................  7326..............  Enterocolitis,
                                                       chronic
1...............................  7327..............  Diverticulitis
1...............................  7332..............  Rectum and anus,
                                                       impairment of
                                                       sphincter control
1...............................  7335..............  Ano, Fistula in
1...............................  7343..............  New growths,
                                                       malignant,
                                                       exclusive of skin
                                                       growths
1...............................  7502..............  Nephritis, chronic
1...............................  7507..............  Nephrosclerosis,
                                                       arteriolar
1...............................  7509..............  Hydronephrosis
1...............................  7518..............  Urethra, stricture
                                                       of
1...............................  7522..............  Penis, deformity,
                                                       with loss of
                                                       erectile power
1...............................  7523..............  Testis, atrophy
                                                       complete
1...............................  7524..............  Testis, removal
1...............................  7815..............  Pemphigus
1...............................  7903..............  Hypothyroidism
1...............................  7914..............  New growths,
                                                       malignant,
                                                       endocrine system
1...............................  8004..............  Paralysis Agitans
1...............................  8108..............  Narcolepsy
1...............................  8199..............  Generalized,
                                                       Miscellaneous
                                                       Diseases of the
                                                       Central Nervouse
                                                       System
1...............................  8207..............  Seventh (Facial)
                                                       cranial nerve,
                                                       paralysis of
1...............................  8516..............  Paralysis of the
                                                       ulnar nerve
1...............................  8910..............  Epilepsy, grand
                                                       mal
1...............................  8999..............  Generalized, The
                                                       Epilepsies
1...............................  9204..............  Schizophrenia,
                                                       Undifferentiated
                                                       type
1...............................  9205..............  Schizophrenia,
                                                       Residual type;
                                                       Schizoaffective
                                                       disorder, other
                                                       and unspecified
                                                       types
1...............................  9206..............  Bipolar disorder,
                                                       manic, depressed
                                                       or mixed
1...............................  9303..............  Dementia
                                                       associated with
                                                       alcoholism
1...............................  9310..............  Dementia due to
                                                       unknown cause
1...............................  9326..............  Dementia due to
                                                       other neurologic
                                                       or general
                                                       medical
                                                       conditions
                                                       (endocrine
                                                       disorders,
                                                       metabolic
                                                       disorders, Pick's
                                                       disease, brain
                                                       tumors, etc.) or
                                                       that are
                                                       substance-induced
                                                       (drugs, alcohol,
                                                       poisons)
1...............................  9403..............  Phobic disorder
1...............................  9404..............  Obsessive
                                                       compulsive
                                                       disorder
1...............................  9432..............  Bipolar disorder
1...............................  9434..............  Major depressive
                                                       disorder
1...............................  9502..............  Psychological
                                                       factors affecting
                                                       gastrointestinal
                                                       condition
1...............................  9904..............  Mandible, malunion
                                                       of
981.............................  5000-9999.........  Total Service-
                                                       Connected & Non
                                                       Service-Connected
                                                       Disabilities
------------------------------------------------------------------------


    Senator Specter. And now we will move to panel two. Thank 
you.
    Chairman Rockefeller. Let me just introduce them. Our 
second panel of witnesses are Steven Smithson of the American 
Legion; and then Rick Weidman of the VVA, who is accompanied by 
Dr. Linda Schwartz of the VVA Healthcare Committee. The VVA has 
worked very diligently to bring attention about Project SHAD to 
us in Congress. And, finally, we will hear from Dr. Leonard 
Cole, an expert in informed consent and military, biological, 
and chemical weapons testing, who testified before the 
committee on these subjects in 1994. So, Dr. Cole, welcome 
back.
    I guess we will stick with the 5-minute rule. All of your 
testimony is included, and we are very glad that you are here.

    STATEMENT OF RICHARD F. WEIDMAN, DIRECTOR OF GOVERNMENT 
 RELATIONS, VIETNAM VETERANS OF AMERICA; ACCOMPANIED BY LINDA 
 SPOONSTER SCHWARTZ, PH.D., CHAIR, VIETNAM VETERANS OF AMERICA 
                      HEALTHCARE COMMITTEE

    Mr. Weidman. Good morning, Mr. Chairman.
    Chairman Rockefeller. Good morning.
    Mr. Weidman. First, Vietnam Veterans of America, we salute 
your leadership and that of Senator Specter in holding this 
hearing today to begin to unravel a very complicated story. I 
ask that our statement be submitted for the record, as 
submitted, and I will try and cover a couple of points that 
highlight things.
    It turns out to be a rather complicated story, and it 
really was almost like an investigation on our part. I must 
tell you that I was sardonically amused last night when I first 
saw that press release about DoD expanding the investigation, 
and I just started to laugh and said, Is John Dean the head of 
this investigation? I mean, what investigation? The only 
investigating that has really been done into these exposures 
was done by you, Senator, and folks on the Hill and one small 
veterans service organization--actually, two.
    I want to salute Senator Nelson for introducing the 
veteran's right to know law, and that will take us some 
direction toward a solution.
    A little bit of chronology. Last fall, it came to our 
attention the whole deal about SHAD existing and that there 
being many more questions, and we thought when we first started 
looking into it that we had a small throw rug, and the more we 
pulled on the strand, the larger and larger the picture became.
    Project 112, we kept saying to ourselves as we toiled on 
this, in addition to other duties, often until 9 or 10 in the 
office, that it had to be larger than just this one Navy 
project. And that is how we found out about Project 112. The 
most important thing about that press release that was issued 
last evening by DoD is for the first time they are 
acknowledging that Project 112 took place. Heretofore, they had 
not acknowledged that Project 112 took place.
    A number of things were talked this morning about 
classification, and I just want to go into that, if I may, just 
to correct the record a little bit.
    The muster rolls and the deck logs that contain all of the 
names of all of the people on all of the ships involved in all 
of the SHAD tests were, in fact, in the public domain, in the 
Archives. So was the accident reports of the ships involved 
also, in a different part of the National Archives. All of that 
was true until we started going over to the National Archives 
seeking this information, and suddenly 1 day they had it, and 
the next day it was sealed. In other words, this wasn't 
classified information. It was public information, had been so 
for 40 years, and only when we started to unravel that there 
may have been deliberate damage--or deliberate exposures, 
excuse me, done to American military personnel was it suddenly 
classified.
    We would point out, sir, that all of the ships in the fleet 
involved in the SHAD test and, indeed, all of the classes of 
ships involved in the test are out of the fleet. They no longer 
exist. The only ones that exist, because there were some 
aircraft carriers involved, have either been mothballed or 
completely rebuilt keel up in the 1980's and the 1990's. 
Therefore, there can be from our point of view no national 
security consideration here, and that title has been used or 
that label has been used of national security to really engage 
in bureaucratic protectionism of the worst order. In other 
words, don't admit we ever made a mistake. We couldn't possibly 
have exposed our troops, inadvertently or in this case, many 
cases, we believe, deliberately, to all of these toxins.
    I want to commend the cooperation that we have had 
throughout and the attitude of Secretary Principi and Admiral 
Cooper and Nora Egan, who is chief of staff to the Secretary, 
for their willingness to get at the bottom. While we would 
agree with you about VA, many people in VA being very dedicated 
to veterans, I will tell you, sir, that the institutional 
response at 810 Vermont Avenue and within the higher levels of 
Veterans Benefits Administration was not what it should be, by 
any stretch of the imagination.
    Beginning in October, in the fall of 2000, the request went 
over verbally, and then finally in January of 2001, a formal 
letter went from the Acting Secretary of Veterans Affairs to 
DoD's Secretary at that particular time. A response was made, 
although no letter was ever sent back to the Secretary of 
Veterans Affairs. But folks out of DoD did, in fact, call Dr. 
Mather. Dr. Mather said she didn't want the names, that that 
was really Veterans Benefits Administration work and, 
therefore, referred them over there. They were delivered, in 
fact, February 2001, to the Veterans Benefits Administration, 
the first 1,200 names. They didn't do anything with them. They 
put them in a drawer, and it wasn't until October when we 
started pressing that the Secretary's office found out that the 
names actually had already been furnished, the first batch, by 
DoD and nothing had been done with them. It took from October 
of 2001 until May of 2002 to reach out to these first 622 
veterans.
    We have since that time worked with Admiral Cooper, and 
they understand now how to use common search engines available 
on the Internet in order to locate most of these veterans very 
quickly and not wait for IRS, where you can shorten those 
months into just a couple of days before you can put those 
letters into the mail. Once again, we believe that the top 
political leadership at VA has, in fact, acted with alacrity 
and with a determination to say we don't know what is wrong but 
we are going to find out what is wrong and we are going to try 
and fix it. But that has not been true of the corporate 
cultures of VBA and VHA, the Veterans Health Administration and 
Veterans Benefits Administration, which needs to change in a 
dramatic way toward being proactive. Instead of deny, 
dissemble, and wait for an army to die or, in this case, wait 
for the Navy to die, it needs to be on a proactive basis of we 
don't know what is wrong but, by gosh, we are going to find out 
everything we can and move to provide Americans who serve their 
country in the U.S. military with the health care and with the 
benefits that they earned by virtue of that service, if, in 
fact, they were harmed by that service.
    That is the attitude that we believe that we can expect 
from people who are GS-14's, 15's, and SES's, Senior Executive 
Service folks. But that is not what we got in this case. At 
every step of the way, we had to go to the chief of staff of 
the entire VA and with the weight of the Secretary's office to 
get key individuals in Environmental Hazards and Public Health 
to respond and move forward and for the senior people in VBA--
and I am not including Admiral Cooper in that because he 
actually during much of this was not on board yet.
    We should expect better from people whom we pay, in some 
cases, because of ways of getting around the cap, earn more 
than U.S. Senators.
    Senator Specter. Mr. Weidman, we agree with you about that. 
We have your point.
    Mr. Weidman. OK. Thank you, sir.
    The point is that much of this declassification 
investigation can proceed much more quickly, literally in a 
matter of weeks, if they made the determination to do it, 
because the muster rolls and the deck logs, they know where 
they are. They pulled them out of the Archives. All they need 
to know is the names of the ships, and we believe that the 
names of the ships are much more readily available than they 
say. So it is only a matter of putting the manpower on it in a 
systematic way and turning the information over to VA. At the 
rate they proceeded so far--for the first 622, it took 19 
months to do that. At this rate most people will be dead before 
we get to them.
    In terms of the things that we would propose to do, we 
would be glad to work with the committee on those particular 
questions, and we have made some proposals directly, seven 
proposals to Secretary Principi's office, which they are 
considering now, including establishing a real registry. A real 
registry is one that is directly connected to the patient 
treatment records.
    So I thank you very much, Mr. Chairman, and I know that I 
went over my 5 minutes and I apologize. It just does become a 
very complicated story. Many of the things said today were 
inadvertently, we believe, untrue by Mr. Winkenwerder, but he 
didn't know that.
    [The prepared joint statement of Mr. Weidman follows:]
Prepared Joint Statement of Richard F. Weidman, Director of Government 
     Relations and Linda Spoonster Schwartz, Chair, VVA Healthcare 
                 Committee, Vietnam Veterans of America
    Mr. Chairman, Ranking Member Specter, distinguished members of the 
committee, Vietnam Veterans of America (VVA) is very pleased to have 
the opportunity to share our views with you today on a topic that has 
been at the very core of VVA's mission from day one: investigating 
toxic exposures among America's veterans. On behalf of Tom Corey, VVA 
National President, and all of us in VVA, we thank and congratulate you 
and your colleagues for demonstrating strong leadership on these vital 
veterans issues.
    First, let us briefly summarize the 60-year history of the 
Pentagon's use of American military personnel as human guinea pigs:
    <bullet> Mustard gas testing on servicemembers during WW II
    <bullet> Atomic testing on servicemembers during the early Cold War 
period
    <bullet> LSD experiments on servicemembers during the 1960's
    <bullet> Herbicide use and concomitant exposures among troops in 
Vietnam, Panama, and stateside
    <bullet> Chemical exposures during and immediately after the Gulf 
War
    <bullet> The use of investigation chemical/biological warfare drugs 
and biologics during the Gulf War
    <bullet> The ongoing use of the controversial (and likely unsafe) 
anthrax vaccine
    The most recent revelations about Project 112--the Pentagon's 
master chemical/biological warfare agent testing program from the 
1960's--have only added to our sense of legitimate moral outrage over 
the permanent bureaucracy in the executive branch's cavalier approach 
to troop health and safety.
    Two days after the attacks on the World Trade Center and the 
Pentagon, Department of Defense (DoD) officials invited representatives 
of the veterans service organization's (VSOs) to a briefing on what has 
since become known as Project Shipboard Hazard and Defense (SHAD). 
Rather than provide the VSO's with declassified documents, officials 
from what was once known as the Office of the Special Assistant for 
Gulf War Illnesses (OSAGWI) provided sanitized, derivative documents 
labeled ``Fact Sheets'' regarding three test series: AUTUMN GOLD, 
COPPERHEAD, and SHADY GROVE.
    As VVA began doing our own research into this issue, we uncovered a 
number of important facts:
    <bullet> SHAD was only part of a much larger testing initiative, 
known as Project 112. According to the U.S. Army's unclassified history 
of its biological warfare program, Project 112 was initiated by then-
Secretary of Defense McNamara in September 1961 at a funding level of 
$4 billion. When Pentagon officials originally briefed us on Project 
SHAD, we were told that as many as 113 tests may have been conducted. 
We have recently learned that Pentagon officials are now backing off of 
that figure, claiming that 113 total Project 112 tests were planned but 
that SHAD only accounted for 34 of the tests.
    <bullet> Testing activities were coordinated through a headquarters 
established at the Desert Test Center at Ft. Douglas Utah in 1962. The 
overall program was governed by National Security Action Memoranda 235, 
signed by President Kennedy on April 17, 1963. Testing allegedly began 
in 1962 and continued through at least early 1969.
    <bullet> Our research indicates that Project 112 tests took place 
off the east and west coasts of the United States, in Alaska, and in 
Panama. VVA believes that additional test sites were used but because 
of the Pentagon's refusal thus far to declassify the records neither we 
nor the affected veterans have a full understanding of the true number 
and scope of the tests nor the potential health risks that may have 
resulted from their participation in Project 112 testing activities.
    Without the original documentation before us, we are being asked to 
trust the Pentagon's good word about the scope, duration, and potential 
hazards associated with the tests. Based on the 60+ year history of the 
Pentagon's role in other such tests, we have good reason and ample 
precedent to believe that the ``Fact Sheets'' were and are an exercise 
in risk-minimization and public relations, and the odds are that said 
``Fact'' sheets may not be a legitimate effort to come clean on the 
potential consequences of the tests. We have recently obtained a 
document that fully validates our concerns as to the lack of a 
corporate culture that promotes and rewards organizational integrity 
and veracity of OSAGWI and its activities.
    ``PRSA Bronze Anvil Entry,'' a partial copy of which is attached 
for your review, was (and probably remains) OSAGWI's media battle plan 
for minimizing the damaging impact of Gulf War illness-related exposure 
issues, and, now, Project 112. Let me quote a passage from the page of 
this document that I think showcases DoD's approach to military toxic 
exposure-related episodes:

          Following the war, many veterans began to complain of health 
        problems they associated with their service in the Gulf. They 
        clamored for health care and answers, and the news media and 
        some legislators picked up the battle cry. The President 
        ordered a thorough review and finally, DoD conceded that 
        America's finest might have been exposed to low levels of 
        chemical warfare agent.
          For five years, the DoD had denied the possibility of 
        chemical warfare exposure during the Gulf War. With this new 
        information in the news, the DoD faced charges of a cover-up 
        and conspiracy. Finally, in late 1996, a special office was 
        created and charged to ``turn over every stone'' and find out 
        what was making Gulf War veterans sick.
          The Gulf War lasted only 100 hours. The public relations 
        battle is still on-going.

    ``Bronze Anvil Entry'' is rife with such language, Mr. Chairman: 
talk about ``tactics'' and ``strategy'' for dealing with the media, the 
veterans, the Congress. By their own admission, the [Bronze Anvil 
Entry] ``communications plan is the basis, guide, and baseline for 
almost everything the organization does, from investigating what 
happened in the Gulf War, to media relations and responding to veterans 
concerns.''
    In other words, everything OSAGWI has done has been guided not by a 
quest for the facts and the truth but by a media-driven PR-strategy 
designed to absolve the department of any and all responsibility for 
the illnesses reported by the veterans. Some might well maintain that 
this is a self-serving bureaucratic protectionism strategy that has 
absolutely nothing to do with either true national security concerns 
nor with the health and welfare of the many decent Americans serving in 
the Armed services at the time who may well have been affected.
    What has this exercise apparently driven by public relations 
concern cost the American taxpayer? Over $150 million since FY1996. For 
this amount of money, not one single peer reviewed scientific article 
has been produced, making all of the ``materials'' and so-called ``case 
studies not worth the paper they are written on. The American tax 
payers have decidedly NOT gotten their money's worth from this exercise 
in appearing to do something.
    What has it cost the veteran? Continued pain and suffering, 
compounded by a relentless less than forthcoming, forthright, and 
honest Pentagon spin-machine that has effectively obstructed genuine 
scientific inquiry and debate over Gulf War illnesses.
    How effective was the OSAGWI ``spin machine''? The document boasts 
that ``Media relations have matured with national press calling to ask 
if controversial issues are `news' before determining level of 
coverage.''
    Earlier this year, Secretary Rumsfeld said that the proposed Office 
of Strategic Influence had been abolished. In fact, it has been 
operating since 1996 and continues operating to this day. Once known as 
the Office of the Special Assistant for Gulf War Illness, it now 
masquerades under the title of ``Deployment Health Support 
Directorate.''
    VVA believes that the permanent bureaucrats and seemingly permanent 
agents of contractors that staff this ``Deployment Health Support 
Directorate'' continue to deliberately mislead the Secretary and his 
office as to the truth about this operation, as it is in their 
immediate pecuniary interest to do so, and they appear to be unfettered 
by sense of duty and loyalty to the good American men and women who 
honorably served our Nation in military service who may have be harmed 
by this course of action/inaction.
    In the near term, Congress can best serve ill veterans by striking 
the Deployment Health Support Directorate's funding from the TRICARE 
Management Activity (where it is currently funded) and prohibiting the 
Pentagon from any further expenditures on this office, pending GAO's 
examination of this office and its activities over the past several 
years. VVA believes that any such GAO investigation should be 
spearheaded by GAO's Strategic Issues or Applied Research Methodologies 
divisions, which have very good track records in investigating DoD 
activities.
    To restore the trust and confidence of the American people, and 
particularly American veterans in the federal government's response to 
these kinds of exposure-related controversies, more sweeping changes 
will be required.
    There are four common themes that run through nearly all of the 
historical examples I've enumerated thus far:
    1. In nearly every case, servicemembers who were test subjects 
rarely if ever were informed of the potential health consequences of 
the exposures;
    2. The tests were almost invariably deemed ``secret'' or a 
``national security issue'' by the Pentagon bureaucracy, which 
routinely classified the tests and prohibited affected personnel from 
discussing the tests or seeking medical treatment for symptoms 
associated with exposures;
    3. Medical record keeping and follow up of the affected personnel 
was nonexistent;
    4. When evidence of a nexus between potential service-connected 
toxic exposures and subsequent illnesses veterans emerges, the Pentagon 
(and Department of Veterans Affairs) immediately seeks to denigrate or 
minimize any such connection.
    At VVA, we have a phrase to describe this phenomenon: the 
disposable soldier syndrome.
    In our view, the Pentagon has always viewed us--the soldiers, 
sailors, airman, Marines, Coast Guardsmen--as nothing more than 
disposable cogs in the giant military machine. In reality, we are the 
most critical component of the machine: the literal flesh-and-blood 
that gives this machine its ability to defend America, her citizens, 
and her interests. We will not be treated as one more consumable, 
disposable, National Stock Number item. We never did, and would hope 
the distinguished Senators on this Committee will disavow this latter 
day version of Robert McNamara's ``spare parts'' theory of American 
military personnel.
    Mr. Chairman, you and other distinguished colleagues in the 
Congress have begun to recognize the need for fundamental reform in 
this area. We applaud Representative Thompson and Senator Nelson for 
offering the ``Veterans Right to Know Act of 2002,'' which addresses 
the Project 112/Project SHAD controversy by charging GAO to thoroughly 
investigate and oversee the declassification and dissemination of the 
test records. The Congress must do much more, however, if we are to 
ensure that no such episodes occur in the future.
    Because DoD and VA bureaucrats have politicized the medical 
research arena and monopolized control over research funding decisions, 
it is completely impossible for most non-federal researchers with 
unconventional or controversial theories about the origins of Gulf War 
illnesses to receive federal funding. Moreover, both DoD and VA have an 
inherent conflict of interest when it comes to investigating these 
kinds of issues.
    Consider the following analogy. When the Bridgestone/Firestone 
``exploding tire'' scandal erupted, the Congress did not tell the 
manufacturer, ``We trust you: go investigate yourself, make 
recommendations for change, then implement those changes--you have our 
blessing!'' Congress held hearings and monitored the National Highway 
Transportation Safety Administration's investigation of Bridgestone/
Firestone. The same model applies to airline crashes. Congress does not 
rely on the aircraft manufacturers crash report; it listens to the 
National Transportation Safety Board's investigators, who are 
independent of both the manufacturer and the aviation industry as a 
whole. Congress set up this system to ensure that no conflict of 
interest would compromise safety investigations, a wise and sensible 
approach to transportation safety policy.
    Yet for the last decade, the Congress has allowed the agency that 
most likely created the Gulf War illness problem (DoD), and the agency 
charged with paying for the problem (i.e., the VA, through health care 
and disability payments to sick veterans), to both investigate Gulf War 
illnesses and their own role in responding to sick Desert Storm 
veterans. This is an obvious conflict of interest, one that has 
prolonged the suffering of the veterans, destroyed their trust in the 
federal government, and resulted in the waste of at least $150 million 
over the past five years through OSAGWI, as the Defense Department has 
``investigated'' its own response to Gulf War illnesses. It is also how 
the Pentagon and the Air Force have managed to spend over $180 million 
on Agent Orange-related Ranch Hand research that has produced less than 
half-a-dozen peer-reviewed scientific papers over the last 15 years. 
Even those few peer reviewed articles were produced just recently under 
extreme pressure by the Congress to produce tangible scientifically 
valid results.
    To end this conflict of interest and restore integrity to the 
process of investigating and treating veteran's medical conditions, 
last year VVA called for the creation of a National Institute of 
Veterans Health (NIVH) within NIH. This notional NIVH would not only 
eliminate the conflict of interest problem outlined above, it would 
provide a vehicle for establishing a medical research corporate culture 
focused on veteran health care, in contrast to the current VA medical 
corporate culture of ``health care that happens to be for veterans.''
    VVA recognizes that the VA has established a reputation for 
providing advanced care for blinded veterans or those with severe 
ambulatory impairments. However, the VA has never truly developed a 
corporate culture focused on the diagnosis and treatment of the full 
range of environmental and occupational hazards that are unique to 
military service. This is especially true of the VA's Research and 
Development Office, where the overwhelming majority of VA-funded 
research programs are geared towards medical problems found in the 
general population, not those specific to the veteran patient 
population or those with military service. Even though it is possible 
at virtually no additional cost to collect veteran specific variable 
information on all the studies funded though this section, the current 
leadership of VA Research & Development refuses to do so.
    By establishing a new NIVH with veteran advocates serving on the 
peer-review panels that make research funding decisions, the Congress 
would be creating a research institute that would be truly focused on 
the unique medical needs of veterans. Locating the NIVH within NIH 
would ensure that the full medical resources of the federal government 
and private sector could be marshaled in a rational, veteran-friendly 
environment, free of the politicizing and conflict-ridden influences 
that have for more than 20 years precluded effective research into the 
unique environmental and occupational hazards that have impacted the 
health of American veterans.
    One of the first lines of inquiry that should be pursued by this 
proposed entity is what we term ``the in-country effect,'' the idea 
that the totality of the military experience in a theater of operation 
has a cumulative effect on the health of the veteran. We believe that 
more than enough epidemiological research exists to show that both 
Vietnam and Gulf War veterans display higher rates of illness than 
their nondeployed counterparts. Researching the mechanisms that produce 
these higher morbidity rates among those who serve in theater should be 
a top research priority for the notional NIVH.
    Additionally, this proposed NIVH must be supplemented by the 
creation of a Congressionally directed mandatory declassification 
review panel, whose purpose would be to screen (on both a historical 
and an ongoing basis) and declassify any operational or intelligence 
records for evidence of data that would have an impact on the health 
and welfare of American veterans. The need for such an entity--
completely independent from the Pentagon and the U.S. intelligence 
community--is obvious.
    Even today, thousands of pages of Gulf War-related records remain 
classified. In January 1998, the CIA admitted that its own internal 
review had identified over 1 million classified documents with 
potential relevance to Gulf War illnesses. Virtually no documents 
associated with the 1960's era SHAD program have been declassified, and 
DoD has thus far rebuffed VVA's FOIA requests that the documents be 
made public. Through the experience of the Kennedy Assassination Review 
Commission and the Nazi War Crimes Declassification Review panel, we 
have learned that such specialized declassification panels work well. 
If we are to be certain that all data that may effect the health of 
American veterans is to be available for the veterans and their 
physicians, the Congress must create such a standing declassification 
review panel immediately. Such a move would also help to restore trust 
and confidence among veterans in the federal government and its 
response to veteran's health issues.
    VVA believes that the VA should remain in the veteran health care 
business, but only if there is a dramatic change in the corporate 
culture of the Veterans Health Administration (VHA).
    During his tenure as Undersecretary for Health, Dr. Thomas 
Garthwaite put forward a proposal known as the Veterans Health 
Initiative (VHI). The purpose of the VHI was to put veteran patient 
care at the core the VHA's corporate culture. As Dr. Garthwaite 
testified before Congress in April 2001,

          The Veterans Health Initiative was established in September 
        1999 to recognize the connection between certain health effects 
        and military service, prepare health care providers to better 
        serve veteran patients, and to provide a data base for further 
        study.
          The components of the initiative will be a provider education 
        program leading to certification in veterans' health; a 
        comprehensive military history that will be coded in a registry 
        and be available for education, outcomes analysis, and 
        research; a database for any veteran to register his military 
        history and to automatically receive updated and relevant 
        information on issues of concern to him/her (only as 
        requested); and a Web site where any veteran or health care 
        provider can access the latest scientific evidence on the 
        health effects of military service.

    VVA's experience is that while some progress has been made in 
development of curricula by the Office of Public Health and 
Environmental Hazards, virtually no one at the service delivery level, 
or at the researcher level know that these exist. After three years, 
there is still not visible effort to train or enlighten staff at the 
hospital level or actually doing research of the importance of taking a 
complete military history and testing for various natural and man-made 
risk factors that a veteran may have been exposed to based on when, 
where. branch of service, and what the veteran actually did in the 
military. VVA maintains that this is what Veterans Health Care (and 
hence VA) should be all about, not just general health care that 
happens to be for veterans.
    We note that to date, comprehensive clinical practice guidelines 
and continuing medical education courses in dealing with Gulf War 
illnesses have yet to be distributed throughout the VA medical system. 
The visualized cash awards for clinicians passing competency exams in 
veteran specific health issues has not materialized. We know from 
internal VA emails obtained via FOIA that senior officials in Public 
Health and Environmental Hazards resisted creating a registry for 
Vietnam era SHAD veterans. As many members of this committee may 
recall, there was tremendous resistance by VHA to the idea of creating 
a Gulf War registry in the early 1990's; it took an act of Congress to 
get that effort off the ground. Given this institutional resistance to 
identifying environmental hazards and their impact on the health of 
veterans from multiple eras, how can we trust these same office with no 
apparent change in corporate culture to implement Dr. Garthwaite's 
well-conceived vision for veterans' health care?
    We have communicated these concerns to Secretary Principi, urging 
him to recognize that changing the existing VHA corporate culture 
immediately is imperative, and we look forward to working with him 
towards that end. VVA believes that this committee can play a key role 
in this process by offering comprehensive legislation to create NIVH 
and an affiliated declassification body. The VA's Gulf War Research 
Advisory Committee has already sent such a recommendation to Secretary 
Principi. VVA hopes the committee will use the Research Advisory 
Committee's recommendations as a blueprint for changing the way 
veterans exposure-related health issues are addressed.
    Mr. Chairman, this concludes my written statement. On behalf of our 
national president, Tom Corey, please accept my thanks for allowing VVA 
the opportunity to share our views on this very important topic.
 Appendix I: Extract from OSAGWI's ``Bronze Anvil'' Communications Plan
                                Summary
                                research
    At the time, the Gulf War appeared to be an overwhelming public 
relations success. The American public gave whole-hearted support to 
their military sons and daughters, sending them off to fight the 
world's largest army. The media provided minute-by-minute coverage from 
the good-by kisses through the daily military victories to the tearful 
reunions. Cheering crowds across the nation lined graffiti-filled 
streets to honor the returning victor.
    Following the war, many veterans began to complain of health 
problems they associated with their service in the Gulf. They clamored 
for health care and answers, and the news media and some legislators 
picked up the battle cry. The President ordered a thorough review and 
finally, DoD conceded that America's finest might have been exposed to 
low levels of chemical warfare agent.
    For five years, the DoD had denied the possibility of chemical 
warfare exposure during the Gulf War. With this new information in the 
news, the DoD faced charges of cover-up and conspiracy. Finally, in 
late 1996, a special office was created and charged to ``turn over 
every stone'' and find out what was making Gulf War veterans sick.
    The Gulf War lasted only 100 hours. The public relations battle is 
still on-going.
    One of the first actions of the Office of the Special Assistant for 
Gulf War Illnesses (OSAGWI) was to review the backlog of incoming 
correspondence and identify the concerns and interests of veterans. 
Meetings with representatives of 60 national veterans groups (VSOs) 
were conducted, and congressional interest identified. Goals, 
objectives, strategies, tactics and messages were formulated. Letters, 
emails, and telephone contact were all targeted to specific audiences 
including veterans, veterans' groups, Congress, and other government 
agencies. Monthly updates for VSOs allowed them to pass information to 
their millions of members while town hall meetings across the nation 
provided one-on-one interchange with veterans. An interactive Internet 
site was created (GulfLINK, TAB X) receiving up to 60,000 ``hits'' a 
week. Audience analysis indicated that many might not have access to 
the Internet, so a newsletter (GulfNEWS, TAB X) was developed. By March 
1997, most of the national press and veterans' groups appeared 
satisfied that the DoD was on the right track and many thought the 
issue was dead. However, the public relations professionals were not so 
sanguine.
    Based on the textbook model of ``lifecycle states of issues.'' (Tab 
X), the team projected that there was potential for a second wave of 
high concern and high interest. Additionally, there was also a strong 
possibility that the DoD was actually facing two lifecycles--one in the 
Washington D.C. area, and a second, later one, in ``Middle America.'' 
(TAB X) The team also analyzed current goals and objectives; strategies 
and tactics; media coverage; veterans' correspondence; and message 
delivery and acceptance. Media analysis indicated decreasing interest 
by national and military press; however, a few influential media 
continued their negative coverage, which was repeated in regional and 
local press on a regular basis (Tab X). A few vocal legislators 
continued to challenge the DoD's commitment to Gulf War veterans. 
Incoming emails, letters, and telephone calls from veterans, analyzed 
for content and tone, indicated a shift toward an increase in level of 
trust and a greater desire for information. Interviews with veterans' 
service groups indicated similar shifts in interest, focusing more on 
applying lessons learned from the Gulf War to future operations. 
Informal surveys indicated that service members still in uniform have a 
vested interest in the DoD's efforts and the eventual outcome. 
Conversely, activist groups had formed and were becoming very active.
    Research confirmed that the crisis had not been resolved. While 
some veterans still accused the DoD of cover-up and conspiracy, many 
simply didn't know what to think--they provided fertile ground for 
activists.
                                planning
    Following this analysis, the communication plan was updated with 
two new objectives while strategies and tactics were greatly expanded 
and energized for a proactive and synergistic effort (TAB X).
    New objectives featured DoD's commitment to the health and welfare 
of Gulf War veterans as well as current and future service members and 
veterans (TAB X). Target audiences were expanded to include all active 
duty, Guard, and Reserve and their family members; health care 
providers in the DoD; plus veterans and community members living and 
working near military installations. The overall strategy was to create 
``message redundancy'' through personal and second party contact. 
Military members would become ``ambassadors in uniform,'' influencing 
other audiences such as neighbors, peers, and extended family members.
    The outreach was expanded to target military installations and more 
conferences, conventions, and seminars. Town halls at each installation 
would still target veterans and their families, while briefings would 
reach the new audiences. Briefers were selected and trained for 
specific venues and audiences. Manned displays were developed for high 
traffic locations and local media heavily marketed to provide radio, 
TV, and newspaper coverage. Presentations, brochures, displays, and 
visual aids were targeted to widely varied audiences, incorporating of 
risk communication techniques. The brochure was sized to fit in uniform 
pockets and a pocket added to the tri-fold.
    With no dedicated public affairs budget, all research, graphic 
design, product production and planning was done with the existing 
staff. The budget for printing had to be greatly increased as well as 
travel since a large team now goes on each trip.
                               execution
    The communication plan is the basis, guide and baseline for almost 
everything the organization does, from investigating what happened in 
the Gulf War, to media relations and responding to veterans concerns.
    Investigations. All investigations of the Gulf War are based on 
veterans' expressed concerns. Veterans are personally interviewed and 
their comments incorporated into comprehensive reports, which are then 
posted on the interactive Internet site, GulfLINK with a request for 
comment from any reader (TAB X). Many Veterans are personally notified, 
provided copies, and asked for feedback (TAB X). Fact sheets, news 
stories, press releases (TAB X) and often a press conference accompany 
every new report when it is published. Veterans' service organizations 
(VSOs) are hosted each month for a roundtable discussion on releases, 
updates, or to discuss other issues and concerns. To date, more than 25 
narratives, reports, and information papers have been released (TAB X).
    Media. From the beginning, OSAGWI has had a proactive media 
approach. More than 150 news releases have gone to hundreds of national 
and local media via the DoD and OSAGWI Internet sites, list servers, 
and multi-fax/email (TAB X). Press conferences are held regularly. 
Thousands of media queries receive timely and comprehensive response 
(TAB X) by public affairs professionals while CBS, MSNBC, ABC, CNN, 60 
Minutes, BBC, NPR, Washington Post, etc. interview experts on 
controversial issues. Extensive media training precedes al interviews 
and Q&As are prepared for every release and emerging issue. Media 
relations have matured with national press calling to ask if 
controversial issues are ``news'' before determining level of coverage. 
Currently, approximately 300 local media around the nation are 
individually marketed resulting in extensive coverage of OSAGWI's 
outreach efforts. Trade and specialty media are also heavily marketed 
(TAB X).
    Public Communication. OSAGWI is a unique government organization--
providing one-on-one interaction via an 800 number 16 hours a day, and 
more than 200,000 personal responses via emails and letters (TAB X). 
Q&As for every issue and concern ensure all interactions with veterans 
provide consistent and correct information.
    We work closely with the VA, and other government agencies to 
provide answers to all veterans' concerns.
    GulfNEWS/GulfLINK. All products are posted on GulfLINK and veterans 
notified about new postings. Nearly 25,000 veterans subscribe to 
GulfNEWS, a bi-monthly newsletter containing highlights of GulfLINK.
    Outreach. Most members of the organization participate in the 
national outreach--whether going to military installations for weeklong 
visits, or participating in conferences, conventions, or seminars. All 
receive training on communicating with veterans, family members, or the 
news media. All are prepared to discuss individual issues while many 
are trained as briefer for specific audiences. Media are also heavily 
marketed any time we participate in an event--medical media at medical 
conventions, local media at base visits, and others whenever possible. 
Local VA representatives and VSOs actively participate in base visits 
designed specifically for each unique audience.
    Products and Distribution. Brochures (TAB X) provide answers to 
frequently asked questions while the tri-fold is more generic, but 
contains a pocket to hold a postcard, newsletter, and GulfLINK 
information (TAB X). Five display panels can be grouped for maximum 
effect or stand-alone for greater distribution (TAB X). Briefings are 
tailored for individual audiences and briefer selected for credibility 
with audience (TAB X). An annual report targets Congress (TAB X). 
Approximately 5,000 brochures, tri-folds, maps, fact sheets, etc. are 
individually distributed at each base visit. Additionally, these same 
products are regularly distributed around the nation to base libraries, 
clinics, and family support centers; VA clinics and hospitals; 
veterans' support groups such as VFW chapters; regional veterans' 
service centers; and even state libraries.
                               evaluation
    The Department of Defense and its subordinate units are not funded 
to conduct formal research in the form of scientific surveys. However, 
regular analysis of media coverage, correspondence, activist groups' 
issues, and individual veterans' feedback, can provide insightful 
information to evaluate the success of public affairs programs.
    Evaluation of programs is almost a weekly process. Analysis of 
correspondence tone and content, media coverage, activist issues, VSO 
concerns, and informal surveys result in minor modifications of tactics 
on a constant basis. Focus groups held at four installations helped 
reshape the products while risk communication professionals also 
provided their expertise on both products and processes. After each 
outreach, team members participate in an extensive evaluation of 
presentations; product and display design and distribution; and 
audience response. Although the erosion of DoD credibility cannot be 
rebuilt quickly, analysis indicates that we're on the right track.

    Chairman Rockefeller. Dr. Cole, one of the problems with 
Project SHAD and with the use of many investigational new drugs 
during the Gulf War has been the niceties of distinguishing 
ethically between test subjects who have given consent to 
participate in an experiment and between participants for whom 
notification is implied rather than secured. Based on your 
studies of other tests, would you presume that the participants 
in Project SHAD received sufficient notifications of the 
hazards of the tests in which they participated? Is the 
military doing a better job with that now, 10 years after the 
Gulf War?
    Mr. Cole. That is a good question, and the answer is 
difficult to give. It can't be black and white based on the 
information we have about SHAD.
    What I do see, having looked at the SHAD reports, the fact 
sheets that were issued by the Department of Defense, is a 
differentiation they make between what they describe as test 
subjects as opposed to test conductors.
    There is a certain, I think, lack of fairness and realism 
when you try to differentiate what rights a person should have 
in terms of informed consent if he or she is designated a 
tester rather than a subject. So just by changing the category, 
you are still not changing the fact that the tester is a 
participant. And if he is in the area of a potentially toxic or 
lethal material, as part of an experiment, I would think that 
he deserves the same kind of respect concerning informed 
consent as a human subject.
    Senator Specter. Mr. Chairman, might I ask one question 
here? Because I am going to have to excuse myself in a few 
minutes.
    On this issue the line between a test subject and a test 
conductor is so vague, if there is exposure, that ought to be 
the determinant. Does the Department of Defense now have 
ironclad regulations which require written informed consent if 
there is exposure?
    Mr. Cole. I do not know; when you use the word 
``ironclad,'' I do not know. I know that it has been official 
military policy since 1953 by way of a memorandum which I cite 
in my written testimony that the Department of Defense is 
obligated, as is the rest of this country, to respect the 
Nuremberg code. That code was the outcome of the 1947 trial of 
Nazi doctors who did horrible experiments on humans during 
World War II. The Nuremberg code is a 10-item statement. Its 
sum and substance is that nobody should be participating or 
permitted to be participating as a human subject in research 
without being informed of what he or she is getting into. He 
should have the opportunity to disqualify himself or excuse 
himself from being a research subject. This is simply summed up 
in the two words ``informed consent.''
    Senator Specter. Well, Mr. Chairman, my suggestion is that 
we make that inquiry at the staff level, and I don't think we 
ought to rely on the Nuremberg code as an enforcement mechanism 
with the Department of Defense. That is less satisfactory than 
the International Criminal Court. So this is something which is 
just baseline fundamental, and in a civil court, without the 
immunity and protection of the Federal Tort Claims Act, if 
there isn't informed consent, it is just a major error and 
imposition on people who are subjected to these sorts of tests. 
So we will pursue that.
    Mr. Cole. May I quickly say something about this? I am 
aware of tests that did take place in which volunteers were 
given information and then consented to be experimental 
subjects under the military experimental program. So this has 
certainly taken place in some instances.
    Ms. Schwartz. Mr. Chairman, if I might, in my research of 
looking at the Ranch Hand data that the Air Force had, it was--
they do have actually an informed consent. The difficulty is it 
is so broad it would never pass the inspection of any internal 
review board that we have today. And so if you do embark on 
this investigation, I suggest that you look at the criteria 
that is required for any tests or experiments of research 
funded by the U.S. Government and compare it with some of the 
informed consents that military members are given.
    Senator Specter. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Specter.
    We have not called upon Steve Smithson yet, and you are 
giving testimony, and I apologize to you.

 STATEMENT OF STEVEN R. SMITHSON, ASSISTANT DIRECTOR, NATIONAL 
 VETERANS AFFAIRS AND REHABILITATION COMMISSION, THE AMERICAN 
                             LEGION

    Mr. Smithson. Good morning, Mr. Chairman and members of the 
committee. The American Legion appreciates the opportunity to 
provide testimony this morning regarding the strategies being 
pursued by the Departments of Defense and Veterans Affairs to 
provide appropriate care and support to veterans who may have 
been exposed to environmental hazards during their military 
service. As U.S. troops are currently deployed overseas 
fighting the war on terrorism, this topic becomes even more 
relevant.
    While military service is inherently dangerous and certain 
risks are to be expected, the Government is obligated to 
provide proper health care and compensation to those who 
sustain chronic disabilities as a result of such service. While 
VA is charged with caring for military members once they leave 
active duty, its mission is tied directly to information and 
support received from Department of Defense. Herein lies a 
fundamental problem. DoD's primary mission is to fight wars and 
maintain national security. Caring for troops wounded or 
otherwise injured in the advancement of this mission has often 
been seen as secondary to its ultimate mission. However, 
without adequate communication, cooperation, and open sharing 
of information between these two entities, VA's ability to 
successfully serve our Nation's veterans is severely 
compromised.
    Prior to the Gulf War deployment, troops were not 
systematically given comprehensive pre-deployment health 
screenings, nor were they properly briefed on the potential 
hazards, such as fallout from depleted uranium munitions, that 
they might encounter on the battlefield or in the theater. 
Additionally, the recordkeeping was very poor. Numerous 
examples of lost or destroyed medical records of active duty 
and reserve personnel have been identified. Vaccines were not 
administered in a consistent manner, and vaccination records 
were often unclear or incomplete. Moreover, personnel were not 
provided information concerning vaccines or prescribed 
medications. Some medications were distributed with little or 
no documentation or dosage instructions, to include possible 
side effects or instructions to immediately report unexpected 
side effects to medical personnel. Physical evaluations, both 
pre- and post-deployment, were not comprehensive, and 
information regarding troop movements and locations and 
possible environmental hazard exposures was severely lacking. 
This lack of such baseline data and other information is 
commonly recognized as a major limitation in the evaluation and 
understanding of potential causes of the multi-symptom 
illnesses reported by many Gulf War veterans following the war. 
Unless the failures in the system just cited are corrected, we 
are doomed to repeat this pattern in the current war on 
terrorism as well as other future deployments.
    To avoid the problems just mentioned, the lessons learned 
from the Gulf War have precipitated the passage of laws and 
policies designed to create a concept of force health 
protection. For example, Section 765 of Public Law 105-85 
directed DoD to take specific actions to provide medical 
tracking for personnel deployed overseas in contingency or 
combat operations, outlining a policy for pre- and post-
deployment health assessments and blood samples. The conduct of 
thorough pre- and post-deployment examinations, including the 
drawing of blood samples, was specifically identified in the 
law. Such action is crucial for the accurate recording of a 
service member's health prior to the deployment and in 
documenting any changes in their health during deployment. 
Moreover, this is exactly the information that is needed by VA 
to adequately care for and compensate service members for 
service-related disabilities once they leave active duty.
    On the surface the concept of force health protection and 
related policies appear to have addressed the major problems of 
the past. However, in reality, as it was learned from recent 
Institute of Medicine and General Accounting Office reports on 
the subject as well as in testimony earlier this year before 
the House Veterans' Affairs Subcommittee on Health, the 
aforementioned force health protection policies are not being 
fully implemented, a major breakdown being at the field level. 
The organizational mechanisms tasked with ensuring 
implementation of these policies from the command level down to 
the operational unit are obviously not working. Again, this 
lack of urgency and compliance with the law appears to be 
related to DoD's corporate philosophy and culture and directly 
impacts its ranking of priorities. Unfortunately, the service 
member and veteran ultimately pay the price for this inaction.
    Title 38 of the United States Code places the burden of 
proof in establishing a service-connected disability on the 
veteran and establishing service connection directly impacts 
the veteran's ability to access VA health care. Without 
adequate DoD health surveillance and documentation of troop 
locations, environmental hazards, and other exposures, and 
timely sharing of this information with VA, this burden is 
virtually impossible for the veteran to meet. If relevant 
health and environmental exposure information is incomplete or 
does not even exist due to previously discussed breakdowns in 
the system, discussions on how VA and DoD can better share this 
information is moot. The American Legion believes a total 
commitment from all levels of the Department of Defense, 
especially the Secretary's office, as well as strong 
congressional oversight, are needed to ensure that such 
policies are actually implemented in a timely and consistent 
manner.
    One other major obstacle that prevents sharing of relevant 
exposure information has to do with classification issues. In 
the case of Project SHAD, the mere existence of a potentially 
hazardous activity, not to mention possible exposure and 
personnel participation information, was not known for many 
years afterwards because of national security and 
classification issues. National security is a legitimate 
concern, but veterans should not have to suffer undue hardship 
when national security is used unnecessarily as a justification 
to withhold information that is necessary for all veterans to 
pursue health care and compensation from VA. An oversight 
working group on biological and chemical testing as set forth 
in the proposed Veterans Right-to-Know Act of 2002 could prove 
to be an invaluable tool in overseeing the identification and 
declassification of such tests.
    The American Legion also believes that a sincere desire in 
information sharing and mutual cooperation at the highest level 
of DoD and VA is needed. A June 2002 letter from the Secretary 
of Veterans Affairs to the Secretary of Defense, expressing the 
importance of VA-DoD cooperation in quickly declassifying and 
releasing additional information regarding SHAD is a good 
example of such a desire. Such action at this level needs to 
continue if we are to satisfactorily resolve the hurdles 
associated with the dissemination of SHAD-related information 
as well as to avoid such problems in the future.
    Mr. Chairman, that completes my testimony. I will be happy 
to answer any questions you or members of the committee may 
have.
    [The prepared statement of Mr. Smithson follows:]

Prepared Statement of Steven R. Smithson, Assistant Director, National 
  Veterans Affairs and Rehabilitation Commission, The American Legion

    Mr. Chairman and Members of the Committee:
    The American Legion appreciates the opportunity to provide 
testimony regarding the strategies being pursued by the 
Departments of Defense (DoD) and Veterans Affairs (VA) to 
provide appropriate care and support to veterans who may have 
been exposed to environmental hazards during their military 
service. As U.S. troops are currently deployed overseas 
fighting the war on terrorism, this topic becomes even more 
relevant.
    While military service is inherently dangerous and certain 
risks are to be expected, the government is obligated to 
provide proper health care and compensation to those who 
sustain chronic disabilities as a result of such service. While 
VA is charged with caring for military members once they leave 
active duty, its mission is tied directly to information and 
support received from DoD. Herein lies a fundamental problem. 
DoD's primary mission is to fight wars and maintain national 
security. Caring for troops wounded or otherwise injured in the 
advancement of this mission has often been seen as secondary to 
its ultimate mission. However, without adequate cooperation, 
communication and open sharing of information between these two 
entities, VA's ability to successfully serve our nation's 
veterans is severely compromised.
    History is ripe with examples of DoD's failure to be 
forthcoming with timely and accurate information pertaining to 
toxic exposures such as Agent Orange in Vietnam, radiation 
exposure from Cold War nuclear detonation testing as well as 
biological and chemical warfare defense testing, known as 
Operation Shipboard Hazard and Defense (SHAD), in the 1960s. 
These are just a few examples of where crucial exposure 
information was unnecessarily withheld or classified, resulting 
in additional hardship and suffering for those exposed. 
Unfortunately, the Gulf War was no different. It took over five 
years for the Pentagon to publicly admit that U.S. troops were 
exposed to low levels of nerve agent following the destruction 
of an Iraqi munitions storage facility--Khamisiyah--in Southern 
Iraq in March 1991. Recent disclosures by DoD officials 
regarding Khamisiyah exposure modeling efforts raises serious 
doubts as to the accuracy of such modeling, bringing into 
question the actual number of U.S. troops exposed and the level 
of exposure.
    Hints of a possible repeat of this pattern recently 
surfaced in the war on terrorism with reports that U.S. troops 
stationed at a former Soviet air base in Uzbekistan may have 
been exposed to chemical agents that had seeped from old 
weapons caches stored by the /former Soviet Union. Such news, 
initially reported in early June, was later rebuffed by 
military officials as a false alarm.
    Exposure information pertaining to Project SHAD, a series 
of experiments designed to test the vulnerability of American 
war ships to chemical and biological warfare attacks, is slowly 
being declassified. To date twelve out of a possible 113 tests 
have been declassified and participants' names provided to VA, 
resulting in the initial notification this past May of only 622 
veterans. In order to ensure that all information relevant to 
the health and well being of those involved in the SHAD tests 
is provided to VA in an expeditious manner and all identified 
participants are notified of the possible health consequences, 
H.R. 5060 and S. 2704, the Veterans Right-To-Know Act of 2002, 
was recently introduced. The American Legion fully supports 
this legislation that specifically addresses the tests 
associated with Project SHAD and calls for the identification 
of all DoD tests involving chemical or biological weapons in 
which military personnel may have been exposed to actual or 
simulated agents with or without their knowledge or consent. We 
also note that S. 2514, the Defense Appropriations Bill for 
Fiscal Year 2003 was recently amended to include a provision 
addressing the SHAD issue.
    In other instances procedural breakdowns, such as improper 
record keeping, has been the culprit. A perfect example is the 
poor documentation of possible exposures during the 1991 Gulf 
War. Prior to the Gulf War deployment, troops were not 
systematically given comprehensive pre-deployment health 
screenings, nor were they properly briefed on the potential 
hazards, such as fall out from depleted uranium munitions, that 
they might encounter on the battlefield or in the theater. 
Additionally, as referenced above, record keeping was very 
poor. Numerous examples of lost or destroyed medical records of 
active duty and reserve personnel have been identified. 
Vaccines were not administered in a consistent manner and 
vaccination records were often unclear or incomplete. Moreover, 
personnel were not provided information concerning vaccines or 
prescribed medications. Some medications were distributed with 
little or no documentation or dosage instructions, to include 
possible side effects or instructions to immediately report 
unsuspected side effects to medical personnel. Physical 
evaluations--pre and post deployment--were not comprehensive 
and information regarding troop movements/locations and 
possible environmental hazard exposures was severely lacking. 
The lack of such baseline data and other information is 
commonly recognized as a major limitation in the evaluation and 
understanding of potential causes of the multi-symptom 
illnesses reported by many Gulf War veterans following the war. 
Unless the failures in the system cited above are corrected, we 
are doomed to repeat this pattern in the current war on 
terrorism as well as other future deployments.
    As briefly outlined above, there are numerous obstacles 
that impede DoD's sharing of relevant information on 
potentially hazardous exposures with veterans and VA. One major 
obstruction is that DoD's primary mission, as previously 
discussed, is inherently at odds with VA's role of providing 
health care and compensation to veterans. It is not so much 
that DoD intentionally puts up roadblocks to prevent veterans 
from being properly served by VA, but rather the fact that this 
is not a DoD priority. To avoid the procedural problems 
encountered both during and after the Gulf War, as discussed 
above, ``lessons learned'' from the Gulf War, have precipitated 
the passage of laws and policies designed to create a concept 
of Force Health Protection. For example, Section 765 of PL 105-
85 directed DoD to take specific actions to improve medical 
tracking for personnel deployed overseas in contingency or 
combat operations, outlining a policy for pre and post 
deployment health assessments and blood samples. The conduct of 
a thorough examination (pre and post deployment), including the 
drawing of blood samples was specifically identified in the 
law. Such action is crucial for the accurate recording of a 
service member's health prior to deployment and in documenting 
any changes in their health during deployment. Moreover, this 
is exactly the information that is needed by VA to adequately 
care for and compensate service members for service-related 
disabilities once they leave active duty.
    On the surface the concept of Force Health Protection and 
related policies appear to have addressed the major problems of 
the past. However, in reality, as was learned from recent 
Institute of Medicine (IOM) and General Accounting Office (GAO) 
Reports on the subject as well as in testimony earlier this 
year before the House Veterans Affairs Subcommittee on Health, 
the aforementioned Force Health Protection policies are not 
being consistently implemented. The organizational mechanisms 
tasked with ensuring implementation of these policies from the 
command level down to the operational unit are obviously not 
working. Again, this lack of urgency and compliance with the 
law appears to be related to DoD's corporate philosophy/culture 
and directly impacts its ranking of priorities. Unfortunately, 
the service member and veteran ultimately pay the price for 
this inaction.
    Title 38 United States Code places the burden of proof in 
establishing a service-connected disability on the veteran and 
establishing service connection directly impacts the veteran's 
ability to access VA health care. Without adequate DoD health 
surveillance and documentation of environmental hazards and 
other exposures, and timely sharing of this information with 
VA, this burden is virtually impossible for the veteran to 
meet. If relevant health and environmental exposure information 
is incomplete or does not even exist due to previously 
discussed breakdowns in the system, discussions on how VA and 
DoD can better share this information is moot. The American 
Legion believes a total commitment from all levels of DoD, as 
well as strong congressional oversight, are needed to ensure 
that such policies are actually implemented in a timely and 
consistent manner.
    One other major obstacle is the delay in relevant exposure 
information due to classification issues. In the case of 
Project SHAD, the mere existence of a potentially hazardous 
activity, not to mention possible exposure and personnel 
participation information, was not known for many years 
afterward because of national security and classification 
issues. National security is a legitimate concern, but veterans 
should not have to suffer undue hardship when national security 
is used unnecessarily as a justification to withhold 
information that is necessary for a veteran to pursue health 
care and compensation from VA. An oversight working group on 
biological and chemical testing as set forth in the proposed 
``Veterans Right-To-Know Act of 2002'' could prove to be an 
invaluable tool in overseeing the identification and 
declassification of such tests.
    The American Legion also believes that a sincere desire in 
information sharing and mutual cooperation at the highest level 
of DoD and VA is needed. A June 2002 letter from the Secretary 
of Veterans Affairs to the Secretary of Defense, expressing the 
importance of ``VA-DoD cooperation'' in quickly declassifying 
and releasing additional information regarding SHAD, is a good 
example of such a desire. Such action at this level needs to 
continue if we are to satisfactorily resolve the hurdles 
associated with dissemination of SHAD-related information as 
well as avoid such problems in the future.
    Mr. Chairman, that completes my testimony. I will be happy 
to answer any questions you or members of the committee may 
have at this time.

    Chairman Rockefeller. Thank you, and your testimony was 
already previously included in the record.
    Mr. Smithson. Yes, sir.
    Chairman Rockefeller. Dr. Cole, you have testimony, and I 
don't want to keep you from your testimony. And I am really 
grateful that you are here. We have looked at the Persian Gulf 
War legacy together, and the business of informed consent for 
unapproved drugs, and the discipline within the military to 
make sure that it is written at best, verbal if less than best. 
What are the rules? Two questions. One is: The law actually, I 
think, says you have got to sign your name, the soldier has to 
sign his name. I don't think verbal is enough. I think the 
soldier has to sign his name. But I am not sure of that because 
I am not a lawyer.
    Second, if you had to--and I am projecting this forward to 
the Gulf War from SHAD--if you had to estimate the number of 
military who were subject to taking PB, who were told about it, 
who had to give their informed consent on a daily basis, so to 
speak, what would that number be? Would it be above 20 percent?

   STATEMENT OF LEONARD COLE, PH.D., DEPARTMENT OF POLITICAL 
            SCIENCE, RUTGERS UNIVERSITY, NEWARK, NJ

    Mr. Cole. Well, something like 250,000, as far as we know, 
but that is just an approximation, because as far as I am 
concerned personally, a lot of what happened can be excused 
because of, I think, the fear, the worry, the legitimate 
anxiety that our troops might have been exposed to sarin or, in 
the case of the anthrax vaccine which was administered, because 
we were worried about anthrax during the 1991 Gulf War. What I 
think is unforgivable is that we don't have the records to 
indicate who got the doses, when, how many of them received it, 
so now we can't go back and follow their medical history.
    Chairman Rockefeller. Isn't that because they didn't 
actually go collect them? That is what I am trying to get at.
    Mr. Cole. Well, I don't know what the reasons were. There 
was disorganization. There was an unwillingness to do the kind 
of follow-through that would have----
    Chairman Rockefeller. But the military has different 
sections. They have people who supply the warfighting weapons. 
They have people who would deploy. They have people who look at 
radar. They have people who worry about health care. So that 
the confusion argument has always been sort of a dodge to me. I 
mean, you have people in the military and DoD, whose only 
responsibility is health care. They don't make decisions about 
whether you launch an aircraft to go do something. The only 
decisions they make are on the health care aspects of what the 
DoD is doing, are they being carried out properly?
    And so unless they are vastly understaffed or if they are 
ignored when they try to do the right thing, which is always 
possible, I don't understand it. Am I right, though, that the 
verbal consent isn't enough, it has got to be written?
    Mr. Cole. OK. We have to----
    Chairman Rockefeller. Or is that a bureaucratic distinction 
even if it is legally correct?
    Mr. Cole. Well, I think beyond bureaucracy, beyond--it 
enters into the realm of legality and ethics. Any human subject 
research where a person is going to be experimented on is the 
issue. If an experimental drug is not necessarily for his own 
benefit, as would not be the case with piridostigmine bromide 
or the anthrax vaccines, but, rather, just simply to see what 
the effects of a potential agent would be, a person not only 
must give consent, but must do it in writing after being 
appropriately informed. Such experimentation on human subjects 
goes on now in the military.
    On the other hand, when you are in a battlefield situation 
and the troops are imminently threatened, I don't know that 
there is a requirement for anybody to sign his name and say, 
``I will take this kind of medication or drug.'' I just don't 
know the answer to that.
    Chairman Rockefeller. Well, then, what are the implications 
for the future? I mean, it is one thing to look back at SHAD 
and to decry the walking away from all of that. But now we are 
talking about a whole different kind of warfighting where 
people are not in large clusters, where they are, you know, in 
the jungles of the Philippines or Indonesia or they are either 
tree-covered or they are not tree-covered, or they are 14,000 
feet in the air and there are 5 or 6 of them or 8 or 10 of them 
or 2 or 3 of them, and there certainly isn't going to be a 
medical officer going around getting informed consent should 
such a kind of thing be required.
    So, I mean, if you take the new type of war into account--
you know, al Qaeda is in 70 countries plus all the other 
terrorist groups, including the ones we have in our own 
country--what do you see all of this leading to? Because 
biological and chemical weapons are now on the table. You don't 
have a discussion about anything without talking about them. It 
was kind of the surprise back--well, it wasn't a surprise, but 
it was new back in the Gulf War. Now it is expected.
    Mr. Cole. Well, the kind of conversation that you want to 
have now and that you started having in the 1990's is already a 
national conversation when you talk about vaccines--smallpox 
vaccine, anthrax vaccine. Never mind just the military. We are 
talking about whether every citizen in the United States should 
receive a smallpox vaccination. That is still under debate. Now 
there has been a decision that something like 500,000 people 
ought to get it, those people who would most likely be the 
first responders in case there is an attack.
    We are dealing with really a tough issue. I don't mean to 
move the locus of discussion from just the Veterans' Affairs 
Committee concerns to the Nation at large, but the reality is 
the questions that you are raising have national implications 
for all citizens, not just for veterans or not just people 
facing military situations next week or next month. I don't 
know that there is a good answer, but I do believe that there 
are good people working on, let's say, the least of the bad 
answers.
    In summary, I think you can take the smallpox vaccination 
as a model, or piridostigmine bromide, or anthrax, for a whole 
range of questions. How many people are we likely to save as a 
consequence of this policy as opposed to how many we are likely 
to injure or even kill as a consequence of the policy? We don't 
have the numbers clearly down yet, but it is risk versus 
benefit.
    Chairman Rockefeller. In a sense, what you are saying--and 
I think I will close with this, with the exception if any of 
you have anything more that you want to say, which I would 
welcome. It is a little bit like all of the American people are 
potentially veterans, so to speak. And we are not just talking 
about Iraq, we are not talking about other parts of the world. 
We are talking about this country. So then the whole question 
of what are we doing to beef up our public health system, the 
number of vaccines, informed consent for Americans who, you 
know, aren't at war, who are bringing up children, working, or 
whatever it is. They have their agendas, and they are also 
facing a form of danger which is very much up on them. So it 
suddenly is a different kind of question, isn't it? It is not 
the warfighters overseas but the American people at home, and 
all of the ethical and legal questions begin to sort of 
overlap, don't they?
    Mr. Cole. Yes, I have a personal answer, if I may, for what 
I would say would be appropriate. I don't know that it is 
necessarily the correct national policy, but I believe that 
everybody should have the opportunity to take or refuse a 
smallpox vaccination or an anthrax vaccination, after being 
given the full panoply of the potential risks and benefits, 
unless the person is, obviously, not mentally competent or a 
juvenile. That is what we are about. We are a democracy. 
Informed consent is more than just about experiments. It is 
about how we should be living in a democracy.
    [The prepared statement of Mr. Cole follows:]
   Prepared Statement of Leonard A. Cole, Ph.D., Adjunct Professor, 
    Department of Political Science, Rutgers University, Newark, NJ
    Thank you for inviting me to comment on the ethics of conducting 
open air testing with biological and chemical warfare agents. Ever 
since 1976, when the public first learned that the U.S. Army had 
conducted germ warfare tests over populated areas, new information 
about such testing has continued to surface. Most recently, in May 
2002, the Department of Defense released information about a series of 
tests undertaken in the 1960s under ``Project Shipboard Hazard and 
Defense,'' or SHAD. These tests were part of a joint service program to 
assess the vulnerability of U.S. warships to a chemical or biological 
warfare attack. Unlike other outdoor biological and chemical warfare 
tests, these experiments may have deliberately exposed people to actual 
biological and chemical weapons without their informed consent.
    For a 20-year period, from 1949 to 1969, the Army conducted 
hundreds of mock germ warfare attacks by releasing bacteria and 
chemicals over populated areas--from San Francisco to New York, from 
Minneapolis to Corpus Christie, Texas. The test agents, which the army 
calls simulants, were intended to mimic more lethal bacteria and 
chemicals that would be used as weapons. The purpose was to see how the 
bacteria and chemicals spread while people went about their normal 
activities.
    The Army contends that none of the exposed population was at risk 
because the agents were harmless. Furthermore, it did not consider 
those people to be human subjects with the right of informed consent, 
but rather people who just happened to be in the area. Belatedly, the 
Army recognized that some of the bacteria and chemicals, including 
Serratia marcescens and zinc cadmium sulfide, posed health risks. In 
consequence, by the late 1960s, those agents were no longer being used 
as simulants. [Leonard A. Cole, Clouds of Secrecy: The Army's Germ 
Warfare Tests Over Populated Areas (Lanham, MD: Rowman and Littlefield, 
1990).]
    In other tests, the Army targeted individuals with actual warfare 
agents, such as the microorganism Coxiella burnetti, the cause of Q 
fever. In these instances, the targeted people were volunteers who were 
treated as human subjects. They were given information in advance about 
the tests, and were assured of quick medical treatment if they became 
ill. [Leonard A. Cole, The Eleventh Plague: The Politics of Biological 
and Chemical Warfare (New York: W.H. Freeman, 1998).]
    Recent reports about SHAD suggest that, unlike in these other 
tests, people were deliberately exposed not only to simulants, but to 
bio/chem weapons, and that the exposed people were not treated as human 
subjects. This is evident, for example, in material released by the DoD 
about a SHAD test called ``Shady Grove.''
    The report indicates that Coxiella burnetti, as well as simulants, 
were sprayed at ships in open Pacific waters. The report also says:
          The crews who participated in Shady Grove were not test 
        subjects, but test conductors. Participants should have been 
        fully informed of the details of each test. . . . Under actual 
        test conditions, test conductors should have worn appropriate 
        nuclear, biological, and chemical (NBC) protective equipment 
        and should have taken extensive safety precautions to prevent 
        any adverse health effects from the testing. [Fact Sheet, 
        Office of the Special Assistant to the Undersecretary of 
        Defense (Personnel and Readiness) for Gulf War illnesses, 
        Medical Readiness and Military Deployments. Provided at the 
        request of the Department of Veterans' Affairs. N.d., circa May 
        2002.]
    No reference is made to the participants' right of informed 
consent, apparently because the crews were not considered to be ``test 
subjects,'' but ``test conductors.'' Moreover, the statement is not 
clear that crew members received appropriate information about risks 
and protection, only that they ``should'' have received such 
information.
    In SHAD tests titled ``Flower Drum, Phase II'' and ``Fearless 
Johnny,'' VX nerve agent was sprayed at ships to assess the resulting 
contamination and the effectiveness of decontamination efforts. The 
DoD's fact sheet indicates that VX is ``one of the most toxic 
substances ever synthesized,'' and that it is able to kill ``within 10-
15 minutes after absorption of a fatal dose.'' But the fact sheet does 
not say whether crews were properly protected from the agent. Nor is it 
clear that anyone involved with the decontamination was informed about 
the nature of VX. [Fact Sheets, Office of the Special Assistant to the 
Undersecretary of Defense (Personnel and Readiness) for Gulf War 
illnesses, Medical Readiness and Military Deployments. Provided at the 
request of the Department of Veterans' Affairs. N.d., circa May 2002.]
    How much danger the crews faced during these tests remains 
uncertain. In fairness, it is important to recognize that today's 
standards and values are not necessarily the same as those of earlier 
periods. In the 1950s and 1960s, the culture appeared less sensitive 
than it is today to the rights of patients and of humans research 
subjects. Still, even with that understanding, and with due recognition 
of the Soviet threat that prompted the tests, ethical questions remain.
    During World War II, the Germans used thousands of Jews and other 
concentration camp inmates as involuntary experimental subjects. The 
experiments commonly caused pain, disfigurement, and death. In 1947, 
doctors who performed the experiments were tried in Nuremberg, and the 
verdict included a code of conduct for research with human subjects. 
The Nuremberg code enshrines the requirement that people be fully 
informed and give consent before becoming test subjects. The code 
became a standard in all civilized societies. In 1953, a DoD memorandum 
to the Army, Navy, and Air Force affirmed the code as policy and began 
with the admonition that ``the voluntary consent of the human subject 
is absolutely essential.'' [U.S. Secretary of Defense, Memorandum for 
the Secretary of the Army, Secretary of the Navy, Secretary of the Air 
Force, subject: Use of Human Volunteers in Experimental Research, 
Washington, DC, February 26, 1953.]
    Thus, any supposition that rules for human research subjects were 
different in the 1950s or 1960s than today would be untrue. Researchers 
may have been less sensitive to the requirement of informed consent. 
Patients and subjects may have been less informed generally about their 
rights. But the requirement of informed consent was official military 
policy.
    In the context of the SHAD tests, several conclusions seem 
appropriate.
    <bullet> Deliberately exposing people to biological or chemical 
weapons without some level of informed consent, would have been 
contrary to official policy. Ignoring the right of informed consent 
would also have been inconsistent with the military's treatment of 
human subjects in other tests in which actual weapons (as opposed to 
simulants) were used.
    <bullet> The requirement of informed consent should apply to 
everyone put at risk in such tests, whether the participants are 
designated as testers or subjects.
    <bullet> The United States government has a particular 
responsibility to people who were placed at risk by its experiments. 
The responsibility should include providing medical care and financial 
compensation to any participant made ill by the tests.

    Chairman Rockefeller. Any other comments? Yes, please?
    Ms. Schwartz. Just to let you know, I am retired from the 
U.S. Air Force, and I am on the faculty of the Yale School of 
Nursing, and I am in epidemiology. And basically one of the 
things about--you asked the question about did they go around 
and get informed consent before they give medications. Not 
necessarily, if it is something that has been, you know, a 
protocol that has already been established by the DoD, by the 
Air Force or so forth, but you do keep records of who gets 
what. Nurses do have to chart, and people who are giving those 
injections do have to chart.
    And Dr. Cole brought out a very important part. You wish 
that you could give the military member the option to have this 
injection or not, but that is not what happens because there is 
a certain commitment to mission readiness, and along with that 
the person has the right to know, the military person has the 
right to know what it is they are going to be doing.
    But the reality of what has happened here, both with SHAD 
and what you have been talking about this morning, is one 
thing. When everything is all said and done, whatever happened 
to those people on those ships, whatever happened to the people 
in the desert, this country owes them. We owe them. The 
Veterans Administration is the workmen's comp for people who go 
to war, for the men and women that have been exposed. And it 
is--and I know you have been a leader, and I thank you so much 
for it, Senator Rockefeller. But the truth of the matter is 
that every day veterans around this country have to beg for 
help. They have to beg for the care and consideration that they 
deserve for putting their life on the line every single day.
    We owe them the honor and respect of not making them beg 
for this help. We also have to look at the world today. This 
country has been jolted every day by something new--the 
Catholic Church, Arthur Andersen, Wall Street. It is 
unbelievable to me that we trust these men and women to defend 
our country and we will not--we will question their honesty, we 
will question what they say happened to them. And it is left to 
them, left to them and their families and their children, to 
make sense out of the sacrifice.
    We recently did--we looked at the deaths of over 5,000 
Vietnam veterans who served in Vietnam. The average age at the 
time of death was 51 years old. And as poignant and as striking 
as that might be, the saddest part of all is many of them died 
without knowing that they died for their country.
    Chairman Rockefeller. The hearing stands in recess. Thank 
you.
    [Whereupon, at 11:24 a.m., the committee was adjourned.]
                            A P P E N D I X

                              ----------                              

 Prepared Statement of Hon. Ben Nighthorse Campbell, U.S. Senator From 
                                Colorado
    Thank you, Mr. Chairman. I appreciate your convening this hearing 
and welcome everyone here today as we continue our efforts to 
investigate toxic exposures among our nation's veterans.
    Recently, we have received new information concerning the use of 
and exposure to chemical and biological agents as part of a warfare 
testing program in the 1960's. We continue to hear of Gulf War veterans 
who are suffering from a host of unexplainable symptoms. And now, we 
have American soldiers involved in another war--the war against 
terrorism.
    As our knowledge of scientific methods and research improves, we 
learn of the glaring errors we made in the past. There should be no 
question that our government should provide the necessary care and 
restitution for injuries caused by these errors.
    One might think that after the debacles of the Vietnam and Gulf 
Wars, accountability for illnesses incurred from exposure to chemical 
agents during war time would be a pretty clear issue. Unfortunately, 
however, the Department of Defense has not made the task of obtaining 
all of the data an easy one.
    Treating those who protect our nation's security as human guinea 
pigs for research purposes is inexcusable. Not only must we discontinue 
such practices, we must also make every effort to see that such 
exposures do not take place accidentally.
    Our primary concern should be to take the steps necessary for 
caring for the health of our veterans. I am hopeful that through 
careful analysis of the available data, we can understand precisely the 
causes of and the treatments for illnesses due to exposures. Then, we 
must implement policies to make sure that such exposures do not take 
place either intentionally or unintentionally.
    I believe it is imperative that we restore the trust and confidence 
of America's veterans in the federal government's response to these 
kinds of exposures.
    Again, I thank the chair, and look forward to today's testimony.
                                 ______
                                 
   Prepared Statement of Joy J. Ilem, Assistant National Legislative 
                  Director, Disabled American Veterans
    Mr. Chairman and Members of the Committee:
    I am pleased to present the views of the Disabled American Veterans 
(DAV) concerning strategies of the Departments of Defense (DoD) and 
Veterans Affairs (VA) to provide the most appropriate care and support 
to veterans who might have been exposed to environmental hazards during 
their military service.
    The health and well-being of the men and women who put themselves 
in harm's way in defense of our Nation continues to be one of our 
foremost concerns and is of great importance to the DAV's more than 1.2 
million members and their families. We appreciate the Committee's 
efforts to identify obstacles that prevent DoD from sharing relevant 
information on potentially hazardous exposures with veterans and VA. We 
strongly agree with the Committee that veterans deserve assurance that 
DoD can work productively with VA to identify, treat and, when 
possible, prevent potential long-term health consequences of their 
military service.
    The hazards of military service are well documented and include 
possible exposure to radiation, chemical and biological agents, 
herbicides, a variety of environmental hazards, infectious diseases, 
and a host of other toxins. Each new battlefield presents a unique set 
of health hazards. Many soldiers suffer life-long disabilities as a 
result of their military experience, due to blindness, spinal cord 
injury, cold injury, traumatic amputation, hearing impairment, and post 
traumatic stress disorder.
    Following the terrorist attacks on the World Trade Center and the 
Pentagon, the United States began to deploy troops to Afghanistan, 
Pakistan, and neighboring former Soviet Republics. To date over 30,000 
active duty personnel have been deployed and over 50,000 Reserve 
personnel have been called to active duty in support of operations in 
South Asia. According to DoD, these troops may experience high-altitude 
health hazards, and exposure to a variety of infectious diseases and 
environmental hazards to include agricultural and industrial 
contamination of food and water supplies, air pollution, and severe 
sand and dust storms.
    During Operations Desert Shield and Desert Storm, the United States 
deployed 697,000 military personnel to the Persian Gulf. Serious health 
concerns related to service in the Persian Gulf were reported as Gulf 
War veterans began to return home in 1991 with complaints of vexing 
symptomatology and the development of unexplained illnesses. More than 
100,000 troops who served in the Gulf War report they continue to 
suffer from a range of maladies including chronic muscle and joint 
pain, fatigue, headaches, memory loss, balance problems, and sleep 
disturbances. The complexity and controversy surrounding Gulf War 
illnesses immediately became apparent as the VA attempted to medically 
treat and compensate veterans who had become ill following their 
military service in the Gulf War. Controversy over this issue still 
exists today, more than ten years later, as scientists and medical 
researchers continue to search for answers and contemplate the various 
health risk factors associated with service in the Gulf War and 
reported illnesses affecting many veterans who served there.
    Following the Gulf War, 33 separate hazardous substances were 
identified to which Gulf War veterans may have been exposed. DoD was 
heavily criticized for failing to provide explanations about Gulf War 
veterans' health concerns or respond in a prudent manner. Faith in the 
government's commitment to ensuring the safety of servicemembers' and 
veterans' health and providing appropriate care was seriously eroded. 
After intense pressure, DoD admitted its shortcomings and failure to 
properly communicate with troops during the Gulf War about health 
concerns relating to smoke from oil well fires, required vaccinations 
and medications, exposure to depleted uranium, and other chemical 
hazards.
    Most recently, veterans service organizations (VSO) were notified 
that veterans who participated in a series of Cold War tests known as 
Project SHAD (Shipboard Hazard and Defense), a program encompassing 
several tests initiated in the 1960s to determine the vulnerabilities 
of United States warships to an attack with chemical or biological 
warfare agents, may have been exposed to potentially harmful biological 
and chemical agents. Only after intense pressure from veterans and 
Congress did DoD finally begin to release information about the tests 
conducted. VA and DoD, in a joint meeting, informed VSOs that both 
agencies would work collaboratively to develop the facts surrounding 
Project SHAD and accomplish declassification of materials, compile 
rosters of participants and inform them of potential exposures and 
possible short and long-term health effects. To date DoD has identified 
103 potential SHAD tests. However, the total number of servicemembers 
involved in the tests is still unknown. In May 2002, VA initially 
notified 622 of about 4,300 veterans already identified as participants 
in project SHAD about potential exposures. The Veterans Right To Know 
Act of 2002 (H.R. 5060 and S.2704), was recently introduced in part to 
expedite the process of gathering all essential information related to 
SHAD and test participants. DAV fully supports this legislation, which 
calls for full disclosure of each DoD test involving chemical or 
biological weapons in which members of the Armed Forces or civilians 
were or may have been exposed to actual or simulated hazardous agents, 
whether with or without their knowledge or consent.
    In November 1998, President Clinton directed the establishment of 
the Military and Veterans Health Coordinating Board (MVHCB), an 
interagency body including the Secretaries of Defense, Health and Human 
Services, and Veterans Affairs, to ensure coordination among the 
respective agencies with respect to clinical, research, and health risk 
communication issues related to the health of military members, 
veterans, and their families during and after future deployments. The 
MVHCB is responsible for making recommendations to minimize adverse 
health consequences of deployment and to coordinate an interagency 
information management (IM), and information technology (IT) task 
force, to ensure that all IM/IT requirements including record keeping 
are addressed by the agencies. A Deployment Health Working Group (DHWG) 
was also designed to determine interagency priorities for the 
assessment and prevention of deployment and post-deployment health 
issues. The work group is focusing on pre- and post-deployment health 
assessments, medical surveillance during deployments, combat stress 
control, and individual environmental exposure assessments. The group 
is responsible for providing recommendations to the various agencies 
concerning research, clinical findings, prevention, diagnosis, and 
clinical care. Another component of the group is to help ensure lessons 
learned from previous military combat operations are translated into 
effective preparation for future missions.
    Last year, a new Office of the Special Assistant to the Secretary 
of Defense for Gulf War Illnesses, Medical Readiness and Military 
Deployments (OSAGWI-MRMD) was formed to continue the support for 
appropriate health care for sick Gulf War veterans while promoting 
changes in existing military doctrine, policy and procedures that will 
minimize any future hazardous exposures during deployments. DoD 
recognized it must properly train military personnel in the use of 
chemical detection equipment, effectively communicate safety 
precautions for depleted uranium, the use of pesticides, and other 
chemical hazards future troops may encounter on the modern battlefield.
    Military officials claim they have a new mind set concerning the 
long-term health of their troops and have indicated that they are 
taking measures to improve medical monitoring of personnel sent 
overseas to fight the war on terrorism, in an attempt to avoid 
lingering health problems like those experienced by Gulf War veterans. 
Officials claim they are keeping careful records for troops and 
requiring servicemembers to complete a simple medical screening before 
and after they are deployed. One report indicated that the Armed Forces 
are beginning to convert medical records for each servicemember to an 
electronic database. The report also noted that the Pentagon has 
started environmental monitoring for areas where its sends its troops. 
Certainly, we hope these measures are being carried out. However, only 
time will tell if the appropriate agencies have fully addressed the 
lessons learned in the Gulf War and if efforts have been effectively 
coordinated to protect the health of our troops.
    The DAV believes military personnel should have complete medical 
examinations prior to deployment and after completion of an assignment 
to include collection of blood samples. This would allow clinicians and 
researchers to ascertain changes in health status in individuals and 
groups of servicemembers if health concerns become apparent following a 
particular deployment. It is also important that accurate record 
keeping during deployment is accomplished and accessible, especially if 
a servicemember becomes ill during the deployment. Many sick Gulf War 
veterans were unable to access field health treatment records once they 
returned home. DoD reported that many veterans could not obtain records 
because they were filed by the name of the hospital that retired the 
records and veterans could not furnish the name of the field hospital 
to which they were admitted. This documentation can be crucial to a 
veteran's medical treatment and application for VA disability 
compensation benefits.
    It is essential that all appropriate agencies work together to 
integrate deployment health-related lessons learned with regard to 
future doctrine and policy. This will help to assure that 
servicemembers and their families understand the possible health risks 
they face and how they can best protect themselves and their families' 
health and get the assistance and care they need as they transition 
into veteran status. The appropriate federal agencies must share 
responsibility for force health protection before, during, and after 
deployments. Without coordination, future veterans will likely 
experience problems similar to those that Gulf War veterans faced. DoD 
is obligated to provide accurate information about the health risks 
servicemembers face. The Department needs to be proactive rather than 
reactive concerning risks servicemembers may encounter during future 
deployments from the modern battlefield and environmental conditions. 
Likewise, the Veterans Health Administration must focus its scientific 
research, medical treatment, and outreach on veterans who become ill as 
a result of their military service. Disabled veterans must have access 
to appropriate treatment regimes so they can try to regain their health 
and well-being following military service.
    It is the government's obligation to provide veterans who suffer 
from service-related disabilities with health care and compensation. 
However, for VA to make accurate rating decisions on claims for service 
connection for disabilities associated with toxic exposures, it must 
have access to all relevant documentation. The current system in place 
makes it nearly impossible in some cases for veterans to obtain 
relevant exposure information in support of their claim for service 
connection, i.e., barriers reported by DoD in getting relevant Project 
SHAD information declassified expeditiously. It is essential that DoD 
practice good record keeping, especially for high-risk military 
exercises, and shares that information with the VA, servicemembers and 
veterans in a timely manner. Excessive delays for information are 
unacceptable. A veteran's health and well-being should not be put at 
further risk due to institutional barriers in information sharing 
between VA and DoD. This process must be streamlined and veterans must 
be immediately made aware of exposure to hazardous toxins and possible 
health effects.
    DoD's past failures in providing servicemembers and veterans with 
important information about potential toxic exposures and possible 
health effects is well documented. Project SHAD is just one more 
example. In the mean time, these veterans may have been denied 
treatment form the VA for health problems or compensation for 
disabilities that may only now be linked to their military service. DoD 
says it is concerned about the health and well-being of its troops; 
however, veterans believe actions speak louder than words. DoD reports 
it is now trying to streamline its medical record keeping process 
through the collection of pre- and post-deployment physicals, medical 
intelligence, health care delivery and other important documentation. 
This action is long overdue. Veterans who have sacrificed their good 
health in defense of our Nation deserve more than just promises. It is 
essential that DoD overcome institutional barriers and aggressively 
pursue initiatives that will ensure veterans who have suffered severe 
health consequences as a result of their military service have access 
to critical information related to hazardous exposures so they can be 
properly compensated for service-related disabilities and afforded 
timely and appropriate medical treatments. Without a true collaboration 
between the involved agencies we are doomed to repeat the past. 
Unfortunately, it is veterans who will needlessly suffer and continue 
to pay the price for inaction.
    We urge the Committee to closely monitor the federal agencies 
responsible for coordinating force health protection. We sincerely 
appreciate the opportunity to present our views on this important issue 
and its relationship to the health status of the veteran population.
                                 ______
                                 
 Joint Prepared Statement of the Desert Storm Justice Foundation, Paul 
     Lyons, President; Desert Storm Battle Registry, Kirt P. Love, 
   President; and American Veteran Justice Foundation, Dannie Wolf, 
                               President
    Dear Committee Members
    At the time in late 2000, OSAGWI had the opportunity to respond to 
a question posed to them concerning Project SHAD. Kirt Love and Venus 
Hammack were present at this Pentagon NSO meeting to hear CPT. Mike 
Kilpatrick and UNSECDEF Dr. Bernard Rostker say they would reply to the 
question of project SHAD. It would be nearly 2 years before anything 
else was said by this agency.
    This stall tactic is on going with other investigations, as it does 
with Gulf War issues. It started with Warren Rudmans' statements on 
behalf of PSOB (investigating OSAGWI) that OSAGWI should change from 
investigation to medical deployment. Then it produced heavily biased 
data that was unsupportive of veteran ``benefit of the doubt'' asto 
incidents and medical issues.
    The moment that Dr. Bernard Rostker left office in 2001 they 
changed that policy, they summarily cut all ties with any Gulf War 
grass roots groups and dealt strictly with the National Service 
Organizations. They stopped returning phone calls and emails, and 
dodged veterans at public events throughout 2001. The issue fell silent 
until the Anthrax incident of October 2001.
    OSAGWI has 6,000,000 records related to the Gulf War of which 
1,200,000 are of medical relevance. From that they post 57,000 they 
claim have relevance, and never produce evidence that the other 
6,000,000 are even real. 12 years later these materials (mainly CIA and 
CENTCOM) are 99% classified SECRET or higher--and not releasable.
    It is our firm belief that having viewed some records outside DOD 
intelligence main frame that many of the records are of HIGH 
relevance--like DIA's unwillingness to discuss its highly classified 
records on the 9 Nuclear Reactors in the 1991 Gulf War supplied by the 
Russians. That the Russians recommended we NOT bombed them, and we did.
    If Deployment Health Support Directorate is given the opportunity 
to run the SHAD investigation like it did the Gulf War investigation, 
it will deliberately stall and with hold vital data to keep damage to a 
minimum. Without Non-Military oversight, DOD is NOT capable of 
regulating or investigating itself internally.
    Our organization has had interaction with OSAGWI since 1997, and we 
are very familiar with their team having interacted with them on every 
level to include Public Town Hall Meetings. Every where they went 
around the United States, the veteran groups treated them same--``You 
have NO credibility with us''. From observation we also supported that 
conclusion, they do NOT provide answers to FOIA's of medical relevance 
or even basic request.
    Acknowledging medical conditions is one thing, but VA's ``Burden of 
proof'' policy is punitive in nature, and if DHSD is allowed to 
continue as is--it will make sure that SHAD veterans have as much 
trouble proving their claims as Gulf War veterans have theirs. Exposure 
dictates treatment, and so far the Deployment Health Clinical Center 
supported by DHSD is largely psychiatric research. They run on the 
basis that Somatization is the answer, which does not support lab 
baseline data.
    As a veteran of the Gulf War, we have first hand knowledge of 
OSAGWI interaction. On that basis we recommend Oversight investigation 
into their operation at this time for the protection of other soldiers 
currently deploying that are NOT protected from lessons learned by this 
agency.
                           military exposures
    Many Veterans have been failed by the DESP: deployment 
environmental surveillance program
    [1] Info related to service members health and deployments status--
was incomplete or inaccurate, according to GAO Report 02-478T.
    [2] DoDs' numerous databases, including those that capture health 
info, currently are not linked.
    <bullet> This transfer of data to a common electronic system, that 
will document, archive and
    <bullet> Access medical surveillance data is poor at best
    [3] The Secretary of the Army is responsible for medical 
surveillance for all of the DoD's deployments; this should be 
consistent with DoDs' medical surveillance policy.
    [4] Without this info, troops may not recognize potential side 
effects of exposures or take prompt precautionary actions, including 
seeking medical care.
    <bullet> Current Policies and Lessons Learned Programs have NOT 
been full Implemented today.
    <bullet> The (CHCS II) Composite HEALTHCARE system needs to be 
audited, according to GAO Report -02-173T
                   the continuing challenges of care
    [1] We have also reported that not all medic encounters in theater 
were being recorded on individual records.
    <bullet> So why are veteran's today, still having to prove to 
adjudicators their exposures?
    <bullet> Benefit of the doubt is almost never granted, impart 
because of DOD's stalling of actual exposures and events that surface 
nearly 30 years later.
    [2] VBA considers the VCAA's implementation a significant factor in 
the recent growth of its inventory of Compensation and Pension claims 
awaiting decisions--from the law's enactments.
    <bullet> Please read PL 106-475, Nov 9 2000.
    [3] Despite VBA's efforts, recent results from its quality 
assurance reviews indicate a significant decrease in rating accuracy, 
due in large part, to improper regional office implementation of VCAA 
requirements.
    [4] This law obligated the VA to assist a claimant in obtaining 
evidence that is necessary to establish eligibility for service 
connected benefit's being sought.
          Question--what is being done when claimants are informed 
        relevant records are unable to be obtained?
    [5] This lack of data by design, negatively impacts the STAR 
system, Systematic Technical Accuracy Review for the Regional Office.
    Today many claimants have not received notification request for 
evidence from V.A. federal service officers, and were not obtained by 
the VBA for evidence. Yet many vets have been failed by lax Industrial 
hygiene and sanitation in the Gulf War Theater; and very sadly, few 
have been evaluated in this manner.
    We, the above mentioned Gulf War Veteran's groups, insist the 
proper review of statistics and the number of claimant information, as 
seen by doctor's licensed by The American Board of Industrial Hygiene 
or Industrial Health Foundation. Those who are specialized in 
Environmental Medicine and/or Environmental Health could also treat us.
    Environmental Medicine is the medical discipline which studies and 
assesses the effect of environmental factors upon individuals with 
particular emphasis on the effect of foods, chemicals, water, indoor 
and outdoor air quality at home, work or school. It considers each 
patient as a unique individual exposed to a unique set of circumstances 
and needing an individualized therapy.
    Veterans seek this type of this evaluation for their claim.
    Once the cause of the health problem is uncovered, treatment is as 
direct as possible with minimal use of pharmaceutical drugs, which can 
often have adverse side effects and also often only mask other 
symptoms.
    Treatment consists of environmental controls, diet, nutritional 
supplements, correction of hormonal or metabolic deficiencies or 
imbalances, education and immunotherapy; (injectable and/or sublingual) 
where indicated. The amount of physicians in this area working at 
VAMC's is insufficient to support the number of post Vietnam deployed 
patient population.
                              compensation
    DVA will find it difficult to assist in conducing research should 
troops be exposed to environmental or occupational hazards, and 
identify legitimate service connected disabilities to adjudicate 
veterans disability claims.
    Service Connected disabilities adjudication have been hampered by a 
lock of 1.1 completed baseline health data of GWV
    2.2 assessments of their potential exposure to environmental health 
hazards and 3.3 specific health data on care provided before, during 
and after deployments.
    VSO officials we spoke with at the regional offices we visited 
expressed concern about the clarity and necessity of VCAA pre-decision 
notification letters.
    <bullet> Some VSO's are having trouble understanding these letters. 
There is not a way for a claimant to be sure the training and skill of 
the VSO who represents them.
    Paul Lyons, President, Desert Storm Justice Foundation
    Kirt P. Love, President, Desert Storm Battle Registry
    Dannie Wolf, President, American Veteran Justice Foundation
                                 ______
                                 
      Prepared Statement of the National Gulf War Resource Center
    Mr. Chairman and other distinguished members of the committee; the 
National Gulf War Resource Center (NGWRC) is pleased to discuss this 
issue from the Gulf War veteran perspective. Understanding how members 
of the U.S. military have been exposed to chemical, biological, 
radiological or hazardous material, no matter how the exposer happened, 
is critical to developing a strategy for treatment. We thank you in 
advance for holding this important hearing.
    In your invitation for testimony you wrote ``Veterans deserve 
assurances that DoD can work productively with the VA to identify, 
treat and if possible-prevent potential long-term health consequences 
from their military service''
    We agree with this statement. It is a simple request. However, with 
regard to Gulf War veterans, assurances and productivity have been 
lacking. We characterize DoD's efforts as unacceptable, bordering on 
deception.
    In keeping with the goals of this committee we have divided our 
testimony into three sections. Each section covers what we believe is 
the historical barrier that prevents the flow of information. The 
barriers we have identified are DoD Culture, Information Dominance, and 
Burden of Proof.
                              dod culture
    DoD has a demonstrated 50-year history of mitigating its failures 
with delay, denial and obstruction. Especially when it comes to 
exposures and what I call ``bad policy, resulting in self-inflicted 
wounds.'' It is this bad policy, and culture that produced a thirty, 
forty and fifty year waiting period for admissions of guilt and 
corrective action from DoD.
    The DoD culture is a mindset demonstrated over time and developed 
into a pattern of expected results based on whatever the external 
pressure is. Corporate cultures can be a good thing when they are 
developed to be mutually beneficial to the organization, the worker and 
consumer. Examples of organizational cultures that are bad are in the 
news today, in these organizations; losses and mistakes are hidden with 
strategic spin to delay the inevitable outcome. The company that is 
built on perception rather than truth will always find it-self in a 
credibility argument.
    Veterans have always understood what they were up against when 
taking on DoD.
    How can this committee change the DoD Culture? How can we help DoD 
develop its credibility with veterans?
    We start by holding the spin experts accountable. There should be 
hearings that investigate and prosecute those who would lie to delay 
the inevitable truth. Why is it acceptable, why do these spin experts 
continuing to receive taxpayer dollars?
    Veterans are the consumers; we demand that the practice of 
deception be stopped. We deserve truth and an honest broker. Our health 
is at risk because of Public Relations tactics. Truth would go a long 
way toward fixing this problem. Not truth in 30 years but truth now. 
Veterans have a right to know when they have been exposed to anything 
harmful.
    If DoD knows then why shouldn't the veteran. SHAD is a classic 
example of DoD Culture gone amuck. DoD knew of the exposures in the 
SHAD test for many years, certainly during the time that veterans like 
Jack Alderson were making inquiries into his health status.
    What was the response he was given when he asked for information? 
He was told that no such test ever occurred. He was blatantly lied to. 
Even as this lie began to fall apart DoD's Office of the Secretary of 
Defense for Gulf War Illnesses (OSAGWI) continued to lie to media and 
veteran service advocates. When asked if a list of names containing 
those potentially exposed were available, Mrs. Barbara Goodno and her 
public relations experts at the OSAGWI denied the existence of any such 
list on more than one occasion.
    I do not speculate on this subject. I worked in this organization 
and saw the list of names before I retired. The question is: What is it 
about the DoD Culture that allowed this person to continually lie to 
the media and to veterans when she knew full well that a list was 
available and it contained the names of veterans who had been exposed?
    I believe that she did it because of the DoD culture of striving 
for Information Dominance. It is the nature of DoD to mitigate and 
control the damage of a story even if being less than honest harms the 
public.
    I often tell my young nephew that lying is wrong, and dumb. Telling 
the truth is always better. Lying becomes even worse when you do it and 
you know you're wrong, because eventually, in 30 or 40 years the 
institution will be caught. I tell my nephew that a person who lies 
when they are obviously caught is twice the fool.
    Risk communication, the buzzword of DoD public relations should not 
mean, let me deceive you, let me delay the outcome for the benefit of 
protecting my organization. It should mean that you understand your 
audience, you understand your message and you deliver it with truth and 
honesty demonstrating your commitment to solving the issue and 
addressing the public concerns.
    Our suggestion to this committee is to change the DoD Culture. If 
DoD won't change on its own then we need to establish oversight with 
teeth. Terminate, prosecute and ban from governmental contact anyone 
who would purposely deceive America. We expect high standards from our 
soldiers, why not the same from the civilian leadership of DoD. 
Veterans can't be held hostage to public relations anymore. A bill 
recently introduced, S. 2704 and HR. 5060 is an attempt to establish an 
oversight mechanism that will protect veterans and allow information to 
flow both ways.
                         information dominance
    It should be of no surprise to anyone on this committee that when 
dealing with DoD you are subjecting yourself to a multitude of tactics 
and techniques that are battle tested and designed for one purpose, 
domination of the battlefield. It does not matter if the enemy is a 
country or a ``perception,'' the strategy is the same. DoD Information 
Dominance is an obstacle that prevents veterans from gaining the truth 
about their battlefield exposures.
    Information dominance may be defined as superiority in the 
generation, manipulation, and use of information sufficient to afford 
its possessors dominance over the full spectrum of an issue or 
conflict.
    For DoD, information dominance has three sources. DoD Public 
Affairs representatives use these sources to ``Control the Message.'' 
This control becomes the barrier that veterans face when trying to 
obtain information. The three sources of Information dominance are:
    <bullet> Command and Control that permits everyone to know where 
they are in the battlespace, and enables them to execute operations 
when and where they choose. They understand that no matter what you may 
want they can wait you out. They are the sole source provider.
    <bullet> Intelligence that ranges from knowing the enemy's 
dispositions to knowing the location of enemy assets in real-time. It 
also means knowing the expected outcome of a course of action. DoD 
weighs the cost of admitting the truth now or later based on the 
desired outcome. If DoD has done something wonderful you cant make them 
stop talking about it. If they have done something wrong they will 
``get back to you later,'' even if they know the answer already.
    <bullet> Information Warfare that confounds enemy information 
systems at various points (sensors, communications, processing, and 
command), while protecting one's own. Here is the meat of the problem. 
When you confront DoD in any form you are the enemy. Confounding the 
issues with disinformation or one-sided information is a primary tactic 
of DoD. Using SHAD as an example we have seen the DoD message develop 
over time. First they said the test never happened. Then they said it 
happened but no list were available. Then they said the list is 
available but only simulants were used. Now they admit live agent was 
used in some test but they say people wore protective clothing. This is 
a pattern of information dominance that allows DoD to eek out 
information and mitigates the story. They have known all along what the 
exposures are.
    Interestingly, the organization conducting the SHAD investigation 
is also responsible for producing the Gulf War Investigation. The 
reports produced from OSAGWI for the Gulf War are about mitigating the 
exposure.
    Recently a full 11 years after the Gulf War Dr. Michael Kilpatrick 
of OSAGWI admitted during a public hearing, that its chemical warfare 
agent reports from the Gulf War on Khamisiyah were--in his exact 
words--``A wild ass guess.''
    The VA used this report and others to deny treatment, benefits and 
compensation to veterans. Why did it take 11 years to admit what 
veterans knew immediately after the war? Why has it taken SHAD 
veteran's 40 years to hear the truth?
    DoD proudly sees itself as second to none in the use of 
information. Controlling the message is information dominance. This 
power is the barrier, which prevents soldiers and veterans from 
learning the true nature of exposures. The idea of acceptable losses, 
and no remorse, coupled with strategic spin has become the norm from 
DoD. Veterans demand a ``no excuses'' policy from DoD when they hold 
the information key to understanding exposures and health consequences. 
I implore this committee to establish some method to ensure information 
cannot be used as a weapon against our own veterans, so this type of 
``bad policy'' never happens again.
                            burden of proof
    More than decade ago, U.S. Forces were deployed to fight in a war 
that would be won in a matter of hours rather than years. The speed of 
battle and the technology that was employed ensured our success as we 
achieved our objectives. Today we are beginning to hear the familiar 
rhetoric in preparation for a new war with Iraq. We are seeing stories 
of how important our soldiers are and how well trained and magnificent 
they are in the conduct of their duty to protect America.
    This sentiment is true and deserved but for some the feeling that 
``soldiers matter'' only comes out in time of war much like people who 
turn to prayer only when they find themselves in dire straights. 
Serving veterans of the Gulf War has taught me how much soldiers fade 
from the conciseness of America when the war is over. 300,000 out of 
700,000 in theater Gulf War veterans have sought treatment from the VA 
for what they believe to be service-connected disabilities. Now in this 
time of great need and demand on our military I would like this 
committee to consider the burden of proof and how the DoD's culture and 
spin control of information has denied veterans health care.
    Under the current policies of the Veterans Administration (VA) 
soldiers who are called to war and then return home are required to 
present evidence of exposure or injury to the VA--- before they become 
eligible for care and compensation from the VA. This policy places the 
burden of proof on the service member to insure that DoD does its job. 
Some examples of the DoD failures in obtaining this burden of proof 
during the Gulf War include: Poor record keeping both in and out of 
theater, poor unit location management, lack of environmental 
monitoring, lack of useful chemical and biological agent monitoring, 
lack of predictive analysis and consideration of downwind hazards 
resulting from pre ground-war bombing, lack of knowledge on the effect 
and use of investigational new drugs and vaccines, poor enforcement of 
and adherence to pesticides use, lack of standards and methods when 
using or working around depleted uranium, the list goes on and on.
    The soldier would have needed to be a journalist, lawyer, 
environmentalist, scientist, chemical and biological weapons expert, 
meteorologist and doctor to obtain the proof required by the VA for 
service-connected disability.
    Interestingly enough, the military has all these occupational 
specialties in its ranks but the DoD and the VA still requires the 
individual to be responsible for obtaining and maintaining the required 
information. This is the crux of the problem: In obtaining access to 
the entitlement of medical treatment and services from the VA the 
burden of proof is improperly placed on the veteran when it should be 
placed on DoD.
    Lessons learned from the Gulf War were supposed to address this 
problem and as a result of ``Lessons Learned'' from studying the events 
of the Gulf War. The DoD and the JCS developed a plan that would 
prevent an event like ``Gulf War Syndrome'' from ever occurring again. 
This proactive policy was called Force Health Protection or (FHP). FHP 
is a protocol and the congress wisely established it in a public law 
designed to conduct a series of physical test on soldiers, before, 
during and after deployment. It also requires DoD to maintain medical 
data, exposure and event reports, and movement and location data. 
During my last assignment in the military I briefed this policy to 
numerous active duty soldiers around the United States. The Office of 
the Special Assistant for Gulf War Illnesses (OSAGWI) now called the 
Special Assistant for Gulf War Illnesses, Medical Readiness and 
Military Deployments (SAGWI/MR/MD) was then and is still today the lead 
agency on the investigation into Gulf War exposures and has also 
transitioned into Deployment Health Policy. The DoD is still ignoring 
this law, with no implemented policy. I would welcome your questions 
for the record to enable me to justify this statement.
    The problem of how to improve sharing of information between DoD 
the VA and the veterans is two fold:
          1. DoD is not enforcing the policy enacted into law as a 
        result of lessons learned from the Gulf War (PL.105-85, Section 
        762-765).
          2. The burden of proof for service-connected disabilities is 
        obviously misplaced and should fall on DoD and not the 
        individual.
    There have been many initiatives that have been suggested in order 
to speed the effectiveness and delivery of health care to veterans, 
however none have taken the shape of actual implementation. Despite 
pressure from two presidents, both the VA and DoD have made little 
headway in combining their health-care programs or sharing critical 
information. If they took those two simple actions, it would relieve 
the burden of proof from the individual. ``Most of the sharing 
initiatives are more illusory than real,'' said Stephen Joseph, 
assistant secretary of Defense for Health Affairs during the Clinton 
administration.
    ``VA and DoD created several joint facilities in recent years, but 
most of the management and operational functions at the facilities 
continue to be run separately,'' Joseph said.
    Joseph further stated, ``The biggest hindrance to greater 
cooperation and coordination between the two departments is their 
diverging missions. Delivering quality health care to veterans is the 
VA's primary mission. DoD's health programs are focused on keeping the 
military healthy and ready for the next engagement.''
    However there is a flaw in the belief that these missions are 
different or competing. They should be complimentary. DoD gets the 
soldier at the reception station, builds the medical record and in some 
cases sends the soldier to war. The VA is the recipient of the veteran 
when they return from war or leave the service. In order to take care 
of the soldier DoD must take responsibility for the burden of proof 
from day-1 through the soldiers end of service. The reason that VA 
health care has been limited for Gulf War veterans is the lack of 
commitment from the DoD to do its job while the soldier is engaged in 
the conduct of his or her duty.
    Let me give an example of how this flaw has impacted Gulf War 
Veterans. Upon their return from the Gulf War, veterans began 
complaining of various illnesses and diseases that they believed were 
attributed to their service in the Gulf region. Veterans themselves 
began to organize and ask for assistance from DoD, the VA and others. 
No matter which direction veterans pointed to try and understand their 
illness the DoD and its selected scientists refuted veterans claims by 
making bold unfounded statements that were not backed up by scientific 
research.
    Even today DoD requires veterans and the public to simply believe 
them because they say so. Poor policies, weak protective measures, lack 
of records and other failures forced DoD to go back into time and write 
reports about the events of the Gulf War to try and explain the 
multitude of exposures. These reports are ``no more than guesses'' at 
what actually happened. Their conclusions can be easily refuted. The 
final reports were then used by the VA as evidence to substantiate lack 
of service connection to the exposures Gulf War veterans faced. Instead 
of actually fact finding for the purpose of helping veterans the 
reports have been used as weapons to prevent access to care and 
compensation. Today, science has caught up with the DoD, and we are 
discovering that these illnesses are absolutely service connected 
exposures and injuries. Allowing DoD to go back in time and guess about 
exposures and then give this information to the VA to deny benefits 
places the veteran in a double jeopardy. It makes as much sense as 
letting Enron investigate itself or asking the fox to guard the hen 
house.
    What are the obstacles and how do we improve benefits and services 
for Department of Veterans Affairs beneficiaries?
    We must first eliminate the DoD culture of delay, denial, and 
obstruction. Then Congress must demand that the DoD obey the Force 
Health Protection law's already on the books. This law also extends to 
the reserve component of the military. The DoD can accomplish this 
today, with its existing force structure. The civilian leadership 
simply needs to issue the order, and follow-up to insure that it's 
accomplished. The Secretary of Defense, on a monthly basis, should 
brief the Congress until there is compliance. The VA should be involved 
in the process proactively not retroactively.
    It's often said, ``the first casualty of war is truth.'' Our 
veterans are not demanding a big bag of money; they are demanding that 
which could be granted today. Truth. The whole truth, and nothing but 
the truth
                                 ______
                                 
    Prepared Statement of Paul A. Hayden, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Mr. Chairman and members of the committee:
    On behalf of the 2.7 million members of the Veterans of Foreign 
Wars of the United States (VFW) and our Ladies Auxiliary, I would like 
to thank you for the opportunity to comment on the strategies being 
pursued by the Departments of Defense (DOD) and Veterans Affairs (VA) 
to provide the most appropriate care and support to veterans who might 
have been exposed to environmental hazards during their military 
service.
    Throughout the past century, in peace and war, our military men and 
women have been exposed to a wide variety of environmental and manmade 
hazards. Aside from normal deployment exposures such as diseases 
endemic to certain geographical locations, troops in WWI were exposed 
to mustard gas among others agents; in WWII they exposed to radiation 
from atomic explosions; in Vietnam they exposed to herbicides designed 
to defoliate the jungle, and; in the Gulf War, they were exposed to low 
levels of toxic nerve gas.
    In fact, this Committee found in its 1998 Report of the Special 
Investigation Unit on Gulf War Illness, that the ``Gulf War experience 
can be seen as a microcosm for continued concerns regarding our 
nation's military preparedness and ability to respond effectively to 
health problems that may arise . . . as ``both [DOD] and [VA] gave 
insufficient priority to matters of health protection, prevention, and 
monitoring of troops when they [were] on the battlefield and thereafter 
when they [became] veterans.''
    Now, as a result of DODs recent disclosure regarding a group of 
Cold War chemical and biological tests commonly referred to as Project 
Shipboard Hazard And Defense (SHAD) that exposed veterans to dangerous 
and harmful agents, our Nation's attention is once again focused on how 
DOD and VA can ``collect information adequately about, keep good health 
records on, and produce reliable and valid data to monitor the health 
care and compensation status of veterans.''
    Seeking to apply lessons learned from the past, DODs current 
efforts in this arena revolve around the concept of Force Health 
Protection. One of the ways they accomplish this is by having the 
servicemember, not a physician, assess their state of health before and 
after deployments, by filling out forms DD Form 2795, Pre-Deployment 
Health Assessment, and DD Form 2796, Post-Deployment Health Assessment. 
In addition, DD Form 2796 asks the troops for their deployment 
location, country, and name of operation.
    In the Spring 2002, Vol. 1, Issue 4, Deployment Quarterly magazine, 
a DOD health official in response to a question regarding whether a 
soldier ``should get a complete physical examination after [they] 
return from a deployment'' replied, ``complete physical examinations 
are not necessary for most people who are returning from a 
deployment.'' This answer clearly contradicts and undermines the intent 
of Congress, not to mention the safety of the servicemember, when they 
authored Section 765 of PL 105-85. Under this law, DOD is required to 
perform pre-deployment medical examinations and post-deployment medical 
examinations to include the drawing of blood. All of these exams are to 
be retained in a centralized location to improve future access.
    Aside from DOD's failure to implement current law, the Institute of 
Medicine (IOM) in its report, Protecting Those Who Serve, (the 
recommendations of which the VFW concurs) stated that DOD has made 
``few concrete changes at the field level'' the most important 
recommendations remain unimplemented, despite the compelling rationale 
for urgent action.'' Additionally, a January 8, 2002, New York Times 
article seems to further illustrate this point. A Pentagon official in 
deployment health described the new mind-set in military health care as 
``trying to train people to ask questions, which is a change in 
military culture . . . Senior leaders need to understand that there is 
a major shift.''
    We believe the chair of the IOM Committee on Strategies to Protect 
the Health of Deployed U.S. Forces articulated the position that senior 
leaders are failing to grasp when he stated, ``while the accomplishment 
of the mission always will be the paramount objective, soldiers must 
know that their health and well-being are taken seriously. Failure to 
move briskly to incorporate these procedures (improved medical 
surveillance, accurate troop location, exposure monitoring, etc. . . .) 
will erode the traditional trust between the servicemember and the 
military leadership, and could jeopardize the mission.'' While DOD has 
received input from numerous expert panels, and has sought to implement 
changes based on lessons learned, it is our opinion that they have 
failed to carry out DOD-wide changes in an effective and efficient 
manner. They are not entirely to blame though, as institutional 
barriers are oftentimes hard to overcome.
    Up to this point, our testimony has focused primarily on DOD, and 
rightly so, because in order for VA to properly care for and compensate 
a veteran, it depends on accurate and timely information from the 
veteran's military health record. We believe that every veteran is 
entitled to a comprehensive life-long medical record of illnesses and 
injuries they suffer, the care and inoculations they receive, and their 
exposure to different hazards. Further, the transfer of this record 
from DOD to VA should be seamless. Communication between the two 
agencies needs to be streamlined so that data can be given to front-
line health care and benefit providers. Because that is not always the 
case, the problem experienced by veterans in the past has been their 
inability to convince VA that their disability is service connected. 
According to Title 38, USC, the burden of proof is placed upon the 
veteran. This is an inherit inequity of the system that demands 
correction.
    In cases such as these, Congress has a long history of creating 
presumptions for specific cases such as Vietnam veterans and exposure 
to the herbicide Agent Orange and presumption for service connection 
due to undiagnosed illnesses for Persian Gulf veterans. If DOD provided 
proper data to VA then there would be no need for corrective 
Congressional action and veterans who have a right to know if their 
illnesses were caused by exposure while in service would not have to 
wait decades to properly address their valid concerns.
    The VFW believes that only a total commitment to Force Health 
Protection from the highest levels of DOD can ensure accurate health 
data collection and dissemination. Further, the VA must remain vigilant 
in its role as the chief advocate for our nation's veterans; and once 
again, Congress must use its powers of oversight and legislation to 
ensure that future generations of veterans receive the care they were 
promised by a grateful nation.
    This concludes my testimony.

                                   - 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
